<html>
<title> - VACCINES--FINDING THE BALANCE BETWEEN PUBLIC SAFETY AND PERSONAL CHOICE</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




VACCINES--FINDING THE BALANCE BETWEEN PUBLIC SAFETY AND PERSONAL CHOICE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 3, 1999

                               __________

                           Serial No. 106-84

                               __________

       Printed for the use of the Committee on Government Reform


     Available via the World Wide Web: http://www.house.gov/reform

                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE
62-560                     WASHINGTON : 2000


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH, Idaho                   (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 3, 1999...................................     1
Statement of:
    Kennedy, Ronald C., professor, Department of Microbiology and 
      Immunology, University of Oklahoma Health Sciences Center; 
      Samuel L. Katz, professor emeritus, Department of 
      Pediatrics, Duke University Medical Center; and Marcel 
      Kinsbourne, pediatric neurologist..........................   260
    Nelson, Tonya and Gerald, Indianapolis, IN; Rick Rollens, 
      Granite Bay, CA; Carola Zitzmann, Voice of the Retarded; 
      Antonia C. Spaith, Falls Church, VA; Rebecca Cole, PKIDS, 
      Chapel Hill, NC; and Keith Bergen Van Zandt, M.D., PKIDS, 
      Winston-Salem, NC..........................................   157
    Satcher, David, M.D., Surgeon General of the United States...   108
Letters, statements, etc., submitted for the record by:
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................     8
    Cole, Rebecca, PKIDS, Chapel Hill, NC, prepared statement of.   246
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statement of...................    96
    Frenkel, Dr. Lawrence, chairman, pediatrics, University of 
      Illinois, College of Medicine at Rockford, prepared 
      statement of...............................................   105
    Katz, Samuel L., professor emeritus, Department of 
      Pediatrics, Duke University Medical Center, prepared 
      statement of...............................................   270
    Kennedy, Ronald C., professor, Department of Microbiology and 
      Immunology, University of Oklahoma Health Sciences Center, 
      prepared statement of......................................   264
    Kinsbourne, Marcel, pediatric neurologist, prepared statement 
      of.........................................................   289
    McHugh, Hon. John M., a Representative in Congress from the 
      State of New York, information from Pasteur Merieux 
      Connaught..................................................   299
    Nelson, Tonya and Gerald, Indianapolis, IN, prepared 
      statement of...............................................   161
    Ose, Hon. Doug, a Representative in Congress from the State 
      of California, prepared statement of.......................     2
    Rollens, Rick, Granite Bay, CA, prepared statement of........   171
    Satcher, David, M.D., Surgeon General of the United States, 
      prepared statement of......................................   113
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............    94
    Spaith, Antonia C., Falls Church, VA, prepared statement of..   240
    Van Zandt, Keith Bergen, M.D., PKIDS, Winston-Salem, NC, 
      prepared statement of......................................   249
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California:.......................................
        Prepared statement of....................................    17
        Various prepared statements..............................    20
    Weldon, Hon. Dave, a Representative in Congress from the 
      State of Florida, prepared statement of....................   148
    Zitzmann, Carola, Voice of the Retarded, prepared statement 
      of.........................................................   208

 
VACCINES--FINDING THE BALANCE BETWEEN PUBLIC SAFETY AND PERSONAL CHOICE

                              ----------                              


                        TUESDAY, AUGUST 3, 1999

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2 p.m., in room 
2157, Rayburn House Office Building, Hon. Dan Burton (chairman 
of the committee) presiding.
    Present: Representatives Burton, Waxman, Morella, Shays, 
Mink, Mica, Norton, Cummings, Kucinich, Davis of Illinois, 
Terry, Biggert, Schakowsky, and Ose.
    Also present: Representative Weldon of Florida.
    Staff present: Kevin Binger, staff director; Barbara 
Comstock, chief counsel; Daniel R. Moll, deputy staff director; 
James Wilson, chief investigative counsel; David Kass, deputy 
counsel and parliamentarian; S. Elizabeth Clay, professional 
staff member; Mark Corallo, director of communications; Corinne 
Zaccagnini, systems administrator; Carla J. Martin, chief 
clerk; Lisa Smith-Arafune, deputy chief clerk; Phil Schiliro, 
minority staff director; Phil Barnett, minority chief counsel; 
Sarah Despres and David Rapallo, minority counsels; Ellen 
Rayner, minority chief clerk; Jean Gosa, minority staff 
assistant; and Andrew Su, minority research assistant.
    Mr. Burton. The Committee on Government Reform will come to 
order. I know we have a big crowd that wants to get in, but 
we'll have to have the door shut, so we can hear what's going 
on. Officer, will you shut that door, please? Thank you.
    A quorum being present, the Committee on Government Reform 
will come to order. I ask unanimous consent that all Members' 
and witnesses' written opening statements be included in the 
record. Without objection, so ordered.
    [The prepared statement of Hon. Doug Ose follows:]

    [GRAPHIC] [TIFF OMITTED] T2560.001
    
    Mr. Burton. We will have more Members here shortly, but 
everybody is going to different hearings. This is a very, very 
busy week, as my colleagues all know.
    I ask unanimous consent, at this point, that Representative 
Schakowsky be appointed to the minority vacancy on the Criminal 
Justice, Drug Policy, and Human Resources Subcommittee. Without 
objection, so ordered.
    I ask for unanimous consent that Congressman Dave Weldon, 
who is one of the handful of physician Congressmen, join us on 
the stand and participate in our hearing today. Without 
objection, so ordered.
    Mr. Waxman. Reserving the right to object.
    Mr. Burton. The gentleman reserves the right to object. 
State his reservation.
    Mr. Waxman. Mr. Chairman, we really need to establish a 
policy when Members, who are not on our committee, are 
permitted to come and join us and ask questions. When we were 
in the majority, the policy we applied, whether it was a 
Democrat or a Republican, was that if the Member from outside 
the committee wanted to come and sit with the Members, they 
were certainly welcome to; but they were not permitted to ask 
questions because that wouldn't have been fair to other 
Members. That was the rule we applied, no matter what side of 
the aisle the Member was from.
    I don't know what the policy is now. If the policy is to 
let any Member who wants to come and join a hearing, join us 
and ask questions, it could get out of hand. So, we ought to 
have a policy established.
    Mr. Burton. Well, I think a gentleman's agreement between 
you and I would probably suffice, at this point. What I would 
suggest is if you, Mr. Waxman, have a Member that would like to 
come and ask questions on a specific topic, I don't think we 
would have any objection on our side. The reason we have Dr. 
Weldon here today is because he is a physician. We're talking 
about issues relating to the health industry and he has some 
expertise and some background in this area.
    Mr. Waxman. Well, Mr. Chairman, just to inquire further, 
and I don't--I'm not talking about this in any way personal to 
Mr. Weldon, but there are Members who have interest in hearings 
that this committee will have at one time or another. If you 
say you're going to let him come and you let someone on our 
side come, are we talking about one on each side? Or is it 
anybody who comes can come and--maybe what we could do, rather 
than work out a policy at this moment, is since we don't have 
many Members here, have an agreement that we'll let Mr. Weldon 
ask questions. But, I do think we need to think through this 
whole question.
    We had the issue come up recently with one of our Members 
who wanted to attend a hearing, and we said, look, if it were a 
field hearing, that's one thing, if it's in a Member's 
district. But, since it's a hearing in Washington, we didn't 
think it was proper to have a Member come and ask questions 
because other Members then have to wait until they take their 
turn, either on the first or second round. So, we need to have 
a policy, apply it, no matter who's involved. And this is an 
issue that--we had a policy when we were in the majority. I 
don't know what your policy is, but it sounds like for today, 
the question is Mr. Weldon.
    Mr. Burton. Well, I think the policy generally has been as 
the gentleman has stated. That's why I asked for unanimous 
consent that there be an exception made today. I think that we 
would make that exception, not as a general policy, but as an 
exception from time to time and we could do that for the 
minority. But, I'd be happy to sit down with the gentleman and 
try to work out some kind of a policy for future hearings.
    Mr. Waxman. The only thing I want to point out is that once 
you've made an unanimous consent exception, then others are 
going to say why not an unanimous consent exception for me and 
it gets harder to say no to people. Once you start down that 
road, just realize that we're sending an invitation out to 
anybody who wants to show up for any hearing, and it's going to 
be tough to control in the future.
    Mr. Burton. Well, I understand. And as the chairman--and 
you may be chairman in the next Congress, who knows. I hope 
not; but, nevertheless, it could happen. [Laughter.]
    But, if you're chairman in the next Congress, I will exceed 
to your wishes and, likewise, I hope you will mine. I will try 
not to make this a policy, but I will sit down with you to try 
to work it out, so that we can work with each other when we 
have exceptions like this that we'd like to have made.
    The gentleman will withdraw his reservation?
    Mr. Waxman. I'll withdraw my reservation.
    Mr. Burton. Thank you, very much, Mr. Waxman. Then, so 
ordered.
    We're here today to expand upon the work of two of our 
subcommittees. Both the Subcommittee on Criminal Justice, Drug 
Policy, and Human Resources and the Subcommittee on National 
Security, Veteran's Affairs, and International Relations have 
conducted hearings on vaccine issues. I'm thankful to my two 
subcommittee chairs, Mr. Mica and Mr. Shays, for being so 
diligent in pursuing issues regarding safety, efficacy, and the 
mandating of hepatitis B and anthrax vaccines.
    In this country and around the world, we have made a 
decision to vaccinate the entire population against dreaded 
infectious diseases. Children are required to receive numerous 
vaccines before they enter day care centers or schools. 
Vaccines that we now know contain mercury. Adults in certain 
professions are required to receive vaccinations for 
employment. This policy creates an inherent conflict between 
the interest of the individual and the community.
    The tension between the individual risks and the public 
benefit is a classic ethical dilemma for public health. Some 
have described the current mandating of an increasing number of 
vaccines to children to be a good intention gone too far. Many 
of you may remember the polio crisis earlier this century. It 
was through the work of brilliant scientists, like Jonas Salk 
and Albert Sabin, and their colleagues, that the polio vaccines 
were developed. It was a mad dash to the finish line of 
licensing for the manufacturers of these vaccines, while polio, 
which caused so much illness and heartache, appears to have 
been eradicated. But, there are still cases of polio today, 
cases caused by the vaccine, itself. Jonas Salk spent the last 
months of his life pleading with the government to stop the use 
of live vaccine, because of the cases of polio that it was 
causing.
    Both the Food and Drug Administration and the Centers for 
Disease Control have adverse events monitoring systems. The FDA 
system, the Vaccine Adverse Event Monitoring System, is a 
passive monitoring system. Medical professionals, the 
pharmaceutical industry, and the public report adverse events. 
Over 11,000 adverse events were reported just last year. Over 
5,900 adverse events have been reported so far this year, about 
one-sixth of those are considered serious. In all, 95,103 
adverse events have been reported to this system since its 
inception. The former FDA Commissioner estimated that only 1 in 
10 adverse events are reported, which means that we're talking 
about something close to 950,000.
    Now, what is a serious event? It includes events that 
require hospitalization, events that cause disability, and 
events that kill. When asked about the safety of their 
vaccines, one pharmaceutical representative told my staff, 
everything has adverse events, including aspirin. To the 
academic or bureaucratic realm, the risk benefit ratio is 
numbers on a page. But to the parent of a child, who suffered a 
serious adverse event from a vaccine, that risk becomes a 
reality.
    The risk was too real for the Nelson's, whose 1-month old 
daughter, Abbey, born healthy and hearty, died less than 1 
month after coming home from the hospital. They later learned 
from the doctor, who performed the autopsy, that it was a death 
related to the hepatitis vaccine given to their daughter in the 
hospital when she was 2 days old.
    To Rick Rollens, whose son acquired autism from a vaccine 
reaction, the risk was too great. The autism, vaccine linked, 
is very controversial. But, we have verified with current and 
former NIH neurologists that any injury to the brain can cause 
autism, including the shock to the neurological system by a 
vaccine. They will testify today.
    To Michelle Clements, who is not able to be with us today, 
but who has submitted written testimony, whose son has spent at 
least 3 years in a coma, as a result of the DPT vaccine, the 
risk was too great.
    We, as the government, can no longer keep our heads buried 
in the sand like an ostrich, pretending that there is no 
problem. On the flip side of this discussion is the need to 
protect the public at large from vaccine preventable diseases. 
I am not stating or implying that we should not have vaccines, 
because they are crucial to public health.
    We will hear today from Carola Zitzmann, whose son was born 
in 1964 with severe disability, after being exposed to rubella 
during her pregnancy. We will also hear from Rebecca Cole, 
whose child died from chicken pox; and from Dr. Keith Van 
Zandt, a pediatrician, whose child is living with hepatitis.
    In 1997, President Clinton directed Secretary Shalala to 
work with the States to develop an integrated immunization 
registry system and to require that all children in federally 
subsidized child care centers be immunized. This mass tracking 
of childhood vaccinations has created State registries that are 
tracking children from birth to grave. With these State systems 
reporting back to the Federal level, we have instigated 
something the American people have strongly and loudly opposed, 
national medical tracking and invasion of the American public's 
privacy. One report stated that the long-term tracking strategy 
had three steps: first to notify families with a postcard when 
their child was late for a vaccine; second, if they did not 
comply, then a government official would call them on the 
telephone and remind them; and third, if they still did not 
comply, a government official would come and visit their home. 
I think that's going too far.
    And what of attaching immunizations to Federal child care 
centers? Does this mean if your child has a medical or 
religious exemption, that he or she will not be allowed to 
access a federally subsidized facility? In our rush to 
vaccinate everyone, have we informed members of the public that 
they have choices? No, we have not. In our rush to vaccinate, 
do physicians and health care providers keep current in the 
medical literature, conscientiously reviewing medical 
histories, read package inserts and the Physician Desk 
References for contradictions, and clearly discuss these with 
their patients or their parents? Not very often. Have we become 
complacent in our protecting of our children, just so that we 
can meet some kind of a quota?
    We will hear today also from Antonia Spaith, a Department 
of Defense civilian employee, who suffered serious adverse 
events after taking the anthrax vaccine and other vaccines. The 
mandating of anthrax vaccine in the military is a great concern 
to many in the Congress. I have joined my colleagues, 
Congressman Walter Jones, Ben Gilman, and others, in sponsoring 
legislation to stop the mandating of this vaccine.
    From intense investigations, it has been learned that the 
decision to use this vaccine is fraught with errors. The 
adverse event rate is much higher than indicated and the 
military knows it. The research into its safety and efficacy 
does not provide any sense of security. We're using a vaccine 
that does not provide protection against strains of anthrax 
that would most probably be used, those that come through the 
air.
    As we have learned at the subcommittee level, this issue is 
adversely affecting military readiness. We are losing a lot of 
members of our military, who choose to leave the military, 
rather than take this vaccine. Morale is low, as a result of 
the misinformation campaign, also on the lack of information on 
adverse event reports. We learned that there is fear in the 
ranks about reporting. We learned that the Department of 
Defense filters these reports before sending them to the FDA. 
We, also, learned that in complete defiance of regulations, the 
manufacturing facility was not inspected until 1996.
    That means for 20 years, this manufacturing facility that 
produces the anthrax vaccine was not inspected, at which time 
it was learned that the quality control was deplorable. After 
20 years of producing this vaccine, they found that the quality 
control was deplorable. No vaccine has been produced and 
distributed since that inspection, which means that we've 
stockpiled vaccines that are likely adulterated and still being 
given to our service members, while the plant is being updated. 
Yesterday, a member of my staff reviewed a test video being 
prepared by the military to show to its members to inform them 
about this vaccine. It is full of intentionally misleading 
statements.
    Now, in order to keep the pharmaceutical industry in the 
vaccine development business, Congress created what was 
supposed to be a no fault system for vaccine victims to receive 
compensation. There is concern that the Department of Health 
and Human Services has modified the injury compensation table, 
and in so doing, excluded those injuries that were most likely 
to apply to the program.
    Now, we're pleased that Dr. David Satcher, the U.S. Surgeon 
General and Assistant Secretary for Health will be testifying 
on behalf of the Department of Health and Human Services. We're 
also pleased that Dr. Marcel Kinsbourne, Dr. Ronald Kennedy, 
and Dr. Samuel Katz will be testifying today, and we welcome 
them.
    [The prepared statement of Hon. Dan Burton follows:]

    [GRAPHIC] [TIFF OMITTED] T2560.002
    
    [GRAPHIC] [TIFF OMITTED] T2560.003
    
    [GRAPHIC] [TIFF OMITTED] T2560.004
    
    [GRAPHIC] [TIFF OMITTED] T2560.005
    
    [GRAPHIC] [TIFF OMITTED] T2560.006
    
    [GRAPHIC] [TIFF OMITTED] T2560.007
    
    Mr. Burton. The hearing record will remain open until 
August 16th for all those who wish to make written submissions 
to the record.
    [Note.--The information referred to is held in committee 
files.]
    Mr. Burton. I now recognize my colleague and ranking 
minority member, Mr. Waxman, for his opening statement.
    Mr. Waxman. Mr. Chairman, there are a few triumphs in the 
annals of medicine like vaccinations. Vaccines have saved more 
lives than any other medical intervention in history. Today, 
they protect us from deadly infectious diseases which spread 
death, disability, and misery in other less fortunate parts of 
the world. Thanks to universal immunization, the United States 
has made tremendous progress against polio, diphtheria, 
whooping cough, and other diseases. According to UNICEF, these 
diseases kill 2\1/2\ million children and cripple 750,000 
children worldwide every year. Without vaccinations, American 
children would also be vulnerable to similar catastrophic 
epidemics.
    I don't think American parents would ever permit their 
children to be exposed to such extreme risks. But today we are 
becoming complacent about our success against infectious 
diseases. Unlike our parents and grandparents, we aren't 
terrorized every year by paralytic polio and whooping cough 
epidemics. This makes it easier to forget the value of vaccines 
and to focus on their potential risks. But, if children are 
frightened and parents discouraged about vaccines, we will 
quickly become vulnerable again to infectious diseases.
    No one doubts that there are adverse reactions to vaccines. 
It is unfortunate that they happen and that children and adults 
suffer as a result. That is why I sponsored the National 
Childhood Vaccine Injury Act of 1986, which established the 
National Vaccine Injury Compensation Program. This program 
relies upon the best available science and medicine to provide 
an alternative to litigation for individuals who suffered 
specific vaccine related injuries.
    Today we must continue to rely upon what science tells us 
about the benefits and risks of vaccines. We must continue to 
educate the public about vaccines, their benefits and risks. 
While everything we know about childhood vaccines tell us that 
their benefits far outweigh their risks, we must remain 
vigilant and continue epidemiological research into potential 
side effects.
    There is a simple way to illustrate the importance of 
vaccination. Two hundred years ago, Edward Jenner developed the 
first small pox vaccine. I was inoculated against small pox; my 
children, who were born in the 1960's, were also inoculated. 
But those of you who were born in the 1970's do not have a 
small round scar that we bear on our shoulders because you 
didn't need the small pox vaccine. Small pox no longer 
threatens our children in our beds or whole communities with 
death. It's just a memory.
    Today, we are tantalizingly close to eradicating the second 
communicable disease in history, polio. But until polio, 
meningitis, diphtheria, hepatitis, and other diseases are truly 
memories, our children and our families will continue to be at 
risk. Vaccination will remain an indispensable public health 
defense and it will be Congress's responsibility to continue to 
support and encourage universal vaccination.
    Mr. Chairman, we will hear from families today who have 
suffered either adverse reactions to the vaccine or health 
problems they believe are linked to the vaccine. We will also 
hear from the families of those who have experienced the trauma 
and stigma of infectious disease. I'm sympathetic to all of our 
witnesses and look forward to their testimony.
    Unfortunately, however, there are many witnesses that we 
will not hear from. The Democrats made a request for witnesses, 
but only half of those requests were granted. We requested to 
hear from a doctor who could have talked about efforts to 
vaccinate worldwide and the ravages of vaccine preventable 
diseases on children around the globe. We asked for a doctor to 
testify who has been doing vaccine studies since 1967 and who 
is an expert on reactions to the pertussis vaccine. And we 
asked to hear from a member of the board of directors of the 
American Academy of Pediatrics. But, these requests were 
denied.
    Many other voices are missing from this discussion. For 
example, there is no representative from the State health 
agencies who actually mandate vaccinations and administer 
vaccine programs. There's no representative from the vaccine 
manufacturers who bear a large responsibility for vaccine 
safety. I deeply regret that these groups are not here today to 
provide us with balanced and informed testimony.
    That's what hearings are supposed to be all about. We hear 
different points of view. And in the course of hearing 
different points of view, we can try to find out what the truth 
may be. But I'm sad that at this hearing we're not getting a 
balanced opportunity to get input from witnesses who have 
something very important to say.
    Now, let me just point out to everybody what that would 
have entailed. Witnesses are given 5 minutes to testify. The 
Republican majority on this committee would not let us hear 
from somebody from the American Academy of Pediatrics for 5 
minutes. The Republicans running this committee wouldn't let us 
hear from a doctor that has been doing vaccine studies since 
1967 and is an expert on reactions to the pertussis vaccine for 
5 minutes. The Republican leadership did not allow us to hear 
from a doctor who could have talked about efforts to vaccinate 
worldwide and the ravages of vaccine preventable diseases on 
children around the globe for 5 minutes.
    But I wouldn't object to a colleague of ours, who is not 
even on this committee, to be able to ask questions for 5 
minutes because I think people ought to be able to have an 
opportunity to say what they have to say. Although when we get 
Members who will hear that this is a committee they can all 
join at any moment to ask questions, we're going to have no 
time for witnesses, because the Members are going to be the 
only ones talking.
    In conclusion, I wish to submit for the record the 
positions of leading medical and patient organizations in 
support of universal vaccination. I want to submit for the 
record a statement from the World Health Organization and the 
Pan American Health Organization, the American Medical 
Association, the Association of State and Territorial Health 
Officials, the American Nurses Association, the American Public 
Health Association, the American Academy of Family Physicians, 
the Children's Defense Fund, the American Pharmaceutical 
Association, the Partnership for Prevention, the Bill and 
Melinda Gates Children's Vaccine Program, the Immunization 
Action Coalition, Every Child By Two, and the National 
Foundation for Infectious Diseases. So when we have a printed 
record of this hearing, we'll have a lot of different points of 
view in that record. It's just today, when the presentations 
are made to us orally, that we will not have the opportunity to 
hear from all of the witnesses that we requested.
    I look forward to hearing the witnesses that are here today 
and I hope that will help us further our understanding about 
vaccinations and policies that would be best suited to help 
improve the health and safety of the children of this country.
    [The prepared statement of Hon. Henry A. Waxman and the 
statements referred to follow:]

[GRAPHIC] [TIFF OMITTED] T2560.008

[GRAPHIC] [TIFF OMITTED] T2560.009

[GRAPHIC] [TIFF OMITTED] T2560.010

[GRAPHIC] [TIFF OMITTED] T2560.011

[GRAPHIC] [TIFF OMITTED] T2560.012

[GRAPHIC] [TIFF OMITTED] T2560.013

[GRAPHIC] [TIFF OMITTED] T2560.014

[GRAPHIC] [TIFF OMITTED] T2560.015

[GRAPHIC] [TIFF OMITTED] T2560.016

[GRAPHIC] [TIFF OMITTED] T2560.017

[GRAPHIC] [TIFF OMITTED] T2560.018

[GRAPHIC] [TIFF OMITTED] T2560.019

[GRAPHIC] [TIFF OMITTED] T2560.020

[GRAPHIC] [TIFF OMITTED] T2560.021

[GRAPHIC] [TIFF OMITTED] T2560.022

[GRAPHIC] [TIFF OMITTED] T2560.023

[GRAPHIC] [TIFF OMITTED] T2560.024

[GRAPHIC] [TIFF OMITTED] T2560.025

[GRAPHIC] [TIFF OMITTED] T2560.026

[GRAPHIC] [TIFF OMITTED] T2560.027

[GRAPHIC] [TIFF OMITTED] T2560.028

[GRAPHIC] [TIFF OMITTED] T2560.029

[GRAPHIC] [TIFF OMITTED] T2560.030

[GRAPHIC] [TIFF OMITTED] T2560.031

[GRAPHIC] [TIFF OMITTED] T2560.032

[GRAPHIC] [TIFF OMITTED] T2560.033

[GRAPHIC] [TIFF OMITTED] T2560.034

[GRAPHIC] [TIFF OMITTED] T2560.035

[GRAPHIC] [TIFF OMITTED] T2560.036

[GRAPHIC] [TIFF OMITTED] T2560.037

[GRAPHIC] [TIFF OMITTED] T2560.038

[GRAPHIC] [TIFF OMITTED] T2560.039

[GRAPHIC] [TIFF OMITTED] T2560.040

[GRAPHIC] [TIFF OMITTED] T2560.041

[GRAPHIC] [TIFF OMITTED] T2560.042

[GRAPHIC] [TIFF OMITTED] T2560.043

[GRAPHIC] [TIFF OMITTED] T2560.044

[GRAPHIC] [TIFF OMITTED] T2560.045

[GRAPHIC] [TIFF OMITTED] T2560.046

[GRAPHIC] [TIFF OMITTED] T2560.047

[GRAPHIC] [TIFF OMITTED] T2560.048

[GRAPHIC] [TIFF OMITTED] T2560.049

[GRAPHIC] [TIFF OMITTED] T2560.050

[GRAPHIC] [TIFF OMITTED] T2560.051

[GRAPHIC] [TIFF OMITTED] T2560.052

[GRAPHIC] [TIFF OMITTED] T2560.053

[GRAPHIC] [TIFF OMITTED] T2560.054

[GRAPHIC] [TIFF OMITTED] T2560.055

[GRAPHIC] [TIFF OMITTED] T2560.056

[GRAPHIC] [TIFF OMITTED] T2560.057

[GRAPHIC] [TIFF OMITTED] T2560.058

[GRAPHIC] [TIFF OMITTED] T2560.059

[GRAPHIC] [TIFF OMITTED] T2560.060

[GRAPHIC] [TIFF OMITTED] T2560.061

[GRAPHIC] [TIFF OMITTED] T2560.062

[GRAPHIC] [TIFF OMITTED] T2560.063

[GRAPHIC] [TIFF OMITTED] T2560.064

[GRAPHIC] [TIFF OMITTED] T2560.065

[GRAPHIC] [TIFF OMITTED] T2560.066

[GRAPHIC] [TIFF OMITTED] T2560.067

[GRAPHIC] [TIFF OMITTED] T2560.068

[GRAPHIC] [TIFF OMITTED] T2560.069

[GRAPHIC] [TIFF OMITTED] T2560.070

[GRAPHIC] [TIFF OMITTED] T2560.071

[GRAPHIC] [TIFF OMITTED] T2560.072

[GRAPHIC] [TIFF OMITTED] T2560.073

[GRAPHIC] [TIFF OMITTED] T2560.074

[GRAPHIC] [TIFF OMITTED] T2560.075

[GRAPHIC] [TIFF OMITTED] T2560.076

[GRAPHIC] [TIFF OMITTED] T2560.077

[GRAPHIC] [TIFF OMITTED] T2560.078

[GRAPHIC] [TIFF OMITTED] T2560.079

[GRAPHIC] [TIFF OMITTED] T2560.080

[GRAPHIC] [TIFF OMITTED] T2560.081

[GRAPHIC] [TIFF OMITTED] T2560.082

[GRAPHIC] [TIFF OMITTED] T2560.083

    Mr. Burton. Well, I just like to say to my colleague, I 
regret that we were not able to have those additional three 
people testify, but we had six people on our side that wanted 
to testify and we have to set some limits. We try to respond 
and we did let you pick whomever you wanted, up to three people 
to testify. So, I apologize for not being able to accommodate 
the additional three witnesses.
    Mr. Shays.
    Mr. Waxman. Just to point out, there are nine witnesses----
    Mr. Burton. Yes, I understand.
    Mr. Waxman [continuing]. In addition to Dr. Satcher.
    Mr. Burton. We gave you more than the limit.
    Mr. Waxman. You gave us three out of the nine.
    Mr. Burton. Yes, we gave you more than you gave us when you 
were in the majority. Mr. Shays.
    Mr. Shays. I think some people got out of bed on the wrong 
side this morning. I don't think it was me. I welcome Dr. 
Weldon here and I look forward to others participating, as 
well.
    The Subcommittee on National Security, Veterans Affairs, 
and International Relations, which I chair, held four hearings 
on the Department of Defense [DOD] mandatory force-wide anthrax 
immunization programs. Questions we consider today about 
improving the safety and ensuring the efficacy of all vaccines 
apply with special urgency to the anthrax vaccine. In one 
subcommittee hearing, a DOD physician stated an important 
standard: good medical care requires use of the least evasive, 
lowest risk therapy available. All vaccines should continuously 
be measured against that standard.
    Immunization has been one of the most successful public 
health interventions in human history. It is undisputed 
vaccines have afforded remarkable, effective, and efficient 
protection against diseases that once sickened, disabled, or 
killed millions, particularly children. But as the number of 
mandatory vaccines climbs, great care must be taken, least the 
success begat complacency, or worse, arrogance about the extent 
of our knowledge about the human immune system. We know very 
little about the long-term cumulative effects of immunological 
challenges, both benign and toxic.
    Genetic variance may play a role in each individual's 
immunological response. One size of immunity may not fit all. 
So, as we look for ways to protect the public health into the 
next century, today's discussion on ways to improve the safety 
and efficacy of vaccines is an important one. I look forward to 
hearing the testimony today from all of our witnesses, those 
chosen by our ranking member and our chairman. I look forward 
to other hearings on this, since I know that we can't attempt 
to cover everything in one hearing. I particularly look forward 
to Dr. Satcher's testimony. As Surgeon General, he has been 
outstanding and I appreciate his participation in hearings I 
had when I chaired the Human Resources Subcommittee. Welcome, 
Doctor.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T2560.084
    
    Mr. Burton. Thank you, Mr. Shays. I just want to say you 
have done yeoman service with your hearings and you should be 
publicly acknowledged for that, and so should your staff.
    Are there others, who want to make an opening statement?
    Mr. Davis of Illinois. Just briefly, Mr. Chairman.
    Mr. Burton. Mr. Davis.
    Mr. Davis of Illinois. Thank you, very much, Mr. Chairman. 
I want to thank you for holding this hearing, in particular, 
given the fact that I am in agreement with those, who suggest 
that our program of vaccination has been the greatest health 
achievement that we've experienced in the last two centuries. 
I, too, believe that it should be universal, although there are 
some concerns, there are some problems, there are some 
instances, and education must continue to be a real part of the 
thrust.
    In addition to my own opening statement, I am also 
including in that statement testimony from Dr. Lawrence 
Frenkel, who is a physician, pediatrician, and immunologist. 
He's chairperson of the Committee on Infectious Disease of the 
Illinois Chapter of the American Academy of Pediatrics and co-
chair of the Public Affairs Committee of the Greater Illinois 
Chapter March of Dimes and chairman of Pediatrics at the 
University of Illinois, College of Medicine in Rockford and 
has, indeed, been a health advocate for more than 30 years. So, 
I submit, along with my opening statement, the statement from 
Dr. Frenkel, and yield back the balance of my time.
    Mr. Burton. Without objection, that will be included in the 
record.
    [The prepared statements of Hon. Danny K. Davis and Dr. 
Frenkel follow:]

[GRAPHIC] [TIFF OMITTED] T2560.085

[GRAPHIC] [TIFF OMITTED] T2560.086

[GRAPHIC] [TIFF OMITTED] T2560.087

[GRAPHIC] [TIFF OMITTED] T2560.088

[GRAPHIC] [TIFF OMITTED] T2560.089

[GRAPHIC] [TIFF OMITTED] T2560.090

[GRAPHIC] [TIFF OMITTED] T2560.091

[GRAPHIC] [TIFF OMITTED] T2560.092

[GRAPHIC] [TIFF OMITTED] T2560.093

[GRAPHIC] [TIFF OMITTED] T2560.094

[GRAPHIC] [TIFF OMITTED] T2560.095

    Mr. Burton. Mrs. Morella.
    Mrs. Morella. Thank you, Mr. Chairman. I want to thank you 
for holding this hearing today, to examine the role and 
necessary risks of vaccines and immunization. As we listen to 
the compelling testimony of our witnesses today, I would hope 
that we keep in mind the remarkable benefits society enjoys 
because of widespread vaccination. In fact, Mr. Chairman, 
vaccines and immunization programs have been so remarkably 
successful in eliminating or controlling many of the more 
common infectious diseases of childhood, that their use is 
often taken for granted. It's precisely because of this 
widespread success that the risks from vaccination, and there 
are risks, are causing such alarm today. However, we must not 
forget that vaccinations have been so successful that cases of 
diphtheria, whooping cough, tetanus, measles, mumps, and German 
measles is so unusual in the United States, that these 
infections and their consequences are unknown to most 
Americans.
    To get a clear understanding of the great contributions 
widespread vaccination has made, we need only listen to the 
stories from people like Barbara Hahn. In an earlier hearing on 
the subject, Mrs. Hahn testified about the effects of 
infectious diseases on millions of American families. I'd like 
to just read a short excerpt from her testimony to make the 
point.
    She said,

    I would like to tell you about my mother and all mothers 
like her, who suffered through the loss of a child from an 
infectious disease. Raising a family in the hills of Kentucky, 
where most people were too poor to pay for the little, if any, 
medical help available, my mother struggled to keep her family 
healthy. When one of her babies became serious ill, my mother 
and her parents did everything they could to try to help her. 
Despite their efforts, my mother watched her child, Patsy 
Lynne, die from whooping cough. While making arrangements for 
Patsy's funeral, my mother learned that another one of her 
children was gravely ill. Both children were buried on the same 
day, in the same casket, in the same grave, next to my mother's 
church.

    Mr. Chairman, childhood diseases like whooping cough and 
polio have been largely eradicated. As Mrs. Hahn's testimony 
shows, just a generation ago, the coming of summer brought 
fears of epidemics of polio. And now, iron lungs can be seen 
only in museums and dusty hospital storerooms. This has been 
accomplished through the development and use of safe and 
effective vaccines in national immunization programs around the 
world. Small pox was eradicated from the planet in 1977. Polio 
eradication was defined as a goal for the year 2000. And 
remarkably, Americans were declared to be free of wild polio 
myelitis on September 29, 1994.
    As we prepare for the 21st century, the promise of vaccines 
has never been greater. But, a great challenge still remains. I 
understand representatives of PKIDS, the Parents of Kids with 
Infectious Diseases, will testify about their children's 
continuing battle with vaccine preventable diseases. And while 
vaccines have virtually eradicated the childhood diseases of 
the last generation, other diseases, such as hepatitis B, 
baracella, tetanus, and meningitis, are still common and have 
caused serious illness or the deaths of thousands of children. 
It's astounding that approximately 1 million preschool American 
children are not adequately protected against potentially fatal 
diseases that can be prevented with a vaccine. Therefore, Mr. 
Chairman, we have to continue to work to increase the awareness 
of the benefits of disease prevention through vaccination.
    Furthermore, if the promise of vaccines is to be fully 
realized, vaccines must not only be effective in the prevention 
of disease, they have to be safe. Unfortunately, recent reviews 
by the Institute for Medicine have identified many gaps and 
limitations in current knowledge of vaccine safety. Given new 
technologies for the development, production, manufacture, 
regulation, and administration of vaccines, the vaccine safety 
network for the United States must be enhanced to provide 
appropriate evaluation of new candidates. To ensure continued 
public acceptance of vaccines, close monitoring of potential 
adverse effects and adverse reactions, adequate scientific 
evaluation of associates, and appropriate responses to newly 
identified risks of vaccines, including research in targeted 
development of new technologies and vaccines, are critical. So, 
I guess I'm saying we need to look at a balance, Mr. Chairman.
    I certainly look forward to hearing the testimony from 
today's witnesses. I welcome them all, beginning with the 
distinguished Surgeon General, Dr. Satcher. Thank you, Mr. 
Chairman, for indulging me.
    Mr. Burton. Thank you, Mrs. Morella. Are there further 
opening comments? If not, Dr. Satcher, Mr. Surgeon General, 
would you and the people who will be testifying with you from 
your office, stand, so you can be sworn. Oh, you've brought a 
lot of people with you.
    [Witnesses sworn.]
    Mr. Burton. Let the record reflect the witnesses responded 
in the affirmative. Dr. Satcher, we recognize you for 10 
minutes for your opening statement, sir.

STATEMENT OF DAVID SATCHER, M.D., SURGEON GENERAL OF THE UNITED 
                             STATES

    Dr. Satcher. Thank you, Mr. Chairman. I am Dr. David 
Satcher, Assistant Secretary for Health in the Department of 
Health and Human Services, and Surgeon General of the United 
States. I thank you, Mr. Chairman and distinguished members of 
the committee for your invitation to testify at this important 
hearing on vaccines. With me today are technical experts from 
our department and the agencies especially involved in vaccines 
and immunizations activities. They are: Mr. David Benoir, 
Office of the General Counsel; Dr. Robert Breiman, who heads 
the National Vaccine Program Office; Dr. Walter Orenstein from 
the Centers for Disease Control, where he heads the National 
Immunization Program; Dr. Kathy Zoon and Dr. William Egan from 
the Food and Drug Administration; Mr. Thomas Balbier from the 
Health Resources and Services Administration; and Dr. Regina 
Rabenovitch from the National Institutes of Health.
    As Assistant Secretary for Health and the Surgeon General, 
I'm called upon to use the best available science to protect 
and advance the Nation's health. For over 200 years now, the 
Public Health Service has operated with the understanding that 
in so much as we care for the needs of the most vulnerable 
among us, especially our children, we do most to protect the 
health of the Nation. Throughout our history, the most 
vulnerable have often been those attacked by various forms of 
diseases. Thanks to advances in medicine and public health, 
vaccines have served as a way to offer protection to 
individuals and communities.
    Vaccines represent a remarkable public health success 
story. They are perhaps the 20th century's most important 
medical interventions, having prevented millions of diseases, 
disabilities, pain, suffering, and death. And from a risk 
benefit perspective, they are considered by many to perhaps be 
the safest and most efficacious medical interventions of our 
time.
    During my tenure as Director of the Centers for Disease 
Control and Prevention, from 1993 to 1998, we made a commitment 
and were successful at increasing the Nation's immunizations by 
the age of 2, from 55 percent to 78 percent in 1996. Determined 
not to allow the barriers of access, cost, lack of insurance, 
and others to impede us from boosting immunization rates, we 
went into the community, partnered with organizations, such as 
the National Council of LaRaza, the Congress of National Black 
Churches, and others, to help us overcome the barriers to 
immunization. Today, immunization rates are approaching 90 
percent and we're working still to increase that level. But 
despite our success, disparities in immunization rates still 
exist for some racial and ethnic groups in this country. 
Minority children still lag behind their white counterparts, 
when overall vaccination rates are compared.
    However, we in medicine and public health continue to be 
concerned that some recipients of vaccines suffer injuries, as 
a result of the vaccine. We recognize how important it is to 
acknowledge the significance of the problem of vaccine injury.
    This administration has made immunizations a priority. 
Today, immunization coverage among children in the United 
States is higher than ever before for most vaccines. These high 
immunization coverage levels translate into record--or near 
record low levels of vaccine preventable diseases. So, this 
afternoon, I will briefly discuss issues related to the 
benefits of vaccines, our concerns for injuries because of 
vaccines, our progress through the years, what we're doing to 
ensure that vaccines are as safe as possible, and what we must 
do to continue to enhance vaccine safety.
    Vaccines offer many benefits to individuals and their 
communities. When we vaccinate a child, for example, that child 
becomes protected against a series of illnesses and diseases. 
But not only does the vaccinated child receive protection from 
developing a potentially serious disease, the community also 
benefits when comprehensive vaccination programs are in place. 
Those programs provide what we call community or herd immunity, 
which helps to indirectly protect those individuals who cannot 
be vaccinated, such as those who may be too young for certain 
vaccinations or who have other health problems that prevent 
them from being immunized; yet, they're still susceptible to 
the disease.
    For example, babies that are under 1 year of age are too 
young to receive the measles vaccine, but receive some 
protection from the vaccination of other individuals. Also 
protected are children and adults, who cannot be vaccinated 
with some vaccines for medical reasons, such as children with 
leukemia. So, the entire community benefits from the reduction 
of the spread of infectious agents, and healthier communities 
mean a healthier Nation.
    Vaccines not only save lives and eliminate disability, 
pain, and suffering, they are also cost effective. 
Immunizations are one of the most cost effective medical and 
public health interventions we know.
    Let me give you an overview of our experience with 
immunizations and treatment of vaccine preventable diseases. 
Today, there are far fewer visible reminders of the suffering, 
injuries, and premature deaths caused by diseases that can now 
be prevented with vaccines. By now, many Americans have heard 
my story. When I was 2 years old in Anniston, AL, I came down 
with a severe case of whooping cough, which led to pneumonia, 
and a family physician, who came out to the farm to visit me, 
predicted that I would not live out the week. I was fortunate. 
I survived. That year, 1943, in the United States over 190,000 
children suffered from whooping cough and 3,500 died; 1995, in 
this country, there were 5,000 cases of whooping cough and 5 
deaths. And that's not our best story. In fact, that's one of 
our worst stories, in terms of where we are today.
    A physician entering practice today may never see a case of 
meningitis, due to haemophilus influenza type B. Before the 
introduction of effective vaccines in 1988, approximately 1 in 
200 children under the age of 5 developed invasive haemophilus 
influenza B disease. It was the leading cause of bacterial 
meningitis in children under 5, accounting for about 60 percent 
of all such cases. Today, most residents in pediatrics will not 
see a child with haemophilus influenza meningitis. In fact, 
whereas in 1988, there were 20,000 cases, today, there are only 
about 100; and whereas there were almost 500 deaths a year, 
today, there are very few, if any. By 1998, vaccination of 
preschool children reduced the number of cases by more than 99 
percent.
    Finally, in the 1960's, many people witnessed firsthand the 
terrible effects of rubella, commonly known as German measles. 
During an epidemic between 1964 and 1965, about 20,000 infants 
were born with deafness, blindness, heart disease, mental 
retardation, and other birth defects, because rubella virus 
infected their pregnant mothers. Today, thanks to nearly 
universal use of effective vaccines, the rubella virus poses 
virtually no threat to the children of expecting mothers. So, 
we can see from our track record that vaccines offer a great 
many reasons for placing our trust and hope in them, in 
protecting the health of individuals, communities, and the 
Nation.
    But, we are concerned about vaccine safety. As gratifying 
and as efficacious as the benefits of immunizations are, we 
still have serious concerns. Vaccines are not 100 percent safe. 
They have risk. A small percentage of children still suffer 
adverse consequences, as a result of vaccines. And as long as 
there is a risk of injury or illness in even one child, we 
should not, we will not be satisfied. Our concern for children 
injured because of vaccines is not without tangible expression. 
We've developed a compensation system to provide families with 
financial restitution for vaccine related injuries.
    So, how are we dealing with the problem of vaccine injuries 
today? We're committed to vaccine safety through enhanced 
surveillance systems, vaccine safety research, adopting safe 
vaccine administration policies, and educating and providing 
information to parents, the health care providers, and to the 
general public. We have a draft proposal for a comprehensive 
vaccine safety program built upon the cornerstones of 
surveillance, research, communication, and education. This 
updated proposal has been reviewed and approved by the National 
Vaccine Advisory Committee and is now undergoing review within 
the Department. We're working diligently to ensure that 
vaccines licensed in the United States are safe and effective 
as they can be, and we have one of the toughest vaccine 
approval systems in the world.
    However, even after the extensive studies required for 
licensure, post marketing research and surveillance are 
necessary to identify safety issues, which may only be detected 
following vaccination of a much larger population. This is 
because very rare events may not even be detected and if noted, 
not shown to be due to a vaccine. The National Childhood 
Vaccine Injury Act of 1986, which Congressman Waxman authored 
and mentioned earlier, led to the creation of a unified 
national system to collect, manage, and evaluate the reports of 
possible adverse events. This system, which was initiated in 
1990 and jointly managed by CDC and FDA, is a vaccine adverse 
event reporting system. And recently, the CDC has added to that 
the Vaccine Safety Datalink to really pursue these cases, to 
understand the relationship between them and vaccines.
    In 1997, we had to make the very tough decision, when I was 
director of CDC, to switch our polio immunization strategy from 
primary reliance on oral polio vaccine [OPV], to an inactivated 
polio vaccine [IPV]. We made the switch to IPV, which never 
causes polio, even though OPV only very rarely caused it, 1 in 
2.4 million doses. So, we estimate that we spend $3 million per 
injury or a case of polio from oral polio vaccine; i.e., we 
spend $3 million to prevent one case. And, yet, we think that's 
well spent. If we can save a single child, we feel that it is 
worth it.
    A good example of how the vaccine safety monitoring system 
works is in alerting us to and helping address the recent 
concern about rotavirus vaccines and a type of obstruction, 
which we call intersusception. Between September 1998 and June 
1999, 15 cases of intersusception following rotavirus vaccine 
were reported to our reporting system. The cases tended to be 
younger than most cases of intersusception normally occurring 
in the absence of vaccination. This signal led to special 
studies, to evaluate whether there is truly causal roles of 
rotavirus vaccines in intersusception. On July 16th, CDC 
recommended that vaccination of children scheduled to receive 
the rotavirus vaccine before November 1999 be postponed, until 
the studies are completed and findings are available.
    I've adopted, as one of my priorities as Surgeon General, 
to move this Nation toward a more balanced community health 
system, which balances health promotion, disease prevention, 
early detection, and universal access to health care. One of 
the goals of that health system is to ensure that every child 
has the opportunity for a healthy start in life. A very 
definite part of that healthy start is ensuring that children 
are immunized against vaccine preventable diseases. And we're 
making great progress.
    So, Mr. Chairman, in conclusion, vaccines have given us 
much for which we can be grateful. They've eradicated small 
pox. They've eliminated polio myelitis in the Americas and 
controlled measles, rubella, tetanus, diphtheria, haemophilus 
influenza type B, and other infectious diseases. And they have 
saved millions of lives and avoided disease, disability, pain, 
and suffering, in many people.
    The public has a right to and should expect safe vaccines. 
Although no system is perfect and no medicine or vaccine can 
ever be guaranteed to be 100 percent free of possible side 
effects or adverse events, particularly when administered to 
millions of people, we are still committed to improving the 
safety of vaccines. The Department and its constituent 
agencies, who are represented here today, and the scientific 
community and industry strive to continuous improvement in 
vaccine safety. As we enter the 21st century, promoting optimum 
health of people through the development and administration of 
safe and effective vaccines will continue to be a priority for 
our department.
    Mr. Chairman and committee members, I assure you, in the 
interest of protecting and promoting public health, we will 
continue to make policy decisions and recommendations based on 
the best available science. Vaccines are very safe and 
effective. They are not perfect and will require continuing 
vigilance and research. Thank you for this opportunity to 
testify.
    [The prepared statement of Dr. Satcher follows:]

    [GRAPHIC] [TIFF OMITTED] T2560.096
    
    [GRAPHIC] [TIFF OMITTED] T2560.097
    
    [GRAPHIC] [TIFF OMITTED] T2560.098
    
    [GRAPHIC] [TIFF OMITTED] T2560.099
    
    [GRAPHIC] [TIFF OMITTED] T2560.100
    
    [GRAPHIC] [TIFF OMITTED] T2560.101
    
    [GRAPHIC] [TIFF OMITTED] T2560.102
    
    [GRAPHIC] [TIFF OMITTED] T2560.103
    
    [GRAPHIC] [TIFF OMITTED] T2560.104
    
    [GRAPHIC] [TIFF OMITTED] T2560.105
    
    [GRAPHIC] [TIFF OMITTED] T2560.106
    
    [GRAPHIC] [TIFF OMITTED] T2560.107
    
    [GRAPHIC] [TIFF OMITTED] T2560.108
    
    [GRAPHIC] [TIFF OMITTED] T2560.109
    
    [GRAPHIC] [TIFF OMITTED] T2560.110
    
    [GRAPHIC] [TIFF OMITTED] T2560.111
    
    Mr. Burton. Thank you, Dr. Satcher. We have to go and vote. 
It will take about 10 minutes.
    [Recess.]
    Mr. Burton. Would everyone please take their seats. We have 
other Members who will be drifting back in. We had two votes on 
the floor of the House. I apologize for the delay, but this is 
a very hectic week. In order to make sure that we keep the 
hearing moving, I will go ahead and start the first round of 
questioning. I'm sure Mr. Waxman will be back here shortly.
    Dr. Satcher, first of all, I would like to preface my 
questions by saying we think the Department of Health and the 
National Institutes of Health, the National Cancer Institute, 
and the Food and Drug Administration do a great deal of very, 
very good work. I don't think anybody on this committee or 
probably in the entire country believes that vaccinations 
should be done away with. We all believe that vaccinations have 
provided a quality of life and health in this country that is 
unparalleled in the annals of world history.
    However, there have been some disturbing things that we 
have been told over the past couple of years. I, myself, have 
experienced some things that have been of concern to me. My 
granddaughter, whom I told you about before the hearing, when 
she was very, very young--she's 5 years old now and doing very 
well, I might add--she got a hepatitis B shot and within 12 
hours, she was in the hospital and not breathing. It was a 
direct result of a reaction to the hepatitis B shot. She came 
out of it and the doctors did a good job, but that was of great 
concern to us.
    My grandson--I only have two grandchildren--my grandson got 
a DPT shot, and he's now been adjudged to be somewhat autistic. 
We've talked to other people who have had similar problems.
    So, what we want to find out, if we can, if not today, at 
some point in the future, whether or not these are problems 
that emanate from these shots, because there are a number of 
cases like that across the country. We're going to hear from 
some witnesses today who will talk about that.
    So, let me start off with hepatitis B cases. Can you tell 
us what percentage of hepatitis cases are not from sexual 
transmission or from blood or needle exchange properties? What 
percentage is caused by either needle exchanges or blood 
transmissions or from sexual transmission?
    Dr. Satcher. You want to know what percentage are not from 
one of those causes?
    Mr. Burton. Yes.
    Dr. Satcher. OK. Well, let me ask Dr. Orenstein to respond.
    Dr. Orenstein. Thank you, very much. About 25 to 30 percent 
of cases have no identified risk factors that are reported.
    Mr. Burton. About 25 to 30 percent have no identified risk 
factors, that's correct?
    Dr. Orenstein. Yes.
    Mr. Burton. When I talk to some other physicians, who are 
in the Congress, and they thought the percentage was much lower 
than that. But, is that a scientific fact?
    Dr. Orenstein. Those are data collected from both Sentinel 
Surveillance System, is the main area that information comes 
from. These are people, who are interviewed and do not admit to 
any risk factors. And you will hear about cases--or have seen 
cases in prior hearings that have had no identified risk 
factors.
    Mr. Burton. How many children under the age of 5 have been 
infected with hepatitis B from things other than needle 
exchanges, blood products, or from sexual transmission?
    Dr. Orenstein. I don't have the data broken down by under 
5. But under 9, the CDC estimates that about 19,000 infections 
with hepatitis B virus occur----
    Mr. Burton. What percentage would that be, Doctor?
    Dr. Orenstein. Overall, it would be, in the absence of 
vaccination, about 350,000 infections. So, I'd have to do the 
math, but it's about----
    Mr. Burton. So, 350,000 infections about. And how many did 
you say from under the age of 9?
    Dr. Orenstein. Under the age of 9, with no known risk 
factors, there are about 19,000.
    Mr. Burton. So, 20,000 out of--so, it's about one-
twentieth?
    Dr. Satcher. For that age group, it would be much higher 
than that.
    Dr. Orenstein. For that age group, it would be----
    Mr. Burton. No, but I mean overall cases.
    Dr. Orenstein [continuing]. Higher. But for all cases, it 
would be, I guess, 6 percent, isn't it--about 6 percent.
    Mr. Burton. OK. But under the age of 5, it would be much, 
much less than that?
    Dr. Orenstein. According to some of our data on serology, 
the incidence occurs between--often between age 2 and age 5. 
And so, it's not clear that there is like a continuous level 
increase up through age 9.
    Mr. Burton. If you keep statistical data, for the record, 
I'd like to have you submit, the number of cases and the 
percentage of hepatitis B cases under the age of 5. When do we 
require children to get the hepatitis B shot, at what age?
    Dr. Orenstein. It depends on the State, because it----
    Mr. Burton. Well, most States.
    Dr. Orenstein. Most States would be school entry, age 5 to 
6.
    Mr. Burton. I think it's very significant, because like I 
said, my granddaughter had to get it at a very, very young age 
and there were very severe side effects. I'm sure other parents 
have that same problem.
    Dr. Satcher. Well, I think the question here is when is it 
recommended----
    Mr. Burton. Right.
    Dr. Satcher [continuing]. As opposed to when is it 
required.
    Mr. Burton. It's recommended at what age?
    Dr. Satcher. Well, now--at birth for most children. As you 
know now, we've at least relaxed that for children of mothers, 
who have not shown any evidence of exposure. But the 
requirement relates to day care or school entry.
    Mr. Burton. That's usually 5 to 6 years old?
    Dr. Satcher. Right.
    Mr. Burton. We talked a while ago about the filing deadline 
of August 6th for hepatitis claims to the National Vaccine 
Injury Compensation Program. As I understand it, that is 
statutorily set for August 6th, which is about 3 days from now; 
is that correct?
    Dr. Satcher. Well, I will ask the person who heads that 
program, to respond.
    Mr. Balbier. Mr. Chairman, you are correct. August 6th is 
the deadline for filing claims that are----
    Mr. Burton. Well, there are a number of people, I'm sure, 
across the country that were unaware of that. I was wondering, 
would you work with us to try to get that extended for, say, 3 
or 4 months, so that people across the country, who may be 
paying attention to what we're talking about today, would have 
a chance to file a claim, if they need to?
    Mr. Balbier. It would require legislation to extend the 
deadline. I would point out that that did happen once before in 
the history of the program for claims arising prior to 1988.
    Mr. Burton. Well, what method has been employed to make the 
public aware of that?
    Mr. Balbier. We have several ways of doing that. We have 
vaccine information statements that are provided routinely. 
Every time a child is immunized, it provides information on the 
Vaccine Injury Compensation Program, including our 800 number 
and our website, where they can get more information.
    Mr. Burton. Well, unfortunately, we had a problem in our 
family and I didn't know about it and I'm chairman of this 
committee. So, I know that it must not have been as far 
reaching or as effective as it could have been. So, I wish we 
would work together to try to get an extension and try to 
inform the public, because I'm sure there are a lot of people 
who would like to at least make that kind of a claim.
    Mrs. Mink. Would the chairman yield?
    Mr. Burton. I'd be happy to yield to my colleague.
    Mrs. Mink. I wanted to inquire why we have a statutory 
deadline? Why did Congress set a deadline?
    Mr. Balbier. The deadline that we're going to reach at the 
end of this week is the deadline for filing claims that 
occurred for the 8 years prior to the coverage of the hepatitis 
B vaccination. Hepatitis B vaccination was covered under the 
National Vaccine Injury Compensation Program on August 6, 1997, 
when the excise tax went into effect to cover that vaccine. At 
that time, the vaccine was covered for any injury that was 
thought to be related to the vaccine, and people had 2 years to 
file a claim, for any vaccine administered during the 8 years 
prior to 1997, and they had 2 years to do so. So, we are now 
reaching the August 6, 1999 deadline for filing those 8 year 
retroactive claims. So, it's only for those claims that 
occurred prior to the coverage of hepatitis B vaccine under the 
compensation program.
    Mrs. Mink. So, subsequent to 1988, there are no statutory 
deadlines. Is that what I'm to understand?
    Mr. Balbier. There are deadlines of 3 years for filing an 
injury claim from the onset of injury and 2 years from the date 
of death, if a death is thought to be related to the vaccine, 
or 4 years from the onset of the injury that led to the death 
from an injury thought to be----
    Dr. Satcher. We wish to point out, Mr. Chairman, that the 
Secretary has submitted proposed legislation that would extend 
some of those times.
    Mr. Burton. Well, I would like to work with you and the 
Secretary, then, to get that extension passed through the 
Congress, because, like I said, I'm not sure the American 
people have really been well informed about that.
    Dr. Satcher. I believe it would extend it to 6 years, 
right?
    Mr. Balbier. That's correct.
    Mr. Burton. Oh, to 6 years?
    Mr. Balbier. It would double the statute of limitations to 
6 years for injury requirements.
    Mr. Burton. That would be even better.
    Mr. Balbier. We have already proposed legislation to do 
that, and we would like very much to see that happen.
    Mr. Burton. We'll work on that. Would you make sure we do 
that?
    The other things that I wanted to ask you about, do you 
keep records on people's concerns about the side effects of 
certain vaccines, like hepatitis B and the DTP shot?
    Mr. Balbier. With the compensation program, itself?
    Mr. Burton. Not necessarily the compensation, but where 
people are making claims that their child or have been making 
inquiries about their child being affected, they believe, by 
the shot.
    Mr. Balbier. We have several ways of tracking that. We have 
what we call a passive surveillance system, called the Vaccine 
Adverse Event Reporting System, whereby any provider of the 
vaccine can report any injury thought to be related to vaccine.
    Mr. Burton. Wait a minute, any provider of the vaccine? 
You're talking about the pharmaceutical company?
    Mr. Balbier. No, the administrator of the vaccine. That's 
one way.
    Mr. Burton. Which would be the doctor?
    Dr. Satcher. But, it also could be--it's not limited to the 
doctor.
    Mr. Balbier. Right. In fact, one of the advantages of the 
system that was developed, the Vaccine Adverse Event Reporting 
System, is that it allows anybody to report. The law also 
requires that physicians give out vaccine information 
statements to parents before their child is immunized. And on 
that statement, it gives the parent the number that they can 
report a case. And that was put in purposely, because some 
parents were concerned, in the 1980's, that their doctors 
weren't reporting cases. So, we offer the opportunity for 
parents to report, as well.
    Mr. Burton. Could we get the statistical data on at least 
two of those: hepatitis B and the DTP shot?
    Dr. Satcher. There's another point that I think we should 
probably make and that is the reporting system is one thing. 
And as you know, there are about 12,000 incidents reported a 
year. Recently, CDC has initiated what is called the vaccine 
survey data link. So, we are actually aggressively studying the 
relationship between the vaccine and adverse events, in about 2 
percent of the population?
    Dr. Orenstein. It covers about 2 percent of the U.S. 
population of children. And it allows us to look at when a 
given illness occurs, how often it's occurring without 
vaccination, so that we can compare the two.
    Mr. Burton. If you could provide that information, we would 
really appreciate it.
    Now, regarding anthrax and the anthrax vaccine, we have 
been told by the General Accounting Office [GAO], in two 
separate hearings that my colleague, Mr. Shays, held as 
chairman of that subcommittee----
    Mr. Shays. Four hearings.
    Mr. Burton. Four hearings, that for 20 years, the person, 
who was producing this, really wasn't checked thoroughly, as 
far as the quality control at their facility, I believe it was 
in Michigan. And when they found out about it, they went up 
there and checked, and they found that it was way below par and 
that the serum that was being used, and is still being used, 
might be, in many cases, tainted. Now, we've had 300,000 people 
vaccinated in the military with this serum and I just don't 
understand how we could allow that to happen, if there's some 
question about the cleanliness of the product, whether or not 
it might cause side effects simply because it might be tainted 
and why that product was not inspected more thoroughly over 
that 20-year period and why the producer of that product is 
still producing it, to the best of my knowledge.
    Dr. Satcher. I'm going to ask Dr. Kathy Zoon, who is head 
of the Center for Biologic Evaluation and Research at FDA, to 
respond. You know that the anthrax program is a DOD program, 
but your question is still relevant.
    Mr. Burton. I understand. But, I understand that they're 
talking about expanding the anthrax vaccination program to 
children. And that troubles me a great deal, because we have 
had a number of service people, who are not only getting out of 
the service, but have had severe side effects.
    Dr. Satcher. We have not made that recommendation and that 
kind of recommendation would come through the Advisory 
Committee on Immunization Practices.
    Mr. Burton. Well, maybe it was just for military children; 
I don't know. But, that's what I've been told.
    Dr. Zoon. Thank you, Mr. Chairman. I would like to, one, 
say that vaccine safety to the FDA is extremely important and 
with any vaccine, including anthrax, there are four levels, in 
which we oversee the safety. One is through the review of the 
data that comes in during the development of a vaccine and then 
data that comes into the agency, as part of the licensure 
procedure. That is the beginning of the vaccine and the 
surveillance that FDA does. Subsequently to that, we do 
inspections of facilities that produce vaccines. And we, also, 
are involved in release of lot material and review of protocols 
for lot release before any product can be distributed. And 
finally, that we are involved with surveillance, which includes 
the VAER system and work with the CDC very closely on followup.
    With respect to your question regarding the facility 
producing anthrax vaccine, there have been many inspections of 
that particular facility over the years. On each inspection, 
not every part of the facility may be inspected completely at 
each time. However, many of the records are inspected on each 
of the inspections. And, in fact, there have been multiple FDA 
inspectors in the course of the past 10 years in the facility 
at which you're speaking. So, there has been followup. In 
addition, FDA reviews all the lot release protocols for this. 
And right now, the company is not manufacturing and 
distributing vaccines.
    Mr. Burton. Thank you. I'll followup on that later. Mr. 
Waxman.
    Mr. Waxman. Dr. Satcher, you're the head of the Public 
Health Service, and that Public Health Service in the United 
States, as I recall, was set up in the last part of the 18th 
century, 1798. I also recall the reason that we have the Public 
Health Service in the United States was because of the yellow 
fever epidemic, which was transmitted by merchant sailors who 
had wiped out 10 percent of the population of Philadelphia. As 
a result, we set up the Public Health Service. Isn't that 
right?
    Dr. Satcher. Yes, an act of Congress, because at that time, 
as you know, Congress was located in Philadelphia. President 
John Adams signed the act of Congress in 1798, giving rise to 
what we then called the Marine Hospital Service to take care of 
merchant seamen. But, you're absolutely right, it was in 1793 
that this yellow fever outbreak hit Philadelphia and it was 
felt to have been related to merchant seamen, who were going in 
and out of the country. It was a devastating experience. As you 
said, it wiped out over 10 percent of the population; 50 
percent of the population of Philadelphia fled because of that 
epidemic.
    We were back there last year, in fact, to begin the 200th 
anniversary celebration of the Public Health Service, because, 
later, the Marine Hospital Service became the Public Health 
Service. So, we went back there in July to begin our 
celebration. And we retraced the trail of the yellow fever 
epidemic and it was really quite an experience. But, it was 
this outbreak that gave rise to the Marine Hospital Service, 
which would later on become the Public Health Service.
    Mr. Waxman. I think we shouldn't forget history.
    Dr. Satcher. I agree.
    Mr. Waxman. And I worry sometimes that the successes that 
the immunization program has brought to this country and to the 
world might be a victim of the--the program might be a victim 
of its own success, when people forget about these dreaded 
diseases----
    Dr. Satcher. Right.
    Mr. Waxman [continuing]. That still occur. Right now, as a 
matter of fact, in certain parts of the world, mainly Russia, 
according to press accounts, there are over 2,000 reported 
cases of diphtheria since January 1 of this year. Can you 
explain how existence of a disease in a foreign country, such 
as diphtheria in Russia, can threaten unvaccinated children in 
the United States?
    Dr. Satcher. Let me give another example, measles. 
Virtually all of the cases of measles that we have seen in 
recent years have been imported. They've come in from other 
countries and they've led to, in some cases, outbreaks in this 
country, when they got into a population that was not 
vaccinated. The risk to the population of people, who take 
exemptions for vaccinations, the risk of measles is 35 times 
what it is in the rest of the population and you know less than 
1 percent of the population takes advantage of religious or 
philosophical exemptions. We're talking 0.64 percent. But even 
with that small number, there's a 35 time full risk of measles. 
And most of the measles comes from other countries.
    Mr. Waxman. So, in the United States, some people don't get 
vaccinated?
    Dr. Satcher. They take exemption because of religious 
reasons there are 48 States that allow for religious 
exemptions, every State except Mississippi and West Virginia.
    Mr. Waxman. Now, as I understand the chairman's statement, 
I don't want to attach any policy to it because he has to speak 
for himself, but it sounds like he and others are saying maybe 
we ought to leave a choice to everybody, whether they want 
their kids to be immunized or not. I don't know if that--let me 
not attribute it to him. Would that make sense as a policy for 
public health, if we just let people make that choice for 
themselves?
    Dr. Satcher. I think by definition in public health, we're 
concerned about the health of the individual; but, we're also 
concerned about the health of the community, the population. 
And we make rules to protect the community. In fact, you can't 
even protect the health of the individual, unless there is a 
community approach to things like immunization. So, it is true 
that when we make decisions and recommendations about 
immunization, we're concerned about the population. That's very 
basic to public health.
    Mr. Waxman. What if I say it's my child and I'm willing to 
take the chance because I heard that there are some adverse 
reactions. I heard about a congressional hearing that seemed to 
put a spotlight on those adverse reactions and I don't want to 
take a chance for my child. My child might be at risk, but am I 
putting other children at risk?
    Dr. Satcher. Well, no question about it. I mean, when a 
child is not immunized--and many States, as I said, allow 
exceptions--exemptions for religious, and then 15 States, I 
believe, allow philosophical exemptions. But, we know from much 
of our experience, and certainly Dr. Orenstein can give more 
details about outbreaks that have occurred in population for 
religious reason and others that took exception--I respect 
people's religion if they decide to take an exemption. But, 
clearly, if States did not have any rules about what it takes 
to get into school, many more children would be affected by 
infectious disease outbreaks.
    Mr. Waxman. Now that means we've got to be sure that these 
vaccines are as safe as possible. What mechanisms are in place 
to assure the vaccines are safe?
    Dr. Satcher. Well, there are quite a few of them, and I'll 
just give an overview. We have a very tight surveillance 
system. And I believe the most important thing, of course, is 
what Dr. Zoon said. We take new vaccines through at least four 
phases. I mean after the animal studies, there's the phase one 
study, looking at safety in a small number of individuals. Then 
there's the phase two studies, which look at dose ranges for 
vaccines. Phase three studies, like the one that they're 
beginning now in Thailand for HIV vaccine, really implements 
the vaccines in a larger population of people, who are at great 
risk for an infectious disease like HIV. And it evaluates what 
happens, in terms of safety and efficacy. And only after you've 
been through that does FDA then approve implementation of that 
program. And even after that, there's a so-called post 
marketing phase, in which you really look at what happens when 
you make this vaccine available to a broader population.
    Mr. Waxman. That's the Vaccine Adverse Event Reporting 
System?
    Dr. Satcher. That's right.
    Mr. Waxman. That's the post-marketing surveillance?
    Dr. Satcher. Post-marketing surveillance is the Vaccine 
Adverse Event Reporting System, and, in some cases, even some 
more detail followup. As I mentioned, the Vaccine Safety 
Datalink, which is primarily with managed care programs, but 
involves more than 2 percent of the population, looks at these 
events and sees to what extent they relate to the vaccine.
    Mr. Waxman. Mr. Chairman, I appreciate getting a little 
extra time because I want to ask some questions about the 
Vaccine Compensation Program, which I am proud to have 
authored, and I also have a conflict because I'm supposed to be 
at a conference on another piece of legislation. It has nothing 
to do with anything we're discussing today.
    The Vaccine Compensation System was set up to try to make 
sure that people didn't have to go to court and go through all 
the expense of litigation in order to be compensated when they 
had an adverse reaction from vaccines. And I think it's well 
worthwhile, Mr. Chairman, for us to use our oversight authority 
to be sure that program is working.
    Now, the administration is proposing that there be a 
lifting of the time limits for people to come in with their 
claims. Could you tell us about that?
    Dr. Satcher. We have--and I'm going to ask--where is----
    Mr. Balbier. I'm right here.
    Dr. Satcher [continuing]. In terms of how the litigation 
process has worked and how well it's worked. But, I think what 
we're concerned about is making it as easy as possible for 
people to file claims and to report adverse events. So, the 
Secretary made some proposals--legislative proposals that would 
make that process much easier than it is now. And I, also, want 
to say that when in doubt, we try to give the benefit of the 
doubt to the petitioner.
    Mr. Waxman. I sure hope so.
    Dr. Satcher. We do. Without question, we do it in this 
program.
    Mr. Waxman. Well, we're going to hear testimony contrary to 
that and I'm concerned about it, because I think we ought to 
give the benefit of the doubt.
    Dr. Satcher. I think we can demonstrate that. I can give 
some specific examples, where the Advisory Committee on 
Childhood Vaccines, made up, in addition to experts, parents of 
children, who have suffered events, are members of that 
committee. And there have been times when that committee has 
used its authority to override other committees, to make sure 
that we give the benefit of the doubt to the petitioner.
    Mr. Waxman. I want to get more detail on that and I want to 
get more for the record. The administration is going to propose 
some legislation. And if Congress is going to deal with 
legislation, I think we can recognize the fact that there is a 
lot of money in that vaccine fund at the present time. Mr. 
Chairman, maybe one area where we can work together is to make 
sure that if there are excess funds, we devote those excess 
moneys for more vaccine safety research and surveillance.
    I don't know if you're in a position to comment on that, 
because the administration would have to take its position. But 
do you think that might make some sense?
    Dr. Satcher. Well, obviously, Congress is going to have to 
make that decision. I believe there is about $1.4 billion in 
that trust fund now and there have been various proposals 
suggested. One proposal would reduce the excise tax from 75 
cents to 25 cents. Another proposal would be to use money from 
that fund to fund safety research. And, you know, obviously, I 
would--I favor vaccine safety research, because I think, as I 
said in my testimony, we should do everything we can to make 
vaccines as safe as possible. But, using the trust fund for 
that purpose is something the Congress must decide.
    Mr. Waxman. Yes. Now, you get these reports about adverse 
reactions. What do you do with them? Do you have any examples 
of where you've gotten the information and have been able to do 
something to make vaccines safer?
    Dr. Satcher. Tom, I believe that you----
    Mr. Waxman. Rotavirus is one issue that I've heard about. 
Can you tell us----
    Dr. Satcher. Oh, yes, no, that's the one, OK.
    Dr. Orenstein. I think there are a number of things to 
evaluate the reports and to take action when action is 
indicated and to do further research when signals are generated 
that there may be a problem with vaccine safety. Vaccine safety 
is absolutely critical to the immunization program.
    Rotavirus is probably a very good example, because it's a 
recent example, in which a signal was generated about potential 
intestinal blockage in children younger than the usual age at 
which the blockage would have occurred in the absence of 
vaccine. Because of that, we did two things. It was such a 
strong signal, and combined with other data we had, that we 
recommended a postponement to vaccination, at least until 
November, so we could clarify whether, indeed, rotavirus is 
causing intestinal obstruction or not. And we are in the 
process of undertaking a major national study to evaluate that.
    There are other signals that have been suggested in the 
Vaccine Adverse Event Reporting System, such as the 
relationship of Guillian-Barre Syndrome, a paralytic illness 
with influenza vaccine. We undertook research to look at that, 
which suggested that about once in a million doses of influenza 
vaccine, there could be a problem. There is continuous 
monitoring. The FDA looks at death reports. It looks at 
clinical reports. There are meetings regularly with FDA and CDC 
in order to try to take a comprehensive look at vaccine safety.
    Mr. Waxman. Let me say if in rare cases there is an adverse 
reaction, we ought to compensate the victim as best we can for 
that adverse reaction. But I don't want this country to become 
lax in the area of vaccinating our kids, because I don't want 
these diseases to come back and I don't want people looking at 
a hearing like this and thinking, oh my gosh, more people are 
hurt than helped when the child's immunized.
    Because that isn't any cost benefit evaluation--we always 
hear we ought to have cost benefit evaluation--but the benefits 
outweigh the costs enormously to have our children immunized. 
Do you agree with that?
    Dr. Satcher. Well, a good example is just the followup on 
what Dr. Orenstein just said about the one in a million risk of 
Guillian-Barre Syndrome for influenza. The risk of 
hospitalization from getting the disease influenza ranges from 
200 to 1,000 times that. That's the risk of not just having 
influenza but having to be hospitalized with influenza. It's 
1,000 times greater than the risk of getting Guillian-Barre 
Syndrome.
    Mr. Burton. Thank you again, and let me just apologize to 
you for trying to impute some views. I don't know what your 
views are on the subject so I should not have asked the 
question in that way.
    Mr. Shays. Thank you.
    Mr. Burton. But I appreciated the witnesses answering the 
question.
    Mr. Shays. Thank you, Dr. Satcher, and your staff for being 
here. We are not looking at the issue of vaccines for children 
right now, but my subcommittee is looking at the issue of 
whether we should have a mandatory program for our military 
personnel to protect against various biological agents; one is 
anthrax. But there are many others, and there are questions of 
different types of anthrax and which you should be protected 
from. I'm going to focus more on that, and I'm just going to 
accept as a fact that besides just teaching general 
cleanliness, which has probably done a world of difference to 
society, vaccines have been second only to that in terms of 
their benefit to society.
    And so I don't know if this would be Dr. Zoon or anyone 
else, but I will ask you and you can defer. How long might it 
take to review and approve a new recombinant vaccine against 
anthrax? How long would it take, or should it take?
    Dr. Zoon. If a biologic license application came in and it 
was evaluated that a new recombinant anthrax vaccine would 
presumably be a priority for the FDA, which would probably mean 
we would review the application within 6 months.
    Mr. Shays. But overall, from start to the end, review an 
application, so much more, would have to go in before they 
could make that application.
    Dr. Zoon. Yes.
    Mr. Shays. What's the sense of the total--it would just 
take you 6 months, or it would take the Government 6 months, 
but in addition----
    Dr. Zoon. I think you're asking about the development time?
    Mr. Shays. Right.
    Dr. Zoon. Is that correct?
    Mr. Shays. Yes, ma'am.
    Dr. Zoon. Yes. It varies for a product how long it can take 
under development. And presumably, once you've discovered it 
through the time it has all the pre-clinical information, 
manufacturing information, and clinical information can vary in 
the timeframe. Generally, the shortest timeframe to collect all 
that information is 2 years, and sometimes it can take much 
longer.
    Mr. Shays. What kind of data would FDA require to 
demonstrate efficacy of a new anthrax vaccine against aerosol 
challenges in humans?
    Dr. Zoon. At this point in time, there are a number of 
different opportunities and models that we would look at for 
both pre-clinical data and data in humans. Because of the 
seriousness and the ethics involved with doing a challenge 
study with anthrax, clearly that would not be possible. Also, 
the incidence of anthrax in the United States is very, very low 
and therefore a natural history could not be done. What could 
be, what we would have to look at would be several things, and 
this is not all-inclusive, but just to give you some sense is, 
we'd look at pre-clinical data, animal model data, looking at 
challenge data in good animal models. We'd also look at safety 
data in humans and we'd look at immunogenicity data in humans 
as a start.
    Mr. Shays. Which leads to the question, what is the status 
of the FDA regulations on correlating the data on animal immune 
response to the likely response in humans?
    Dr. Zoon. My understanding, there is a proposed regulation 
that has been drafted. I am not certain as to the status of it 
right now.
    Mr. Shays. And finally, of the most widely discussed 
biological warfare agents, one is smallpox, another is anthrax, 
another is the plague. Now there's botulism, glanders and 
others. How many do we have vaccines against?
    Dr. Zoon. Currently there is a licensed smallpox vaccine, 
of which there is limited quantity. There's one licensed 
anthrax vaccine.
    I thought they--I'd have to get back to you on the rest, 
sir, because I'm not 100 percent sure.
    Mr. Shays. But clearly one of the challenges we have is 
developing vaccines. The military is talking about ultimately 
vaccinating for a good number of perceived potential attacks 
against our military. The challenge that we are going to have, 
it seems to me, is developing a vaccine that we think will do 
the job given the challenge of how you test it. And it will be 
interesting to see how you all weigh in on this, because that's 
the direction our military's going in and it raises gigantic 
questions. Thank you.
    Mr. Burton. If the gentleman would yield. I think a lot of 
people who are paying attention to this discussion right now 
might not understand what kind of questions you're asking, in 
layman's terms. So I'd just like to clarify a couple of things. 
As I understand it right now, the anthrax vaccine has been 
proven effective to a degree against the kind of anthrax that 
is communicated through the skin and through touching. As far 
as anthrax being communicated through an aerosol or through a 
missile that would explode and spray anthrax into the 
atmosphere where people would breathe it, it has not been 
proven effective in that. As a matter of fact there was one 
test, as I understand it, or one case where they had given 
people the anthrax vaccine in a farm environment, where five 
people died who inhaled the anthrax bacteria. The thing that a 
lot of people in the military would like to know is, does the 
anthrax vaccine work against an aerosol or an aerosol-type 
dispensing of this, this dread disease? And along with that, if 
it doesn't--because the most likely way that an enemy would try 
to attack the U.S. military operation would be through an 
aerosol-spread bacteria--why are we using this vaccine? If it's 
not effective against that, and that's the most likely way that 
an enemy would attack us with it, why are we using that vaccine 
and mandating it right now?
    Dr. Satcher. I don't think we're going to try to answer 
that because--I think it's a very good question, but I think--
--
    Mr. Burton. It needs to be answered because 300,000 of our 
troops have been vaccinated, and right now, according to what 
I've been able to understand, it isn't going to protect them if 
an aerosol attack with anthrax ensues.
    Dr. Satcher. I just mentioned the question of why because 
the Department of Defense obviously has risk information that 
we don't have in terms of terrorism. We can answer the other 
question you raised. But if you say, why, the Department of 
Defense made the decision; they certainly have security 
information that we don't have about the risk that we're 
facing. And they make decisions based on that. We can answer 
the question about the relative risk.
    Dr. Zoon. Yes, Mr. Chairman----
    Mr. Burton. Would the gentleman yield? Just to clarify the 
information being provided. If you could, and National 
Security, Veteran's Affairs, and International Relations 
Subcommittee would love the answer to the question that you 
said you would get back to us on. I'm going to have my staff 
followup on that, so it would be helpful. You may answer, then 
I'll yield to Mr. Davis. Thank you, Mr. Davis.
    Dr. Zoon. Thank you, Mr. Chairman. There is, while be it 
limited data looking at the ability of the current anthrax, 
licensed anthrax vaccine to be protective of inhalation 
anthrax, you are very right, sir, that the primary incidence of 
the disease in the mills where the study was done on the 
original anthrax was cutaneous, or skin. However, there were 
five cases of inhalation anthrax. And when the data was looked 
at, four of these five cases were fatal cases. When the data 
was looked at this single-blinded control study, it was 
discovered that of those deaths from inhalation anthrax, two 
were in the placebo group and three were in the unvaccinated 
group, and zero were in the vaccinated group.
    Mr. Burton. So you have none that were vaccinated, that you 
can tell one way or the other about the aerosol.
    Dr. Zoon. Well, in fact, those people that were vaccinated 
did not have any cases of inhalation anthrax.
    Mr. Burton. So using deductive reasoning, you say it was 
effective against that?
    Dr. Zoon. Within that limited data base, for that study, we 
have that information, which would suggest some protection 
against inhalation anthrax. Subsequently, studies were done in 
a primate model looking at protection challenge studies that 
were done by Dr. Ivens. And this was a study where they used a 
spore challenge in rhesus monkeys. And it was shown to protect 
against the aerosol challenge.
    Mr. Burton. Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman. Dr. Satcher, 
let me thank you for your testimony, and also the advances that 
I think we're making in public health under your leadership and 
with the assistance of your team. I agree that the greatest 
weapon we have, the greatest defense that we have against 
childhood diseases are vaccinations. According to Evan, Rachel, 
Brian, David, Katie, Tim, Catherine and Natalie, these are all 
children who live in Illinois, whose vaccinations produced 
terribly devastating results for them. They are children who 
cannot walk, children who cannot play, and they're children 
whose parents believe that their conditions were caused by 
their vaccinations. In addition to that, there is a group in my 
community headed by a woman named Barbara Mallarky, who is the 
spokesperson for the Illinois Coalition for Vaccine Awareness 
and a health activist who lives in my community. I see her 
quite frequently. She believes that strong anecdotal evidence 
suggests that children are being adversely affected by 
vaccinations, especially hepatitis B. My question is, what can 
we tell the parents of these children, and what can I tell Ms. 
Mallarky and her group?
    Dr. Satcher. Thank you, Congressman Davis. And I appreciate 
your background in public health, too, so I know I don't have 
to tell you how we go about making decisions and the struggles 
that we go through. There are a few issues involved here. And 
the first one, of course, is that there are adverse events that 
occur from vaccines. They are very rare. They don't compare 
with the benefits, but--they are very rare, but they are very 
significant for the people who are affected. That's the first 
thing, and we are determined to reduce adverse events to as 
near zero as possible. The other thing, of course, is that it 
is sometimes difficult for us to determine when an event occurs 
temporally related to vaccines, that the vaccine caused the 
event. And the only way we can determine that to the best of 
our ability is to investigate. That's why we have a system that 
allows those kinds of investigations to take place. People can 
petition, and in many cases it has been found--I believe there 
have been 1,400 families who have received a little over $1 
billion from the system, because they filed complaints about 
injuries that occurred. I don't believe it is possible to 
compensate people adequately for the kind of thing that we're 
talking about. But there is a system set up to investigate and 
to determine the likelihood that an adverse event was due to 
the vaccine. And if it is determined that it was, we have a 
system to attempt to provide some compensation. So the system, 
I think, is there. The most important system is the one in 
which we are working night and day to continue to improve 
safety.
    Mr. Davis. So I can assure them that the Public Health 
Service is doing everything in its power to continue with the 
research, to investigate, to try and reduce as near to zero as 
we can, these situations that may occur.
    The other question that, that I'd like to ask--we have the 
injury compensation program, which is publicly funded. Are 
there any liabilities for the manufacturers of the vaccinations 
that we use?
    Mr. Balbier. If a petitioner under the program chooses to 
reject an award or is unsuccessful in obtaining an award, that 
individual may then sue the manufacturer. So the program is not 
an absolute protection of the manufacturers by any means.
    Mr. Davis. So it is the first line of defense for the 
consumer. Then if people are not satisfied, they can go beyond 
that in terms of seeking redress.
    Dr. Satcher. That is correct. But there is a very important 
point here, and I don't know if we've made it yet. Part of the 
value of this program--sort of a no-fault, where the Government 
takes responsibility--is that we have been concerned and are 
concerned that manufacturers are willing to continue to take 
the risk to develop vaccines. We have been successful in 
developing effective vaccines because there is a program like 
this available in which we share the risk of vaccines.
    Mr. Benor. Absolutely.
    Dr. Satcher. I think one of the major benefits of this 
program is that manufacturers are encouraged to continue to do 
research. And as Dr. Zoon described, it's an odious process of 
bringing a vaccine to market.
    Mr. Davis. So you're really saying that we are co-partners 
in a way, in trying to make sure that we have available to us 
the, the medicines or the pharmaceuticals that are needed to 
address some of the problems. Well, I appreciate that. And let 
me, Mr. Chairman, thank you, and also just say that, I have 
studied the public health system for a long time and I can tell 
you it is so refreshing to see that we are moving toward a 
public health modality in terms of really trying to move beyond 
just the individual protections, to the point of protecting our 
communities, our cities, our States, and indeed our Nation. I 
thank you very much.
    Mr. Burton. Before I yield to my colleague, let me just say 
that we should be concerned about the public health and public 
welfare. But our country was set up in such a way as to try to 
maximize the protection of the individual as well. And that's 
why, one of the reasons we're having this hearing today, 
because we want to make absolutely sure that people are getting 
as much information as possible about these vaccines and the 
possible side affects. Now I don't want to prolong this because 
I want to yield to my colleague. But my granddaughter had a 
hepatitis B shot, and within 12 hours, she was in intensive 
care; she couldn't breathe. One of my daughter's best friends 
is in the audience, and her child had a hepatitis B shot and 
died. Now that's 2 people that I know personally. Now this may 
just be a coincidence, but if those kinds of side-effects 
occur, then we need to know why. We need to be able to inform 
people across this country of the risk. Maybe we're giving too 
many shots in too short a period of time. Maybe, unlike Japan, 
we're not checking the immune systems of children before we 
give the shots. Do we check the number of the antibodies? Do we 
check these really thoroughly before we give our children 
shots, or do we just indiscriminately give them shots? Twenty-
one shots before they're 6 years old. Can their little immune 
systems stand that much onslaught? Those are the questions that 
need to be answered. But I know that in my family, I've got an 
autistic grandchild--out of two grandchildren, one's autistic, 
the other almost died from the hepatitis B shot, and one of her 
best friend's child did die from a hepatitis B shot. Now you 
can call that coincidence if you want to. I kind of think it's 
more than coincidence. That's why we're having this hearing--
not that we don't want to vaccinate, but we need to have an 
informed population to make sure that parents, while conforming 
to the rules of society to make sure that the whole population 
is safe, protects their family and their children as well.
    Dr. Satcher. Chairman Burton, let me just say I agree with 
you. I think this is a very important hearing. I can't think of 
any hearing that could be more important. So there's no 
question in my mind about the importance of this hearing and 
the importance of this issue.
    Mr. Burton. I look forward to working with you, Doctor.
    Dr. Satcher. We want safe vaccines.
    Mr. Burton. I think you're a sincere fellow, and from what 
I can tell, you've done a good job. Of course, I'm a layman; 
I'm not a doctor. [Laughter.]
    Mr. Mica. Thank you, Mr. Chairman, Dr. Satcher. I have a 
couple of questions. In January I took over a subcommittee that 
deals with the oversight of HHS and was immediately deluged by 
people contacting our subcommittee about the need for oversight 
of some of the vaccine programs, particularly hepatitis B. We 
did some studies and investigation, and we conducted a hearing 
on May 18. I'm pleased that you, and the administration, 
shortly thereafter have taken some actions. You told us today 
that you have several actions which you are recommending. One 
is lifting of the time limits; two, I heard about dollars for 
research--two items that were raised at our hearing. Could you 
tell me about the specifics of lifting the time limits, what 
this involves? And then, we now have $1.3 billion in the fund. 
Are we talking about taking money out of that for additional 
research purposes?
    Dr. Satcher. To respond to your last question, we don't 
have the authority to do that. Any use of those funds other 
than----
    Mr. Mica. Oh, I know. But you're recommending to Congress 
that we change the law to give you the authority, but to what 
degree?
    Dr. Satcher. Well, I'm not sure we have made that specific 
legislative recommendation.
    Mr. Mica. You don't have a specific legislative proposal.
    Dr. Satcher. No, we don't.
    Mr. Mica. When can we expect that?
    Dr. Satcher. I hate to try to make predictions--because 
it's been discussed between the administration and Congress.
    Mr. Mica. Can we get a recommendation from you, say by 
September since we're well into the 106th session? We're going 
to do a hearing on the compensation fund because it's been 
brought to light that there were problems, and this is the 
first time that I've heard of the administration's proposal in 
this regard. Maybe sometime in September, could we get that?
    Dr. Satcher. Let me say there exists now a set of 
legislative recommendations from Secretary Shalala to Congress 
about how to improve this system to improve the benefits to 
people who are adversely affected by vaccines. Those are in 
place now. I don't want to say exactly when the administration 
will submit other proposals because I don't know.
    Mr. Mica. Well, maybe we can work with you.
    Dr. Satcher. Yes.
    Mr. Mica. One of the things that also came out in the 
hearing is the frustration with the compensation and that the 
average length of time to go through the process is 2 years. 
That's average length, and many of these take more time. Do you 
know if you have any recommendation about how to deal with 
speeding up that process for compensation?
    Dr. Satcher. I'm going to ask the attorney but--let me just 
say, there are times when we compare this system to the regular 
tort system. As you know, it's been much more efficient, but 
still we're not satisfied with it--but it's much more efficient 
than the----
    Mr. Mica. Then that would be one area too we'd like to--if 
we don't have a recommendation. I have a press account that 
says, that relates to a surprise announcement. It says, a 
surprise announcement late yesterday. And this was a change in 
policy relating to mandatory vaccination of children with 
hepatitis B vaccine. It says, the surprise announcement came 
late yesterday afternoon, just 7 weeks after a May 18th hearing 
on the safety of hepatitis B vaccine. The vaccine policies in 
the U.S. House--our subcommittee conducted--brought out 
problems with that. And I guess the announcement related to 
eliminating mercury content in hepatitis B vaccine. It was a 
joint announcement by the Public Health Service, your folks, 
and the Academy of Pediatrics. OK. Our hearing was May 18th. 
When did you have the first information that there might have 
been a problem relating to the mercury content? Was that after 
our May 18th hearing and before your announcement, or before 
our hearing?
    Dr. Satcher. I can speak to that from the Public Health 
Service. I was involved in that announcement with the American 
Academy of Pediatrics, and the announcement was to give 
pediatricians and parents more flexibility in terms of 
implementing the hepatitis B vaccine.
    Mr. Mica. What I'm interested in, I want to know when you 
had the information. When did you know----
    Dr. Satcher. I'm going to get to--Dr. Zoon----
    Mr. Mica. And was that in your possession before the 
hearing that we held, or did they come to you after the hearing 
that we held?
    Dr. Satcher. It was after the hearing that you held.
    Mr. Mica. It was.
    Dr. Satcher. In fact, it came to my attention, it came, I 
believe, less than a week before we made the decision. We--and 
this included the American Academy of Pediatrics. Now there 
have been some studies in other countries about thimerasol and 
its effect. But in terms of FDA looking and getting reports 
from manufacturers in this country, and the information coming 
to us, it was a few days or weeks before--Dr. Zoon, do you want 
to comment?
    Mr. Mica. Would you supply the committee and the 
subcommittee with any communications you had, all 
communications you had, relating to this particular matter, 
say, in the last year? Would that be possible?
    Dr. Zoon. Yes. Certainly we can provide you--would you like 
me to give you some background, sir, or would you just like it 
for the record?
    Mr. Mica. I'd just, I'd like to have the information for 
the record.
    Dr. Satcher. We can say more about that if you'd like.
    Mr. Mica. The last thing--and my time is about up. You are 
the Surgeon General, the Chief Health Officer of the United 
States, and I noticed an article that was included here. I 
don't know if you gave it to us or if it was provided in our 
packet. But you talk quite a bit about some health issues, 
particularly smoking, excess, not eating enough vegetables, and 
not exercising. I chair the Criminal Justice, Drug Policy, and 
Human Resources Subcommittee, and our concern is, of 14,000 
young people and others die every year in drug related deaths.
    Dr. Satcher. Would you like for me to read the Surgeon 
General's prescription?
    Mr. Mica. No. But I just----
    Dr. Satcher. It, includes advice against the use of drugs.
    Mr. Mica. Yes, but again, I noticed this. I think you threw 
away your pipe to set an example.
    Dr. Satcher. That's a good article.
    Mr. Mica. My concern is, having survived one of your 
predecessors, the infamous Jocelyn Elders, that she sent the 
wrong message out on drugs. And that, to me, is our biggest 
social and societal problem, with 2 million Americans behind 
bars, 70 percent of them because of drug-related offenses, and 
with skyrocketing teen addiction rates and usage rates. Since 
this administration has taken office--again, people have to 
look up to folks. And you, as the Chief Health Officer, I would 
hope, would give us every bit of support relating to hard 
narcotics--heroin, cocaine, and the methamphetamine addiction 
that we're facing. I count on you for that.
    Dr. Satcher. Yes, you can. But I would also like to just 
say that I believe that the program that General McCaffrey is 
running, dealing with the use of illicit drugs, is the most 
aggressive in the history of this country, and we're seeing 
results.
    Mr. Mica. That's only as a result of the predecessor to Mr. 
Shays' subcommittee, Mr. Hatcher, who came forward to lead the 
subcommittee and restore the funds and----
    Dr. Satcher. I will be willing to give credit to as many 
people as possible.
    Mr. Mica. Thank you.
    Dr. Satcher. I'm just happy to see that the program is 
working.
    Mr. Mica. But we need you; you're our chief health 
spokesperson.
    Mr. Burton. The gentleman's time has expired. Ms. Scha-
kowsky.
    Ms. Schakowsky. Thank you, Mr. Chairman and Dr. Satcher. 
It's a pleasure to meet you. As a new Member of Congress, and 
someone who comes from a State legislature where we have had to 
make decisions about mandatory vaccination programs, I've been 
a supporter of those because I think, as we look around at the 
chief reasons that we've been able to extend life expectancy 
and improve the general health of our population, that one of 
the chief public health strategies has been these vaccination 
programs for polio and rubella and smallpox, et cetera. But I 
am concerned because under the strong leadership of my 
subcommittee chairman, Mr. Shays, I have been hearing a lot 
about the anthrax vaccine. And one of the things that came up 
is that there was very little research done on the different 
reactions that women may have to vaccines, that there's a 
different kind of immune system. And I'm wondering if there are 
gender-difference studies that are required, and if you're 
aware of this?
    Dr. Satcher. Let's ask Dr. Zoon from FDA.
    Dr. Zoon. The original anthrax vaccine, which is the 
licensed vaccine we have today, was licensed back in 1970. And 
at that time there were not guidance documents available in 
general on inclusion of different populations. Subsequent to 
that though, there are guidances now that the FDA issues in 
drug development on the inclusion of different populations, of 
which women are a significant population. So I think that I 
cannot give you the breakdown of male and female that were in 
the original trial, and in fact, we had tried to go back and 
find some of those data, and they're not as easy to find in 
terms of the way they were recorded, based on the participants 
in those studies. But I think I would like to assure that right 
now, the information we do gather on vaccines do include 
different populations.
    Ms. Schakowsky. Well, let me ask you then about another 
population, which is hyper-reactors. That came up also in the 
anthrax discussions. And it may refer back to what the chairman 
was asking, that there are individuals whose bodies do produce 
adequate immune response with a lower dosage, for whom a higher 
dosage may pose a real problem. Is there any way to identify 
these individuals and provide alternative vaccination schedules 
or lower doses, et cetera, so that in the future we may be able 
to avoid some of these adverse reactions?
    Dr. Zoon. In vaccine and other product development that is 
done today, there are--as Dr. Satcher alluded to in phase II 
studies of clinical development, these are generally dose 
ranging studies, where they look at the immune response, 
immunogenicity, as well as safety. I would have to go back to 
look at those original data, and I'm not sure that all that 
data would be available from the old studies, because those 
were done in the 1950's.
    Ms. Schakowsky. Well, it seems to me that might be a 
direction that we need to go in.
    Dr. Satcher. Let me just say that's a very important 
question, and it is a very important subject of research. We 
need to be able to better predict how individuals will react to 
a vaccine much better than we can now. Now in the other 
medications too, I think you're right--Chairman Burton's 
example sounded like an anaphylactic-type reaction. I wouldn't 
know, unless I had the records, but that's what it sounded 
like. A very dangerous reaction; they can occur with any 
medication. I've seen them occur with the dye used for renal 
tests, and people can go into anaphylactic reaction soon after 
being exposed. We need better ways to predict who will respond 
in different ways to vaccines and different medications than we 
have now. That research has to continue.
    Ms. Schakowsky. One other line of questions--let me just 
ask them, and then you can respond. The VAERS system, which is 
really a rather passive system of reporting adverse reactions--
there were a lot of reasons again, in hearing the anthrax 
debate and testimony, to doubt the system, not the least of 
which was, it seemed some people from the Department of Defense 
were discouraged, some of the people in the Armed Services were 
discouraged from making those reports. But in a broader sense, 
how satisfied do you feel that we're getting an adequate 
representation? Some have projected maybe we only hear about 1 
in 10 adverse reactions. And I wonder if you have thought about 
ways that we can improve the VAERS system so it's more useful 
to us in making these important decisions.
    Dr. Satcher. Dr. Orenstein of CDC is here.
    Dr. Orenstein. Thank you very much. The VAERS system is 
really our warning system for problems. It generally can be 
very helpful, particularly at finding serious problems. The 
reporting efficiency of VAERS, which is what you're getting at, 
is how often are events reported. This varies with the severity 
of the reports. We find, for example, with regard to vaccine-
associated polio that about 70 percent or so of the cases that 
are known get reported to VAERS. With regard to other serious 
events like seizures, we generally see about 25 to 40 percent 
of what we would expect to be reported. When we deal with more 
mild events, or events that require, let's say, a laboratory 
test to document an abnormality, the reporting efficiency goes 
down substantially. But it's very difficult with any passive 
system to get a feel for how much is out there and whether it's 
causing something, because many of the illnesses that occur 
after vaccination also occur in the absence of vaccination. For 
example, in 1990, there were over 5,000 deaths from Sudden 
Infant Death Syndrome--children who died from Sudden Infant 
Death Syndrome, children who were well, most of them, and then 
were found as crib deaths, or may have had some mild illness 
beforehand. We would expect when we vaccinate large numbers of 
children--and we're talking about a birth cohort of 4 million 
children--that you're going to get deaths after vaccination. 
The real issue is, is the clinical syndrome different, or is it 
occurring more frequently than expected? And that's when we use 
our Vaccine Safety Datalink. The Vaccine Safety Datalink is a 
project where we fund independent researchers in 4 large 
managed-care organizations, in the Western United States, who 
have access to all of the medical records, so they can 
determine the expected incidence in the absence of vaccination 
to compare with the incidence in the presence of vaccination. 
We need to do more with VAERS. And I think that we are not 
satisfied with where VAERS is. Each year we send out a letter 
to 200,000 individuals to encourage reporting to VAERS. We've 
put in our standards for pediatric immunization practices that 
we want reported to VAERS, serious events even if you don't 
think that it's related to vaccination. We've done a lot; we 
need to do more. And I think that what you're pointing out is 
some of the weaknesses to VAERS.
    Mr. Burton. The gentlelady's time's expired.
    Mr. Weldon. Thank you, Mr. Chairman. I want to thank you 
for extending an invitation to me, and I want to thank the 
ranking member for withdrawing his objection.
    [The prepared statement of Hon. Dave Weldon follows:]
    [GRAPHIC] [TIFF OMITTED] T2560.112
    
    Mr. Weldon. I certainly want to thank you, Mr. Surgeon 
General, for your testimony. I know some of the people who are 
joining you there have been in my office to talk about these 
issues. And I want the record to reflect that I am a strong 
supporter of vaccination; that I vaccinated my patients 
according to CDC recommendations when I was practicing. But I'd 
like the record also to reflect that there is an increasingly 
growing level of public concern about the safety of our 
vaccines, and therefore I think it's extremely important that 
this issue be aired before the Congress. And if the light of 
scrutiny makes a determination that the system is safe, then we 
have the ability to broadcast that information to the public. 
And as well, if there are areas that need to be investigated 
further, we have the ability to appropriate the funds necessary 
to make sure the appropriate studies are done. I'd just like to 
start off with a couple of questions I have about the hepatitis 
B vaccine, the decision to recommend that for all newborns. My 
understanding of the transmission of hepatitis B is obviously 
it can be done through blood-borne contamination, through 
transfusions or infected needles, but as well through the route 
of sexual transmission. And indeed it's the sexually 
transmitted route that's deemed to be the most rapidly 
increasing segment of that problem. Am I correct in my 
understanding of this disease?
    Dr. Orenstein. The known modes of transmission are the ones 
that you have mentioned. Clearly, there has been much greater 
recognition of transmission among heterosexuals because, with 
regard to multiple sex partners. And that has accounted for a 
substantial proportion of hepatitis B cases. On the other hand, 
there are cases that we are not getting any, any history of any 
of these known risk factors for transmission. We presume in 
some way that they've been exposed, to either blood on abraded 
skin, a bite, or some other means. But there are these 25 to 30 
percent of cases in which, at least, there is no admitted risk 
factor for transmission.
    Mr. Weldon. How did hepatitis B compare to some of the 
other diseases where decisions were made to inoculate the whole 
population in terms of its incidence, as compared to polio, 
pertussis--I realize hepatitis B is a very serious illness and 
it costs a tremendous amount of money. But did the cost benefit 
analysis of this disease include the consideration that it's 
obviously different? The point I really am curious about is, 
being that a major mode of transmission is sexual transmission, 
we have never proposed inoculating the whole population for a 
sexually transmitted disease, am I correct?
    Dr. Orenstein. I'm not aware of anything where we've 
recommended the whole population be vaccinated for a sexually 
transmitted disease. But clearly this has more--sexual 
transmission is very important and I don't want to minimize 
that, but it's not the sole way of transmitting it.
    Mr. Weldon. Do you know what percentage is through sexual 
transmission, or could you speculate?
    Dr. Orenstein. I could get that data for you, for the 
record--a substantial proportion.
    Dr. Satcher. Let me just say one other thing. The process 
by which we decide to initiate an immunization program for any 
given agent is a very interesting and open process, as you 
probably know. The Advisory Committee on Immunization Practices 
is widely publicized. It includes experts from clinical 
practice, research----
    Mr. Weldon. I assume the American Academy of Pediatrics as 
well.
    Dr. Satcher. Yes. Very important representation from AAP 
and the American Academy of Family Physicians. But it's a very 
good question. They debated extensively before recommending.
    Mr. Weldon. I'm running out of time. The context of my 
concern is, it's three more shots, and one of the complaints 
is, it's getting to be a lot of shots. I think we have to 
address those issues.
    Dr. Satcher. Right.
    Mr. Weldon. I have a couple of other questions that maybe 
you can, you may just need to supply for the record. One is, if 
you can supply for the record the studies that are currently 
being done through CDC and NIH on vaccine-related side effects. 
I know there's--and as I said, some of you have come in the 
office and talked to me and there's a lot going on. But I think 
it would be important for us to have that for the record. And 
the other question I had was, is a legislative fix going to be 
needed if you're going to use the vaccination compensation fund 
to fund research studies? Because I know there's some 
discussion of that. And is that allowed under current law?
    Dr. Satcher. My understanding is that it would require an 
act----
    Mr. Weldon. An act of Congress.
    Mr. Benor. Yes, I can confirm that.
    Dr. Orenstein. Can I answer your other question that we 
never answered, and that is to put hepatitis B in perspective 
with some of the other vaccine-preventable diseases? We 
estimate that about 4,000 to 5,000 persons die each year from 
hepatitis B related liver cancer and hepatitis B related 
cirrhosis. If we compare that to measles in the pre-vaccine 
era, there were about 400 to 500 deaths from measles. If we 
compare it with haemophilus influenza type B, which is a severe 
cause of meningitis, we estimated that it was about 400 to 500 
deaths. So hepatitis B, when you look at the long-term 
consequences, was one of the most severe of the vaccine-
preventable diseases.
    Dr. Satcher. If you have time, Dr. Regina Rabinovich from 
NIH can respond to your other question about research.
    Mr. Burton. We'll let her answer and then we'll go to Mr. 
Cummings.
    Dr. Rabinovich. Your question, I believe, related to the 
research that's ongoing looking at vaccine-adverse events. And 
I think that I'd have to emphasize that looking at all aspects 
of vaccine safety begin with evaluation of pre-clinical data 
prior to going to, and deciding that there's enough safety data 
to go into your first phase I study in humans. The NIH conducts 
a broad program of clinical research in the number of different 
candidate vaccines, and for every study, safety is integral to 
that evaluation. And that is particularly true of the phase I 
studies, where it it's the first time that it goes into humans, 
as well as the phase III trials where you can really get more 
information in larger numbers of the target population.
    Mr. Burton. Thank you. The gentleman's time has expired. 
Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. I want to 
thank all of you for being here. In Baltimore we have probably 
one of the most effective immunization programs in the country. 
It is patterned after, as I understand it, the method of 
getting people vaccinated in Third World countries. I don't 
know if any of you are familiar with it?
    Dr. Satcher. Yes.
    Mr. Cummings. You, Dr. Satcher?
    Dr. Satcher. Yes.
    Mr. Cummings. Is that done other places also?
    Dr. Satcher. Well, let me just say in terms of Third World 
countries, we've made a lot of progress in recent years working 
with the World Health Organization. And among other things, 
coming up with schedules, but also implementing national 
immunization days. I was in India on December 7, 1996, when we 
immunized 120 million children in 1 day against polio. We've 
used strategies like that, which we don't have to use in this 
country because of ongoing programs. But in those countries 
because of where they were, we had to. And that's why we're 
very close to eradicating polio. I know CDC has funded 
Baltimore directly. It's one of those cities we funded 
directly, and not through the States, to develop exemplary 
immunization programs. And I agree, that program there has 
included a variety of strategies to get children immunized that 
have been very effective.
    Mr. Cummings. It's my understanding the hepatitis B is a 
blood-borne disease. How do children transmit it? Young 
children?
    Dr. Orenstein. You're absolutely correct. It is a blood-
borne disease. It is in the blood; it can be in other body 
fluids. It's in a low amount in saliva. The presumption for 
childhood transmission is, one, there is transmission from 
mother to affected baby if the mother is a chronic carrier. 
Aside from that, we think it may be perhaps from sharing 
washcloths with abraded skin; bites that might occur that would 
break the skin; children with rashes who might be exposed to 
someone bleeding. It's not really clear how it's happening; we 
just know it is happening in young children. And about 10 
percent of the infections overall are occurring by 9 years of 
age, about 6 percent of those with no known risk factors.
    Mr. Cummings. Say that last sentence again.
    Dr. Orenstein. We estimate that about 6 percent of all of 
the infections that occur with hepatitis B annually would occur 
without a vaccination program, occur with children with no 
known risk factors. That includes, that's primarily in 
Caucasian and African American children.
    Mr. Cummings. So a universal vaccination for infants 
against hepatitis B is very important, is that correct?
    Dr. Orenstein. Universal vaccination of infants for 
hepatitis B is important to protect them both from infection in 
early childhood as well as from infection later in life. The 
risk of infections are different when you get them. If you get 
infected as an infant, one, you're likely to have no symptoms 
at all. You're likely to never know you were infected. And you 
have a 90 percent chance of becoming a chronic carrier. And 
about a quarter of those go on to develop either liver cancer 
or cirrhosis of the liver 20 to 40 years or so afterwards, and 
they may never know how they got it. So we vaccinate them 
because the risk of the consequences of hepatitis B is much 
more severe, the younger you are. Contrast that with an adult. 
An adult who gets infected with hepatitis B, they have only a 6 
to 10 percent chance of becoming a chronic carrier. About more 
than one-third of all chronic carriers in the United States are 
believed to be from childhood infections.
    Mr. Cummings. Dr.--I'm sorry, I forgot your name. Next to--
--
    Dr. Satcher. Dr. Rabinovich.
    Mr. Cummings. Yes--you were shaking your head. Did you have 
something?
    Dr. Rabinovich. No, I agree that those figures indicate 
that hepatitis B is an important disease to prevent and that 
children are at particular risk.
    Mr. Cummings. Have there been any published peer review 
studies that show a link between hepatitis B vaccine and 
conditions such as multiple sclerosis and SIDS?
    Dr. Orenstein. There have been case reports that have 
suggested that this is a possibility, and that's why we are 
doing more comprehensive research. The people who are 
developing these illnesses after vaccination have very, very 
severe illnesses; there's no question that these are terrible 
tragedies. The problem is that there are people who develop 
these same kinds of tragedies, these same kinds of illnesses in 
the absence of vaccination. And that's why we're engaged, we 
and others are engaged in substantial research to try and see 
whether the vaccine increases the risk over what would be 
expected.
    Dr. Satcher. It's important to point out, as Dr. Orenstein 
said, ``and others,'' because it's not just the Government. The 
Institute of Medicine has been one of the major players in 
looking at these relationships between adverse events and 
vaccines. And a lot of the information has been reviewed 
thoroughly by the Institute of Medicine, as well as the 
Advisory Committee that we relate to. So it's not just those of 
us within government looking at this. Congress often relies 
upon the Institute of Medicine and other agencies--the National 
Academy of Sciences, which the Institute of Medicine is a part 
of--for independent reviews of issues like this. And we have a 
lot of reviews from the Institute of Medicine.
    Mr. Cummings. My time has run out. Thank you.
    Mr. Burton. Thank you, Mr. Cummings. Mrs. Biggert.
    Mrs. Biggert. Thank you for having this hearing. Many of 
those who have been concerned regarding mandatory vaccinations 
would like to see the States and/or the Federal Government do 
more in the area of advised consent. I would just like to know 
from the panel how you would define ``advised consent?''
    Dr. Satcher. You mean informed consent.
    Mrs. Biggert. Well, it's called ``advised consent,'' but it 
would be ``informed consent,'' whether parents should make up 
their mind whether to have such a vaccination.
    Dr. Satcher. Oh, yes. I'm sorry. So you're talking about a 
parent having the choice and obviously having the information 
to make that choice.
    Mrs. Biggert. Right.
    Dr. Satcher. Well, I think as we said earlier, the whole 
issue of immunizations are looked upon both from the standpoint 
of benefits to the individual, but also benefits to the 
community. And as you know, the requirement for immunizations 
are at the State level. But 48 States allow religious 
exemptions; 15 States allow philosophical exemptions. In all of 
those States, less than 1 percent of parents decide not to have 
their children immunized when they have those exemptions. So 
decisions are being made--but religious and philosophical 
exemptions are a very small percentage. But States have a 
responsibility to protect children in schools. And therefore, 
the requirements for immunization, in the absence of religious 
or philosophical exemptions, are based on the desire to protect 
the entire community, not just the individual.
    Mrs. Biggert. What I'm asking is, what action has CDC taken 
to improve the accuracy of information relating to the adverse 
impacts of a vaccination? Is that given to, to parents, or----
    Dr. Satcher. Yes.
    Mrs. Biggert [continuing]. Do you have an information 
campaign really targeted both to doctors and to prospective 
patients?
    Dr. Orenstein. CDC believes very strongly in the need to 
provide information to parents. We've done a lot. I think we 
need to do more. I think it's very clear that the information 
isn't always getting out. We helped develop a vaccine 
information statement that is required, actually by law, to be 
given to children for vaccination, if they receive a vaccine 
covered by the injury compensation program, which contains 
information on the risks of disease, the complications from 
disease, known risks, scientifically accepted risks from 
vaccines. It tells them about the compensation program; it 
tells them how to report adverse events; who might be at risk 
for these complications where it is known. And we distribute 
them to the States for distribution to all vaccine providers. 
In addition, we have developed websites where people can get 
more information. We have hotlines, which are listed in these 
information statements, where people can get more information. 
And we also put in each of these information statements, for 
the parent who wants more, one, to ask their doctor or nurse, 
and also even refer them to--some parents maybe want to see the 
package insert, which will contain more detailed information. I 
think we do a lot and are continuing to do more, and we will 
need to do more because we know of instances where this is not 
being done.
    Mrs. Biggert. I would imagine that some of these reactions 
would be something in common, like coughing or rashes or 
something that might start out that way. But how is it 
determined that these could be tied to the vaccination? Is 
there a problem making that connection? Are doctors given 
enough information?
    Dr. Orenstein. I think we provide information as well as 
others--the American Academy of Pediatrics, the American 
Academy of Family Physicians--about vaccines, both risks and 
benefits. I think there are issues, we encourage reporting of 
serious adverse events, regardless of whether the physician 
thinks they are vaccine-related or not. I realize there are 
still physicians who only report adverse events if they think 
they are related to vaccines. We are trying in multiple venues, 
and we will continue to try, to get all serious adverse events 
reported. What's difficult with many of the adverse events that 
are reported is that, while they are, can be very serious and 
very problematic, many of them are also occurring in the 
absence of vaccination. And when that occurs, and the clinical 
syndrome is not unique, then we need to do special studies. And 
that's why we have a system we call our Vaccine Safety 
Datalink, which works with four managed care organizations in 
the Western United States and independent researchers, to look 
at what the expected incidence of this illness would be in the 
absence of vaccination, to compare with the incidence in the 
presence of vaccination. And if it's higher after vaccination, 
that will be strong evidence that vaccine is actually causing 
it.
    Mrs. Biggert. I know there was a school in Illinois at one 
time where there was a measles outbreak. And it was a school 
for religious purposes, and nobody was vaccinated. Well, the 
school was shut down for a while until everybody recovered, and 
I think some of them probably had vaccinations. But is there a 
plan, if that happens, that addresses that problem in such a 
school?
    Dr. Orenstein. I think that each State would decide how 
best to deal with that situation. Although we may recommend 
mandatory immunization because we've seen how effective it is, 
how it's implemented is a State decision. So in terms of 
dealing with an outbreak in a college, for example, where there 
are large numbers of people who are unvaccinated and who can 
infect the community, that's usually worked out on a case-by-
case basis, and there may be actual plans as to whether the 
States would quarantine the school so that the children didn't 
go and spread it into many communities, or whether they just 
tried to make voluntary efforts to vaccination, or other kinds 
of efforts to vaccinate.
    Mrs. Biggert. Thank you. Thank you, Mr. Chairman.
    Mr. Burton. Gentlelady, thank you very much. Let me--I want 
to apologize to all the other panelists who are here because I 
know it's been a long day. It's extremely important though that 
we get through a few more questions and then we'll get to our 
next panel. I apologize once again for everyone getting saddle 
sores.
    First of all, why are individuals not tested when a series 
of three or five vaccines is given to determine their antibody 
levels, since this level would indicate that they may already 
be protected? Along with that, I understand, as I said before, 
in Japan they check the antibody levels to make sure a person's 
immune system is not depressed before they give them some of 
these shots. And they wait, or they wait until they're a little 
bit older. I just wonder why we don't look into that as well?
    Dr. Satcher. Well, I guess it gets back to risk and 
benefits, because a lot of the deaths that we have seen from 
these infectious diseases occur very early in children, 1 and 2 
years of age. So----
    Mr. Burton. Well Japan, I think, has a very, very good 
record in this regard. I think they have as good a record or 
even a better record as far as deaths or diseases caused in 
infants from these diseases. In fact, I've ordered the studies 
they have done and they are going to be sending those to us. 
But the fact of the matter is, they're as good or at least as 
good or better. And they check the immune system first, before 
they start administering some of these vaccines. I just wonder 
why we don't look at that. The cost benefit ratio, is that what 
you're saying?
    Dr. Orenstein. I'm not aware of what's done in Japan. I 
know Japan had two deaths after pertussis-containing vaccines 
in the 1970's. They stopped their pertussis vaccination and 
then had 41 deaths in an epidemic of pertussis afterwards. I do 
not know what they test for, but I do know that for some of 
these diseases, there aren't antibody tests. We don't know, for 
example, what----
    Mr. Burton. Where there are, why don't we?
    Dr. Orenstein. In many of them it may be maternal antibody. 
Maybe another antibody passed from the mother to the child. And 
by the time we would find out that they were susceptible, they 
may have already become infected. From any of this, it becomes 
a very difficult thing to do in the setting of a public 
clinic----
    Mr. Burton. Are you indicating to me that there are not 
antibody tests that can be performed prior to giving these 
children these shots? Because they get 21 by the time they're 6 
years old.
    Dr. Orenstein. There are antibody tests that could be 
performed in some children for some diseases, but as a matter 
of trying to assure vaccination and assure protection from 
vaccine-preventable diseases, it would be very difficult to do 
that for large number of children.
    Mr. Burton. But I understand that they do that in Japan. I 
wonder why?
    Dr. Satcher. But these are some areas where we're still 
doing research in terms of how much can we know about the 
individual's immunogenicity.
    Mr. Burton. Well, if you have any information, please 
submit it to us for the record. We have heard from individuals 
who have had remarkable healing after vaccines events through 
the use of homeopathic remedies. Has our Government or is our 
Government doing any research into that area?
    Dr. Satcher. As you know, Congress has established the 
National Center for Complementary and Alternative Medicine 
Center at NIH, so we are doing more research in the different 
approaches to clinical care.
    Mr. Burton. Their budget's very----
    Dr. Satcher. It's very early. It's very early.
    Mr. Burton. Their budget's very small. Would you recommend 
that we increase that a little bit?
    Dr. Satcher. Well, you know, we have certainly recommended 
that you increase the budget of NIH overall.
    Mr. Burton. Well I know, but when you do that, I'd kind of 
like for you to shove a little bit into the alternative thing.
    Dr. Satcher. And I think that will certainly happen.
    Mr. Burton. Would you do that?
    Dr. Satcher. Yes.
    Mr. Burton. Thank you. How do you explain the huge jump in 
autism and developmental delays?
    Dr. Satcher. Again, I'm taking the prerogative here on some 
of the questions, but many studies have been done looking at 
the relationship between autism and vaccines, and there have 
not been any conclusive studies showing that vaccines cause 
autism. That's still----
    Mr. Burton. There is a large increase.
    Dr. Satcher. Yes, and we're still studying it. But to date, 
we cannot demonstrate the causal relationship, but we continue 
to look at the issue.
    Mr. Burton. Well, if you have any additional information on 
that, we'd like for you to----
    Dr. Satcher. We certainly will. We will update you on what 
we have.
    Mr. Burton. Mr. Waxman, do you have any questions before we 
break?
    Mr. Waxman. Yes, sir. Thank you very much, Mr. Chairman. We 
know that when we immunize a child, we're trying to protect 
that child from certain diseases. But we're also protecting 
children who cannot be immunized, for example, children who 
have leukemia who can't be vaccinated. Isn't it true that some 
children who are vaccinated do not respond to the vaccine and 
develop an immunity to the disease?
    Dr. Satcher. Definitely. But the other point you made is so 
important--in response to Congresswoman Biggert's point about 
the school, the real question is, in addition to the children 
in that school who got measles, we don't know how many other 
people were exposed to measles because of that, who themselves 
might not have even been subject to vaccination because of an 
immune problem, or leukemia, or what have you. So when a group 
of people become infected by an infectious disease like 
measles, a lot of other people are exposed.
    Mr. Waxman. Isn't it the case that there will always be a 
small percentage of children who will not be immune to these 
vaccine-preventable diseases, so a parent who chooses not to 
have his or her child vaccinated is therefore putting these 
other children who cannot be vaccinated or do not respond to 
vaccines at a greater risk of----
    Dr. Satcher. Yes, I think that's the basis on which States 
have made the kind of decisions that they've made in terms of 
requiring immunizations.
    Mr. Waxman. I wasn't here for a lot of the questions on 
anthrax, and I know one of our subcommittees has held hearings 
and I haven't been a part of those hearings. But, what is your 
role on the anthrax vaccine compared to the Department of 
Defense?
    Dr. Satcher. Yes, I pointed out that the decision to 
immunize the troops was a decision made by the Department of 
Defense, and in some cases using information that's really 
security information that we don't have access to. I think what 
we can talk about is the vaccine and the studies that have been 
done to show both its safety and efficacy. And the FDA has been 
involved in those studies. It is on that basis that we can say, 
the vaccine is safe, and it's also effective.
    Mr. Waxman. And you haven't made a recommendation that 
everyone be immunized for anthrax, have you?
    Dr. Satcher. No, we haven't.
    Mr. Waxman. So that's not even an issue at the moment.
    Dr. Satcher. No, we don't anticipate making it. But 
obviously, as you know, in the area of bioterrorism, it just 
depends on what happens in the future in terms of what the real 
risks are.
    Mr. Waxman. Thank you very much, Mr. Chairman.
    Mr. Burton. Thank you. You've been very patient, this 
panel, and so have been all of the rest of the people who are 
going to be testifying. We have to go vote. We will be back as 
quickly as possible. I think we only have one vote on the 
floor. As soon as we return, we'll have the next panel. Mr. 
Surgeon General, thank you very much for being here. We really 
appreciate it. We stand in recess.
    [Recess.]
    Mr. Shays [presiding]. Ms. Nelson, Ms. Spaith, and Ms. 
Cole.
    I'm not succeeding in my coup. We have two we are still 
waiting for. Can we swear them in privately?
    Here is what we are going to do. We are going to ask you to 
stand, and then we will--we are calling our witnesses to come 
forward on panel two.
    Would you raise your right hands, please.
    [Witnesses sworn.]
    Mr. Shays. We will note for the record all our witnesses 
were sworn in except Ms. Spaith, and we will start with Tonya 
and Gerald Nelson. We will invite you to give your testimony.
    What we are going to do is we are going to turn the clock 
on for 5 minutes, and then we will roll over if we have to and 
welcome your testimony. And please feel relaxed. It is 
wonderful to have you here, you should feel very comfortable 
being here.
    Ms. Nelson. Thank you.
    Mr. Shays. Thank you for being here.
    Are you both going to give testimony, or one of you?
    Ms. Nelson. I will give mine, and then he will continue.
    Mr. Shays. OK. Ms. Nelson, why don't you start.

 STATEMENTS OF TONYA AND GERALD NELSON, INDIANAPOLIS, IN; RICK 
    ROLLENS, GRANITE BAY, CA; CAROLA ZITZMANN, VOICE OF THE 
 RETARDED; ANTONIA C. SPAITH, FALLS CHURCH, VA; REBECCA COLE, 
   PKIDS, CHAPEL HILL, NC; AND KEITH BERGEN VAN ZANDT, M.D., 
                    PKIDS, WINSTON-SALEM, NC

    Ms. Nelson. Thank you.
    Thank you Mr. Chairman and members of the committee. I am 
grateful to be here today to share with you our story regarding 
vaccines.
    I am the mother of four children. Abigail was my third. 
Abigail was born at 11:27 p.m., on March 22, 1994. She was a 
very healthy baby. We stayed 2 days in the hospital. Prior to 
our release from the hospital, she was given the hepatitis B 
vaccine.
    Mr. Shays. Ms. Nelson, I am going to ask you to put that 
microphone a little closer to you. That is the problem. It 
needs to be down. That is all right. We have to remind 
ourselves that, too. And you don't have to rush. You can speak 
more slowly.
    Ms. Nelson. I asked questions about the injection and was 
given a booklet to read that stated to expect no side effects 
except soreness in the area of the injection.
    We came home after receiving the vaccine. She was very 
cranky and her cry was very disturbing. It was more of a scream 
than crying. She began to spit up a lot.
    I called the doctor and was told to give her some water 
between feedings and to call back in a week. I did as the 
doctor suggested, but I began to get scared because her stool 
became loose and greenish-yellow. So I called back in a week 
and was told that was normal and to keep an eye on her and call 
if I needed to.
    The second week was worse. Her cry was just as bad and 
stool seemed loose. She became cold to the touch and shivered a 
lot. I called the doctor again. She told me to put her in her 
infant hat and to check her temperature four times a day and to 
call back the following week.
    I did this. Her temperature stayed at 96 degrees. Then her 
third week she began to turn purple in her hands and feet and 
around her lips. I called the doctor and was told to watch her 
breathing and they would see the baby the next week for her 1-
month checkup and to keep her wrapped tightly in blankets.
    I was becoming scared. I asked him to get her in before her 
checkup and was told they had no appointments. I hung up from 
that call and called my son's old doctor. She told me that she 
could not help without seeing the child, and since Abby was on 
Medicaid and she was not a Medicaid provider, she was 
restricted from seeing Abby. I offered to pay cash, but she 
said she could not take the money from a Medicaid patient. At 
this point Abby is still crying and vomiting and having loose 
stools and very cold.
    The night before she died she screamed for 6 hours 
straight, plus she had a lot of bowel movements. She finally 
fell asleep at 11:30 p.m. We woke up to find her dead at 6 a.m.
    I placed my 9-1-1 call and started CPR. The firemen and 
paramedics showed up. They pronounced her dead shortly after 
they arrived. The coroner said it would be 2 weeks before the 
cause of death could be determined.
    About 2 months later we received a telephone call from Dr. 
Thomas Gill of the Marion County Coroner's Office. He told us 
the cause of death was the hepatitis B virus, which she could 
only have gotten from the vaccine. He told me that he would get 
the death certificate out to me soon.
    Sixteen weeks later we received the death certificate in 
the mail, and the cause of death was natural causes, otherwise 
known as SIDS, Sudden Infant Death Syndrome.
    I was shocked to say the least. I called the coroner's 
office and spoke to a Dr. Manders, the coroner of Marion 
County, and was told that Dr. Gill had been asked to resign.
    Dr. Manders stated he had signed the death certificate. I 
asked how he could sign the death certificate if he did not 
perform the autopsy. He told me that he had done so since Dr. 
Gill was no longer there. We had not been able to determine how 
he came to the cause of death, since he did not perform the 
autopsy, and that Dr. Gill told us something very, very 
different. He told me that if I had questions to call a Dr. 
Pless, a pathologist at Indiana University.
    I did call and made an appointment to speak to Dr. Pless. 
He was a man without compassion, and the most cold-hearted I 
have ever met. He told me to stop trying to place the blame on 
my child's death and to go on with my life. He also stated that 
if the vaccine did kill my daughter, it was saving more lives 
than it was taking.
    I contacted a lawyer and he said to get all the information 
together and to call him back. I contacted the Infectious 
Disease Center at Riley Children's Hospital and spoke to a 
registered nurse. She was very helpful. She told me the vaccine 
has been known to take infants' lives and also to make them 
very sick. She could not help me other than that. She was 
scared she would lose her job. She also told me that the infant 
does not develop its own immune system till 3 to 4 months of 
age. I confirmed this with other doctors, who said they are 
very uncomfortable giving the injection at such an early age.
    I tried to contact the Center for Disease Control and 
Prevention and the vaccine company. I left messages that were 
never returned.
    To retain my own emotional well-being and to care for my 
two older children I had to take a break from this, thinking I 
had plenty of time to pursue this with the Government. I had to 
return to work because we were already behind the 8-ball 
financially. Having to pay for a funeral and headstone for Abby 
only made that worse.
    I was not the only member of the family who needed to heal 
from this trauma. My husband Gerald will share his experiences 
shortly. My older child needed counseling we could not afford, 
and the school told us she was young enough, she would soon 
forget.
    Finally I was able to call the attorney back and was told 
that it was too late. He said I only had 2 years to get 
compensated for our loss unless she had lived. Then I would 
have had 7 years.
    We had a lot of bills and misfortunes due to this one 
vaccine. We had lost the most important things in our lives, 
and nobody cared. They were too busy or too afraid of losing 
their jobs or paying too much malpractice insurance.
    I also know that my child was not a priority of getting an 
appointment with the doctor because she was on Medicaid. The 
doctors do not get enough compensation to encourage them to 
make Medicaid patients a priority.
    Since we were in such financial distress already, I tried 
to get State funding for her funeral, and was told it would 
take a few weeks to get approved for this, and that I would 
have to fill out paperwork. I didn't feel that I could hold off 
for weeks to bury my child while paperwork was being filled out 
and reviewed.
    I gave up hope and contacted Beth Clay on the committee 
staff. This has been like an open wound that has been trying to 
heal for 5 years but has not. I feel like coming and telling 
our story will be worth it if I can help save just one child's 
life. I hope through my own experience I will be able to help 
other parents also.
    Of course none of this will make up for the loss we 
encountered 5 years ago. By testifying today my husband and I 
may finally be able to bring closure to our grieving. So far we 
have been so busy trying to survive that we have not done so. 
Our Abby would have been in school now learning to read and 
writing songs. Instead we have a baby book that has never been 
filled out.
    Mr. Nelson. Tonya and I are like many other Americans, 
ordinary Americans, hard-working, struggling to survive. Tonya 
came into our marriage with two beautiful children, Sabrina and 
Kegan, whom I love dearly. Abby was a beautiful and healthy 
child. She was my first child. I was the proudest of fathers.
    This tragedy compounded with other family losses really 
tore me apart emotionally. I ended up losing my job. We have 
struggled to recover from this tragedy and to further 
understand how it is appropriate for babies whose immune 
systems are not even fully developed are being vaccinated. We 
also want to see more information be provided to parents prior 
to vaccination and that they be informed that there are medical 
and religious exemptions.
    Physicians also have to be educated about these exemptions 
and be comfortable giving them. We were told that the worst 
that would happen to our little Abby was that she would have a 
sore leg. That was certainly not accurate information.
    By coming today we hope that the Government will move 
forward with more research in the safety of vaccines in infants 
and the combination of vaccines. We also want medical freedom 
to be a consideration in finding the balance between public 
health and each individual's health and safety.
    Thank you, Mr. Chairman and members of the committee for 
this opportunity for us to testify.
    Mr. Burton [presiding]. Mr. Shays, you had something you 
wanted to say?
    Mr. Shays. Mr. Chairman, I first wanted to say to both Mr. 
and Mrs. Nelson that it is, one, very important that you are 
here. Second, that there is not a person in this room who 
doesn't find it outrageous that you would have encountered such 
resistance, one, to look at your child, and, two, that you 
weren't given the kind of sympathy that any grieving mother and 
father deserve. I am just glad to know about your case and see 
how I can be helpful to you. I do appreciate you being here, 
and since I did swear you in, I want to say that.
    Mr. Chairman, we do need to swear in Ms. Spaith. You might 
want to do that right now.
    Mr. Burton. I will be happy to do that.
    Before I do that, Mrs. Nelson and Mr. Nelson are friends of 
my daughter, and of course I told you earlier about my 
granddaughter having a problem with the hepatitis B vaccine. I 
want to also express my concern about what you folks went 
through. I have instructed my assistant here, Beth, to help you 
make a claim, which I think is justified, against the 
Government for this problem. And I hope--you have to do that by 
August 6, so we have got only 3 days, and we will assist you in 
doing that so that you can be at least partially compensated 
for that horrible thing.
    Ms. Nelson. Thank you.
    [The prepared statement of Mr. and Mrs. Nelson follows:]

    [GRAPHIC] [TIFF OMITTED] T2560.113
    
    [GRAPHIC] [TIFF OMITTED] T2560.114
    
    [GRAPHIC] [TIFF OMITTED] T2560.115
    
    [GRAPHIC] [TIFF OMITTED] T2560.116
    
    [GRAPHIC] [TIFF OMITTED] T2560.117
    
    [GRAPHIC] [TIFF OMITTED] T2560.118
    
    Mr. Burton. Ms. Spaith, would you stand, please?
    [Witness sworn.]
    Mr. Burton. Mr. Rollens, you are next.
    Mr. Rollens. Mr. Chairman and members, my name is Rick 
Rollens. I currently reside in Granite Bay, CA, which is 
located 30 miles east of Sacramento, with my wife of 23 years, 
Janna, and my two sons, Matthew, 13, and Russell, 8.
    Thank you for inviting me today to testify. For me this is 
somewhat of a homecoming, for in 1973 I had the privilege of 
serving on the Washington staff of former Representative Jerome 
Waldie of California.
    Following my service in the House, I embarked upon a 23-
year career of public service with the California State Senate. 
Working through the ranks, I was elected by the Members of the 
Senate to serve as their Secretary of the Senate, until I chose 
to resign my position in 1996 in order to dedicate myself to 
the pursuit of effective treatments and a cure for my beloved 
son, Russell.
    I am here today to share with you the story of my son's 
case of vaccine-induced autism and to report on the growing 
autism epidemic in California and the pandemic of autism 
throughout this country. Russell began his life as a normal, 
healthy, and robust child, meeting all his age-appropriate 
milestones. At 7 months old, within 72 hours after receiving 
his third DPT and first hep B vaccination, Russell developed a 
high fever and shrieked with a high, wailing scream for days. 
After these vaccinations, he started losing eye contact, 
smiling less, losing interest in people, developed constant 
croup, and was chronically sick. At 7 months old, Russell's 
life had begun to change along with the lives of all who know 
and love him.
    Within days after his first MMR vaccination, at 18 months, 
Russell began his final journey into the abyss of what my wife 
and I now know is autism, losing most of his remaining skills, 
developing severe sleep irregularities, chronic 
gastrointestinal problems, and expressing constant pain 
exhibited by harrowing days of endless crying. Russell was 
officially diagnosed at 2\1/2\ years old with autism.
    After many months of medical investigation of Russell's 
condition, including state-of-the-art brain scans, 
immunological and neurological and genetic workups, we 
consulted a noted pediatric neurologist who thoroughly examined 
Russell and reviewed all of Russell's medical history. He 
advised us that in part Russell's brain dysfunction had very 
likely occurred as a result of some form of encephalitis 
resulting in bilateral damage to the temporal lobes of his 
brain.
    Based on the facts that we have absolutely no family 
history of autism or any other type of brain disorder in our 
family, that he was born a normal, healthy child, that there 
exists a strong temporal relationship between the timing of the 
DPT vaccination he received at 7 months old and the onset of 
his autistic condition, his classic DPT vaccine reactions, 
coupled with the 18-month-old hit from the MMR and subsequent 
deterioration of his condition, as well as the scientific 
evidence that one of the many serious adverse effects of DPT 
vaccine is encephalitis and brain damage, I believe that 
Russell is a victim of vaccine-induced autism.
    My story is far from unique. Mr. Chairman and members, next 
week when you return home to your district, talk to your 
constituents, many of whom are among the growing number of 
parents who have children with autism. I can assure you that 
you will hear firsthand accounts from those parents about their 
normally developing children and the introduction and reaction 
to a vaccine or multiple vaccines, the timing of their 
children's regression and vaccination, and the onset of a 
multitude of other medical conditions and complications that 
accompany this acquired autistic condition.
    The first rule of medicine is to listen to the patient. A 
child born today in California will have received his first 
vaccination between 6 to 8 hours old. By the time that child is 
6 months old, he will have received 15 doses of vaccines, and 
by the age of 5 years old, 33 doses of vaccines.
    Vaccines contain numerous active agents such as live 
viruses, killed bacteria, and toxic chemicals, including 
aluminum, mercury, and formaldehyde. Where are the safety 
studies on the short- or long-term effects of the interaction 
of these numerous multiple vaccines and their agents on the 
developing brain and immune systems of our children? Where is 
the science?
    Many safety studies of individual vaccines only include a 
few days of followup periods for reactions, but the CDC tells 
parents and the news media that the onset of autism after 
vaccination could only be ``an unrelated chance occurrence.'' 
Dr. Satcher, show me the studies. Show me the science. Is it 
appropriate to continue to entrust the CDC and the indemnified 
vaccine manufacturers with the responsibility of guaranteeing 
parents of this country that these vaccines do not cause autism 
or other serious brain disorders when these same groups are the 
most aggressive promoters of vaccine use?
    The situation can easily be likened to charging the tobacco 
industry to undertake independent scientific studies to find 
out if there is any relationship between lung cancer and 
smoking. The science on the safety of vaccines and their 
relationship to the development of autism is not there. Not 
there because the pleas of parents have been ignored. I 
suffered the ultimate betrayal of trust by blindly allowing my 
child to be injected with a multitude of vaccines, trusting my 
Government had made sure that my child would not become 
autistic after his vaccinations.
    Responding to the outcry of parents such as myself, 
professionals, and educators over the concern of the rapidly 
increasing number of children with autism and autism spectrum 
disorders, the California legislature and two Governors of 
different political parties have responded within the past 12 
months by requiring a study on whether autism was increasing in 
the State, and after finding that there was a huge unexpected 
increase, appropriated several million dollars for independent 
research as well as an independent followup study into the real 
factors causing the increase.
    Under the leadership of State Senator, now U.S. 
Representative Mike Thompson, last year the legislature 
required the Department of Developmental Services to report on 
the increase of autism from 1987 through 1998. The report was 
released earlier this year, and documents a very conservative 
273-percent increase in the number of children with autism 
entering the developmental services system, 1,685 new children 
last year alone, when incidence projections for that population 
would have predicted between 105 and 263 new children. The 
report led the Los Angeles Times to declare that the State has 
an epidemic of autistic children. An epidemic of autistic 
children? Isn't that an oxymoron? We all know there is no such 
thing as a genetic disease epidemic. So clearly other factors 
are involved.
    According to the department, this year from January 6 to 
July 7, 1,027 new children with autism were added to the 
system, which means that California alone on average is adding 
6 new autistic children a day, 7 days a week, 1 new child every 
4 hours. Besides the unmeasurable human costs on the child and 
the family, the thousands of autistic children already in our 
system, along with these 1,027 new children, are according to 
the Department of Developmental Services going to cost the 
taxpayers of California and the country a minimum of $2 million 
each for the lifetime of their care.
    Surely any intelligent, thoughtful person with a straight 
face could not suggest that this huge increase in one of the 
most easily recognizable of all childhood disorders is all due 
to genetics, better recognition, or to minor changes in the 
diagnostic criteria that occurred 10 years after the massive 
increase in autism had already begun over two decades ago.
    Earlier this year the local and national news media 
extensively covered the story of the observations by parents in 
Brick Township, NJ, that there were a lot of kids with autism 
in their community. In fact, the CDC publicly announced that 
they had discovered a cluster of autism in Brick. What the CDC 
found was that the prevalence of autism in Brick was 1 in 150 
children; 1 in 150 children represents a prevalence rate 12 
times higher than the published prevalence rate. My family and 
I live in a community approximately 3,000 miles away from Brick 
Township, a community that is almost in every way as different 
from Brick as two communities in America can be. Where we live, 
our children are served by a single public elementary school 
district. The prevalence of autism in our elementary school 
district is 1 in 132 children.
    Mr. Chairman and members, Brick Township, NJ, and Granite 
Bay, CA, are not clusters of autism, but snapshots of what is 
occurring everywhere. Numerous parent organizations around the 
world, including the Autism Research Institute, the National 
Vaccine Information Center, Families for Early Autism 
Treatment, Autoimmunity Research Project, Cure Autism Now, and 
Allergy-Induced Autism are all constantly hearing from scores 
of parents reporting vaccine-related autism. You will find 
these children throughout the neighborhoods of your own 
districts.
    Vaccine policy has always been a cost-benefit proposition. 
I am here to tell you today that the once numerically rare 
sacrificial lambs that society has been willing to tolerate for 
the good of the whole could now very likely before our eyes be 
turning into herds of casualties of the most precious resource 
we have, our children and our grandchildren. We must act 
quickly by investing in good,
independent research and science to pursue the truth about the 
link between vaccines and autism. If we don't discover all the 
causes, we will never find a cure.
    Thank you for your time.
    [The prepared statement of Mr. Rollens follows:]

    [GRAPHIC] [TIFF OMITTED] T2560.119
    
    [GRAPHIC] [TIFF OMITTED] T2560.120
    
    [GRAPHIC] [TIFF OMITTED] T2560.121
    
    [GRAPHIC] [TIFF OMITTED] T2560.122
    
    [GRAPHIC] [TIFF OMITTED] T2560.123
    
    [GRAPHIC] [TIFF OMITTED] T2560.124
    
    [GRAPHIC] [TIFF OMITTED] T2560.125
    
    [GRAPHIC] [TIFF OMITTED] T2560.126
    
    [GRAPHIC] [TIFF OMITTED] T2560.127
    
    [GRAPHIC] [TIFF OMITTED] T2560.128
    
    [GRAPHIC] [TIFF OMITTED] T2560.129
    
    [GRAPHIC] [TIFF OMITTED] T2560.130
    
    [GRAPHIC] [TIFF OMITTED] T2560.131
    
    [GRAPHIC] [TIFF OMITTED] T2560.132
    
    [GRAPHIC] [TIFF OMITTED] T2560.133
    
    [GRAPHIC] [TIFF OMITTED] T2560.134
    
    [GRAPHIC] [TIFF OMITTED] T2560.135
    
    [GRAPHIC] [TIFF OMITTED] T2560.136
    
    [GRAPHIC] [TIFF OMITTED] T2560.137
    
    [GRAPHIC] [TIFF OMITTED] T2560.138
    
    [GRAPHIC] [TIFF OMITTED] T2560.139
    
    [GRAPHIC] [TIFF OMITTED] T2560.140
    
    [GRAPHIC] [TIFF OMITTED] T2560.141
    
    [GRAPHIC] [TIFF OMITTED] T2560.142
    
    [GRAPHIC] [TIFF OMITTED] T2560.143
    
    [GRAPHIC] [TIFF OMITTED] T2560.144
    
    [GRAPHIC] [TIFF OMITTED] T2560.145
    
    [GRAPHIC] [TIFF OMITTED] T2560.146
    
    [GRAPHIC] [TIFF OMITTED] T2560.147
    
    [GRAPHIC] [TIFF OMITTED] T2560.148
    
    [GRAPHIC] [TIFF OMITTED] T2560.149
    
    [GRAPHIC] [TIFF OMITTED] T2560.150
    
    [GRAPHIC] [TIFF OMITTED] T2560.151
    
    [GRAPHIC] [TIFF OMITTED] T2560.152
    
    [GRAPHIC] [TIFF OMITTED] T2560.153
    
    Mr. Burton. Mr. Rollens, that was a very eloquent 
statement, and I will just pledge to you personally that we 
will do everything we possibly can as a committee to find out 
everything we can. We will ask people from the Surgeon 
General's office and the Departments of Health to stay. They 
heard your statement as well, and I will just say to them that 
this isn't the only hearing we are going to have on this. We 
are going to be beating on this issue as long as I am chairman 
of this committee, which hopefully will be for a while.
    So I hope that you folks will do everything you possibly 
can to help us find a solution to this problem, because not 
only does Mr. Rollens have an autistic child, I have an 
autistic grandchild. I also have a granddaughter that almost 
died from the hepatitis B shot, I believe. So, you know, we 
have people that have had that problem with hepatitis B and 
autism, and the chairman of this committee has had both with 
two grandchildren. So I don't think it is just a coincidence.
    Ms. Zitzmann.
    Ms. Zitzmann. Mr. Chairman and members of the committee, I 
would like to thank you for allowing me as a mother to come 
here today and testify before you. My story will probably be a 
little different from what you have heard just now.
    When two people marry, they have dreams of life together 
and having a family. One day this becomes true, but something 
suddenly goes wrong. You are told that your child has problems 
but they don't know what because they need to do testing. Much 
later you discover that while traveling to work on the transit 
system, a bus and two trains into Manhattan, someone infected 
you with the rubella virus. You find out later it went directly 
into the developing fetus in the early stages of your 
pregnancy, causing the disabilities your son now experiences. 
But you only find this out after your baby is born, because the 
virus does not show signs of infection on you. The rubella 
virus does damage while the infant is developing, and now there 
are vaccines to prevent this.
    The guilt you experience when you learn your child is not 
normal and will never be is very difficult and hard on the 
family, and you begin to ask yourself, what did I do wrong to 
have this happen? Thankfully, I have had a very supportive 
husband in these last number of years.
    My story is that Robert, who is now 34 years old, was born 
with mental retardation and disabilities because of the lack of 
the vaccination. I was born and raised in Brooklyn and lived in 
Queens after I got married, but traveled to Manhattan every 
work day. Perhaps you recall it was mentioned earlier the 1964 
New York rubella outbreak that had happened.
    Soon after our son was born in 1964, we knew something was 
wrong. He couldn't nurse, his sucking reflexes were poor. To 
this day, he cannot suck on a straw, blow out a candle or blow 
his nose. He was delayed in holding objects in his hands, 
sitting, walking, and he didn't know how to hold onto you when 
you picked him up. He had many bouts of respiratory infections 
and pneumonia. His eyes were also affected and he has been 
wearing glasses since he was 3, and they continue to 
deteriorate, and I am being told he will develop cataracts.
    He has no speech, therefore, no language skills. He needs 
to be dressed, undressed, bathed, shaved, toileted, many times 
because he soils himself still. His foods need to be prepared 
and carefully selected. He has certain food intolerances. He 
can feed himself when his food is cut up, most of the time with 
a spoon, a lot of the times with his hands.
    His motor skills and coordination are also poor. Bob will 
wander off if not watched, and we have had to put bolt locks on 
our front doors to prevent him from leaving, and we have had to 
call the police to try to find him. We now have an ID bracelet 
on him.
    All through Bob's growing years, I have met many families 
who share my experiences due to the rubella exposure and have 
always been a strong proponent for parents to immunize their 
children against such viruses, recognizing, however, that the 
decision remains one of family choice, but also knowing that 
since the vaccine has been developed, many individuals have 
been prevented from becoming disabled.
    Bob lived at home with us for 21 years, when we made a 
critical decision in his life and placed him in a private, 
intermediate care facility for the mentally retarded [ICFMR], 
which is a Medicaid funded and federally certified residential 
program. He thoroughly enjoys his home in Wide Horizons. When 
he comes to visit us, within a few days he signs he wants to go 
back because he is bored.
    Before he moved to Wide Horizons, though, and was living 
with us, we were not able to go out to dinner together, attend 
church together, picnics, movies, or vacations. I was changing 
diapers and pants daily on this young man. Sometimes I had to 
change and strip him twice during the night, which meant little 
sleep for both of us.
    Bob and others like him need more supervision, more 
structure, and do well with routine and not so well with 
changes in their daily life. Because his home is an ICFMR, it 
means that his medical, dental, therapeutic, and recreational 
needs are also arranged by the facility through community 
providers.
    As a parent, I needed a guarantee of safety and oversight, 
because he is so vulnerable. He is happy and doing well, even 
with all his disabilities. We as a family appreciate having the 
ICFMR available to us to choose from.
    As a citizen, we select Members of Congress to serve as our 
proxy when it comes to matters of public policy, and I thank 
you for your time today, and trust that you will keep 
preservation of family choice foremost in your mind as policies 
impacting people with regard to vaccines is decided, and I 
truly hope that this committee will consider looking into why 
there are reactions to these vaccines when it is supposed to be 
helping people, not hurting them. I always wonder, if we had 
had this vaccine back then, what would my son be like today?
    Thank you.
    [The prepared statement of Ms. Zitzmann follows:]

    [GRAPHIC] [TIFF OMITTED] T2560.154
    
    [GRAPHIC] [TIFF OMITTED] T2560.155
    
    [GRAPHIC] [TIFF OMITTED] T2560.156
    
    [GRAPHIC] [TIFF OMITTED] T2560.157
    
    [GRAPHIC] [TIFF OMITTED] T2560.158
    
    [GRAPHIC] [TIFF OMITTED] T2560.159
    
    [GRAPHIC] [TIFF OMITTED] T2560.160
    
    [GRAPHIC] [TIFF OMITTED] T2560.161
    
    [GRAPHIC] [TIFF OMITTED] T2560.162
    
    [GRAPHIC] [TIFF OMITTED] T2560.163
    
    [GRAPHIC] [TIFF OMITTED] T2560.164
    
    [GRAPHIC] [TIFF OMITTED] T2560.165
    
    [GRAPHIC] [TIFF OMITTED] T2560.166
    
    [GRAPHIC] [TIFF OMITTED] T2560.167
    
    [GRAPHIC] [TIFF OMITTED] T2560.168
    
    [GRAPHIC] [TIFF OMITTED] T2560.169
    
    [GRAPHIC] [TIFF OMITTED] T2560.170
    
    [GRAPHIC] [TIFF OMITTED] T2560.171
    
    [GRAPHIC] [TIFF OMITTED] T2560.172
    
    [GRAPHIC] [TIFF OMITTED] T2560.173
    
    [GRAPHIC] [TIFF OMITTED] T2560.174
    
    [GRAPHIC] [TIFF OMITTED] T2560.175
    
    [GRAPHIC] [TIFF OMITTED] T2560.176
    
    [GRAPHIC] [TIFF OMITTED] T2560.177
    
    [GRAPHIC] [TIFF OMITTED] T2560.178
    
    [GRAPHIC] [TIFF OMITTED] T2560.179
    
    [GRAPHIC] [TIFF OMITTED] T2560.180
    
    [GRAPHIC] [TIFF OMITTED] T2560.181
    
    [GRAPHIC] [TIFF OMITTED] T2560.182
    
    Mr. Burton. Thank you, Ms. Zitzmann. Thank you very much.
    Ms. Spaith.
    Ms. Spaith. Thank you for inviting me here today. I will 
preface what I am about to say with the fact that the opinions 
that I will express in my testimony are my own personal beliefs 
and not those of the organization for which I work. I would 
like to request that my formal official testimony be entered in 
as part of the official transcript for today's hearing, and I 
will just talk to my abbreviated testimony in the interest of 
time.
    Mr. Burton. That's fine.
    Ms. Spaith. I have served at the Department of Defense and 
in the U.S. Naval Reserve now for 26 years, 5 months. The last 
4 years have been in the Office of the Secretary of Defense, 
Acquisition and Technology, Nuclear, Chemical and Biological 
Matters, which is now called Defense Threat Reduction Agency, 
and I work in chemical and biological elimination. My official 
title is International Project Manager, Biological Weapons 
Proliferation Prevention.
    I manage a team of scientists, veterinarians, and 
technicians in collaborative research with the Russians at the 
Russian Biological Weapons Institutes. I travel to Russia, to 
the various institutes where dangerous pathogens are 
stockpiled, both bacterium and viral.
    In August 1988 I was told by my supervisor to get my shots 
prior to my first deployment to Russia. I received typhoid, 
hepatitis A, and tetanus diphtheria vaccines at my agency, 
Defense Threat Reduction Agency, in late August, early 
September. I received one anthrax and one botulism vaccine at 
the U.S. Army Medical Research Institute for Infectious 
Diseases at Fort Detrick, MD in September and one additional 
anthrax vaccine in January 1999.
    I was never told that any of the vaccines that I was 
receiving were experimental or investigational, and, in fact, 
the botulinal toxin, bot-tox, was investigational.
    The blood work-up that was done at Fort Detrick indicated 
that I fell into the normal range--this was prior to receiving 
the vaccines--I fell into the normal range in terms of the 
assessments that were conducted on my blood at that time, which 
was chemistry and hematology.
    After receiving the vaccines, my blood chemistry changed 
significantly. A blood work-up was done at Walter Reed during a 
routine occupational health physical, and showed that I was 
anemic in the tests that they did run at that time, and a 
physical exam by the doctor revealed that I had a severely 
enlarged thyroid. There had been at that point no followup by 
any of the medical personnel at Fort Detrick.
    My first real symptoms began in October 1998 with 
significant loss of energy. I had trouble sleeping, which 
exacerbated the problem. In November 1998, I started having 
severe headaches in the very back of my head, where I have 
never had headaches before, way back here. I developed acute 
diarrhea. I had hair loss, blood sugar problems, mood swings, 
sleep deprivation, and acute anxiety.
    By December 1998, I had menstrual cycle interruptions, 
increased PMS symptoms, abnormal feelings of tension, 
tremendous--tremendous hair loss, extreme fatigue and loss of 
energy, severely reduced reflexes, and psychological problems.
    I had been completely healthy with no medical problems 
prior to receiving the vaccines. I ran 2 miles every day prior 
to receiving the vaccines. Every day of my adult life I have 
done this. I have not been able to resume that activity.
    I might also mention as an aside, each time I went to Fort 
Detrick, MD for my vaccines, I was bled. In other words, they 
drew blood each time, and I had to prove two different ways 
that I was not pregnant prior to them administering the 
vaccines to me. One was that I had to be on the first day of my 
menstrual cycle to receive the shot. The other was they drew 
blood and made me wait for 2 hours to prove through the blood 
test that I was not, in fact, pregnant before they would 
administer the shot.
    This is basically why I believe that the vaccines I 
received at Fort Detrick, combined with the ones that I 
received at my own agency, and their cross-reactivity, 
contributed to or directly caused my illnesses and conditions.
    By December 1998, I was terribly distraught and suffering, 
and having psychological problems. I went to an endocrinologist 
specialist. She conducted blood work and it revealed that I had 
no thyroid function at all, whatsoever. It was completely dead 
and not functioning. She told me that I had Hashimoto's 
Disease. She started me on Levathoid, which is a synthetic 
thyroid medicine.
    The thyroid regulates the pituitary gland and regulates 
messages from the brain. However, my thyroid produces no 
thyroxin, which results in mixed signals that my body was 
receiving from my brain. As messages were sent from my 
pituitary, and my brain to my thyroid, there were no receptors 
to stimulate secretion of the thyroid gland hormone and no 
thyroxin was produced, so the messages go right back up in a 
closed loop. I was not performing in quite the organized way as 
people whose thyroids function properly. I am currently on 
three types of medications. The Levathoid is for the thyroid 
condition and I am also on Paxol and Adavan.
    What caused my thyroid to stop functioning? That is the 
question that I have. There is no history of this in my family. 
I believe it was the vaccines that caused the change in my 
brain chemistry and my thyroid to stop functioning, which have 
further resulted in this very debilitating auto-immune 
deficiency which I am classified as having.
    While I have had some favorable progress from the 
medications, I believe that my health will never be restored as 
it was before I received the vaccines. My psychological 
problems continued and worsened. I was over-reacting to 
situations and having terrible mood swings, still not sleeping. 
I could get upset very easily over the least little things. I 
developed a great deal of difficulty in my inter-personal 
relationships at work, particularly when I thought people were 
not cooperative. I got overly upset and said things that were 
not characteristic of me. I felt out of control, filled with 
anxiety, and nothing but despair. I was also disoriented and I 
had a great deal of difficulty focusing. I basically thought I 
was losing my mind.
    At work the situation became so bad that my supervisor 
found my behavior to be so out of character, and my personality 
so radically changed, that I was called in and counseled on my 
behavior problems and given a letter of reprimand. This had 
never before happened to me. It was an emotional nightmare, and 
it was the lowest point in my career.
    Then I realized that if management thought that I had 
changed that much, that something was seriously wrong with me, 
enough to write me a letter of reprimand, that I had better get 
back to a doctor. So I went back to the endocrinologist, and I 
discussed it with her, and I told her exactly what was going 
on. She immediately referred me to the mental health facility. 
I went that same day. I was diagnosed with depression and 
anxiety disorder, those are the other two medications that I am 
taking.
    I learned that anxiety disorder is a biological malfunction 
in the body and not just something which is in your mind. It 
stems from a malfunction in brain chemistry. Depression, on the 
other hand, is a whole body illness and it affects the nervous 
system, mood swings, thoughts, and behavior. It, too, begins 
with a disturbance in the part of the brain that governs moods.
    Medical experts believe that thyroid disorder, as well as 
chemical imbalances in the brain, can actually cause 
depression. I attended classes at my HMO's mental health 
facility where I learned these facts, as well as new skills to 
cope with my disorders.
    I believe that my agency placed me in harm's way and then 
abandoned me in my personal crisis. Instead, they told me I had 
behavior problems and wrote me a letter of reprimand.
    Now, I am worried about blood pressure, it has always been 
very low and now it is very high, and the doctors are 
monitoring that. I also recently discovered that I have 
arthritis in several parts of my body. I am now taking anti-
inflammatory drugs and waiting to get scheduled to see a bone 
specialist. That is on top of the other three medications.
    Again, no one in my family has any history of these 
disorders or illnesses. I continue to perform my job, however, 
I will not take any more vaccines. I will be on the synthetic 
thyroid stimulating hormone every day for the rest of my life. 
As for the other two psychotropic drugs that I am taking, I 
will continue for as long as the doctors feel it is necessary.
    I would like to ask a question. I have a daughter who is a 
First Lieutenant in the Air Force, and since we share the same 
DNA and biological make-up, wouldn't it make sense that she not 
be forced to have to take these shots, considering what she has 
inherited from me and my predispositions? I am very concerned 
for her. The Air Force has told her that she and the other 
people at her command, which is Space and Missile Command in 
Los Angeles, will have to take the anthrax vaccines. It is 
either that or they will leave the service. I have great 
concerns for her. She has got an application in to become a 
pilot.
    [The prepared statement of Ms. Spaith follows:]

    [GRAPHIC] [TIFF OMITTED] T2560.183
    
    [GRAPHIC] [TIFF OMITTED] T2560.184
    
    [GRAPHIC] [TIFF OMITTED] T2560.185
    
    [GRAPHIC] [TIFF OMITTED] T2560.186
    
    Mr. Burton. Does that conclude your remarks, Ms. Spaith?
    Ms. Spaith. Yes, sir.
    Mr. Burton. Well, in answer to your last question, there 
are a number of Congressmen, myself included, that have 
legislation that is going to be introduced and will be 
pending--we had a press conference today--that would allow 
members of the Armed Services to decline to have the anthrax 
shot. But we are working on that right now.
    Ms. Cole.
    Ms. Cole. I have a poster with some children on it. Could 
somebody put that up, please?
    Mr. Burton. Would somebody post that, please?
    Ms. Cole. I want to show you mine. This is Christopher.
    Mr. Burton. How old is Christopher?
    Ms. Cole. Christopher was 12 when he passed away.
    Mr. Chairman, members of the committee, thank you for 
letting me speak to you today.
    My name is Rebecca Cole and I am from Chapel Hill, NC. I am 
the mother of five children. I am here today because I faced 
the worst nightmare any parent can possibly face. There is no 
experience on Earth that compares to the horror and devastation 
of losing a child. It is shattered dreams, crushed wishes, and 
a future that suddenly vanishes before our eyes. It cannot be 
wished away, slept away, prayed away, or screamed away. It is 
darkness, agony and shock. It leaves our hearts broken, 
bleeding and bursting with pain and it changes us forever.
    My life changed forever on June 30, 1988 when I had to 
stand by helplessly as an infectious disease claimed the life 
of my oldest child, Christopher Aaron Chinnes, at the age of 
12.
    Christopher was a beautiful little boy who had light blond 
hair and deep brown eyes. He was full of compassion, joy and 
energy. He loved baseball and every living creature on the 
Earth. He wanted to be a scientist or doctor. I can honestly 
say that my son was one of the most beautiful human beings I 
have ever known, and I am proud to have been his mother.
    Christopher was born a very healthy child but at the age of 
8 he developed asthma. It was never a problem for him and it 
never kept him from doing the things he loved. But, on June 16, 
1988, 4 years after he was diagnosed, he suffered his first and 
only severe asthma attack. He had to be hospitalized and was 
treated with all of the normally prescribed drugs including a 
corticosteroid. For those who don't know, corticosteroids are 
anti-inflammatory drugs. They are used routinely in asthma, 
arthritis, and allergies. Oral surgeons also prescribe them for 
swelling in the gums.
    Well, Christopher was released from the hospital 4 days 
later with several medications to finish at home, and he was 
well on his way to recovery. On June 23rd, exactly 1 week after 
the asthma attack, he broke out with the chicken pox. ``Don't 
worry, you will get over it,'' I told him. What I didn't know 
was that the corticosteroid had lowered his body's immune 
response and he could not fight the disease.
    The chicken pox began to rampage wildly through his young 
body. As I drove him to the emergency room on June 27th my four 
younger children watched silently in shock and horror as their 
brother went into seizures, went blind, turned gray, and 
collapsed due to hemorrhaging in his brain. That afternoon 
Christopher was flown from Camp Lejeune's Naval Hospital to 
East Carolina University School of Medicine's Medical Center, 
but the chicken pox was uncontrollably sweeping through him 
like a wildfire, and there was nothing anyone could do.
    The next day he suffered cardiac arrest and slipped into a 
coma. As my beautiful little boy lay swollen beyond recognition 
and hemorrhaging from every area imaginable including out into 
the blisters on his skin, I learned that a vaccine existed but 
was not yet licenced by the FDA. A vaccine that could have 
prevented the unimaginable suffering of my child and all who 
knew him.
    On June 30, 1988, exactly 1 week after breaking out with 
chicken pox, Christopher passed away. He died. He was not 
injured. He did not act differently. He was not crippled. He 
died. My priceless little boy lay on a cold, steel table 
swollen beyond recognition, cold and dead, gone from me, gone 
from life itself.
    I cannot hold him, kiss him, see him smile or listen to his 
laughter as he chases a ball or bullfrog. The chicken pox virus 
destroyed every organ in his body and it cut pieces from the 
hearts of everyone who witnessed its devastation.
    Vaccines prevent countless deaths each year. Without them 
the number of valuable human beings we would lose would be 
staggering. Yes, sadly, some injuries and deaths occur as a 
result of vaccines, but unfortunately there are risks with 
every single drug we use. We have and will not ever reach 
perfection. We must remember that the benefits of our vaccines 
far outweigh the risks. Especially for those who are ill or 
immunosuppressed like Christopher was. There are innocent 
children and adults who come in contact with the public every 
day who would die if they were exposed to the diseases we can 
prevent.
    If everyone around them is vaccinated, they are also 
protected. We owe it to them and to ourselves as a Nation to 
achieve the highest level of safety and protection possible. We 
must win the war against infectious disease, and vaccines are 
our most powerful weapons. We cannot win, however, if we do not 
use them. Leaving any of our population unprotected is like 
surrendering to a defeatable foe, and we must never surrender. 
Thank you.
    Mr. Burton. Thank you, Ms. Cole.
    [The prepared statement of Ms. Cole follows:]

    [GRAPHIC] [TIFF OMITTED] T2560.187
    
    Mr. Van Zandt. Thank you, Mr. Chairman and committee 
members. My name is Dr. Keith Van Zandt, and as a practicing 
family physician I appreciate the opportunity to address this 
committee regarding vaccines.
    I have degrees from Princeton and Wake Forest Universities 
and completed residency training in family medicine here in 
Washington at Andrews Air Force Base. Today, however, I am here 
as a dad. I have five children, two of whom my wife, Dede, and 
I adopted from Romania. Our youngest, Adriana, was nearly 4-
years-old when we adopted her from the orphanage and was found 
to have chronic active hepatitis B when we performed bloodwork 
prior to bringing her home. She had contracted this from her 
mother, who died when Annie was 9 months old from the effects 
of her liver disease as well as tuberculosis.
    We have been very fortunate to have had some excellent 
medical care for Annie, but her first year with us was an 
endless procession of liver biopsies, blood draws, and over 150 
painful Interferon injections that I gave my new daughter at 
home. Interferon is a form of chemotherapy for hepatitis B that 
has many side effects and only a 25 to 40 percent response 
rate. We know first-hand the pain and family disruption this 
completely preventable disease can bring.
    As a family doctor, I see patients every day whose lives 
have been significantly improved by the immunizations we now 
have available. My forbearers in family medicine struggled in 
the pre-vaccination era with the ravages of horrible diseases 
that are now of only historical interest. Preventive 
immunizations have so changed our world that I am afraid that 
we no longer remember how horrible some of these diseases were.
    My family and I have made multiple trips to Romania to work 
in the orphanages and unfortunately I have seen the effects of 
many of these diseases there. I am certainly aware of the 
potential for adverse reactions to our current vaccines but we 
must maintain the perspective that these reactions are 
extremely rare.
    My partners and I in Winston-Salem care for over 40,000 
patients, and I can honestly say that in over 20 years of 
practice, we have never seen a serious adverse reaction to any 
vaccine. I believe that the vast majority of family physicians 
around the country can say the same. Certainly I do not wish to 
minimize the suffering and losses of families who have 
experienced these problems, but we must remember that 
immunizations remain the most powerful and cost-effective means 
of preventing disease in the modern era.
    Personally, it still sickens me to know that the disease 
that my daughter has was completely preventable if hepatitis B 
vaccines had been available to Annie and her mother. Whereas 90 
percent of adults who contract hepatitis B get better, 90 
percent of children under the age of 1 go on to have chronic 
disease and 15 to 20 percent of them die prematurely of 
cirrhosis or liver cancer.
    I know first-hand the gut-wrenching feeling of being told 
your child has a chronic disease that could shorten their life. 
I know first-hand the worry parents feel when their hepatitis B 
child falls on the playground and you don't know if her 
bleeding knee or bloody nose will infect her playmates or 
teachers. Our kids are all over this country. They play with 
your kids in preschool. They date your kids in high school. I 
know first-hand the concern for my other children's health with 
a 1 in 20 chance of household spread of hepatitis and the 
thankfulness I feel that they have had the availability of 
successful vaccines. I know first-hand the pain a parent feels 
for their child as they undergo painful shots and procedures 
for their chronic disease with no guarantee of cure.
    I am not the world's leading expert on hepatitis B or the 
hep B vaccine, but I am an expert on delivering the best 
medical care I can to my patients in Winston-Salem, NC. I am 
also not the world's leading expert on parenting children with 
chronic diseases, but I am the world's best expert on parenting 
my five children.
    I know professionally that immunizations in general have 
hugely improved the lives of those patients who have entrusted 
their medical care to me. I know personally that had the 
hepatitis B vaccine been available to my daughter, her life and 
mine would have been drastically different. I am also thankful 
that my other children have been spared Annie's suffering by 
being successfully vaccinated.
    Anecdotes of vaccine reactions are very moving, but they 
are no substitute for good science. Please allow me to continue 
to provide the best medical care I can with the best system of 
vaccinations in the world and allow me to keep my own family 
safe. Thank you very much.
    [The prepared statement of Dr. Van Zandt follows:]

    [GRAPHIC] [TIFF OMITTED] T2560.188
    
    [GRAPHIC] [TIFF OMITTED] T2560.189
    
    Mr. Burton. Thank you, Dr. Van Zandt. I hope that the 
impression has not been given that anybody on this committee 
thinks vaccinations aren't important. I think we all agree that 
they are. The question is, are all of them absolutely necessary 
and are there things that can be done to make sure that they 
are necessary?
    In your particular case, you adopted a child where they 
probably didn't have available to them on a regular basis those 
kinds of vaccines. I mean Romania has had some difficult times 
and had some very unfortunate situations, but I just talked to 
a family where, and I won't identify them because the lady did 
not want anyone to know she has hepatitis B, but she had 
hepatitis B and she came to the United States and married and 
her child was born with hepatitis B.
    Had she been tested for hepatitis B during her pregnancy, 
it would have been very clear that the child should get a 
hepatitis B shot to prevent hepatitis. As I understand it, 
hepatitis B is spread through blood or from birth through the 
mother, or from needles, or from sexual contact. That being the 
case, it seems to me that if there are side effects to 
hepatitis B shots, as I believe there are because my 
granddaughter almost died--I think you heard that in my 
comments--then it seems to me that one of the first lines of 
defense would be to test every pregnant woman while she is 
pregnant to see if she has the hepatitis B virus.
    Mr. Van Zandt. We do that.
    Mr. Burton. Well, this woman was not tested when she was 
pregnant. The hospital evidently neglected to do that.
    If the mother doesn't have hepatitis B, then it may or may 
not be necessary for that child to have the hepatitis B vaccine 
and that I think should be something that parents should be 
aware of, especially if there are side effects. Now this is 
just my own opinion. I am not a scientist or a doctor, but I 
have talked to a lot of people who feel the same way I do who 
do have this expertise.
    If you would like to comment, I would be happy to have 
you----
    Mr. Van Zandt. If I could respond to that, we have heard 
earlier today that 40 percent of the cases of hepatitis B there 
is no identifiable cause, no identifiable risk factor.
    Mr. Burton. About 25 percent I think.
    Mr. Van Zandt. It varies. I have read different, but 
nonetheless like I said I will defer to my CDC colleagues on 
that. The problem is that children with infectious diseases are 
out there. They often are totally asymptomatic. We don't know 
that they have these infectious diseases and that puts the 
population at risk.
    We cannot simply target those populations that we think are 
prone to the disease and only gear our immunizations toward 
them. We tried that with hepatitis B in the past with 
adolescents. We tried to simply immunize adolescents. It didn't 
work.
    Mr. Burton. Let me ask you this question----
    Mr. Van Zandt. We got dismal immunization rates by doing 
that and it didn't work and we moved back to the infancy time.
    Mr. Burton. May I ask you a question?
    Mr. Van Zandt. Sure.
    Mr. Burton. This lady's child died and it is believed by 
the coroner that it was caused by the hepatitis B shot, because 
we called the coroner this week, did we not? We called the 
coroner and asked him.
    My granddaughter, within 12 hours of the hepatitis B shot, 
wasn't breathing. She was in a hospital, turned blue, and they 
thought she was going to die. She had to go on oxygen and she 
did survive, thank goodness.
    What do you say to the two of us?
    Mr. Van Zandt. Certainly I can't speak specifically to the 
cases. That would be unfair to you and to me. I don't have the 
details.
    What I can say is that the system of vaccinations we have 
in this country works well. My personal experience is all I can 
speak to on that. The experience of my partners in Winston-
Salem is all I can speak to on that. The reaction rates are 
rare. We rarely see them. There may be associations between the 
timing of the shot and diseases that develop. I think we need 
more data and more information to truly determine whether there 
is a cause-effect relationship or simply an association between 
those two and that is a big difference.
    Mr. Burton. Well, I agree with that and I think those are 
things that the Surgeon General and CDC and the FDA and 
everybody else ought to get on with as quickly as possible 
because vaccinations are absolutely necessary. But if 
vaccinations are causing autism, like in my grandson, or almost 
killing someone, like my granddaughter, or killing these 
people's child, then I think that it ought to be found out so 
that we can make corrections.
    Mr. Van Zandt. Absolutely.
    Mr. Burton. We agree.
    Mr. Van Zandt. We are all on the same page. I think that we 
don't want to throw out the whole system based on that, 
however.
    Mr. Burton. Ms. Spaith, did your supervisor get those 
shots?
    Ms. Spaith. No, sir, he didn't.
    Mr. Burton. He did not?
    Ms. Spaith. No, sir, he did not.
    Mr. Burton. Why did he ask you to get those shots?
    Ms. Spaith. Because I travel to Russia to dangerous sites, 
as he does, and my second level supervisor and other people in 
the office do.
    Mr. Burton. And they didn't get the shots?
    Ms. Spaith. No, sir, they did not. They said they didn't 
have time.
    Mr. Burton. So you were the only one and you ended up being 
the guinea pig?
    Ms. Spaith. Yes, sir.
    Mr. Burton. Let's see. Mrs. Cole, if a child is immuno-
suppressed, could they be vaccinated?
    Ms. Cole. They hold off on that with the live virus 
vaccines. There are children who can't be vaccinated because of 
a drug they are on or a disease they have and that is why it is 
important that the rest of the population be protected so they 
are not exposed to it.
    There could be four or five children in one classroom in a 
school that haven't been able to be vaccinated because their 
immune system is down a little, not enough to make them 
obviously ill, but down, and anything they are exposed to in 
that room could really, really harm them and as in my son's 
case, kill them.
    Mr. Burton. Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman, I regret that I wasn't 
able to be here to listen to all the oral presentations, but we 
do have written testimony and I thank all the witnesses for 
being here, and I know it is not easy to come before Congress 
and share your personal loss and pain.
    Dr. Van Zandt, how has contracting hepatitis B affected 
your daughter's current health and future health, and will she 
be more susceptible to diseases of the liver?
    Dr. Van Zandt. This is unknown at this time. She did 
respond fairly well to the Interferon shots we gave her. Her 
viral titers, which is how we measure that, are undetectable at 
the present time. The problem is we never know. She fell 
several months ago and split her forehead, like anybody, 
parents have had children that do that, and with blood all over 
the floor, my first thought was hepatitis B. Not will she scar, 
or will we need to clean the rug? It was hepatitis B and who is 
at risk, and who will be at risk for that. If it had happened 
at school, without universal precautions being performed, I 
don't know.
    Mr. Waxman. Some physicians have stated that hepatitis B is 
more a disease of sexual behavior and drug needle use and that 
it is unethical to mandate the vaccine for school children. Do 
you agree with that sentiment?
    Dr. Van Zandt. I think those are two mutually exclusive 
sentences. I believe that it is more likely to be related to 
sexual patterns and IV drug abuse, but to say that it is 
morally unethical to vaccinate against it, I don't get the 
connection on those. Certainly, the higher risk population 
groups of sexual activity and IV drug abuse do have a higher 
incidence of hepatitis B.
    What I am here to tell us is that our kids are out there 
with hepatitis B and they may be completely asymptomatic. You 
don't know it, and they are at risk, or there is a risk of them 
transmitting the disease. Because of that, I feel that the 
vaccinations--it is morally unethical not to vaccinate in that 
sense, to protect the public health.
    Mr. Waxman. As a family physician, what do you tell your 
patients about the risk of possible adverse effects of 
immunizations?
    Dr. Van Zandt. We use the CDC's vaccine information sheet 
to get out to every parent. The tough part about that, as many 
people on this panel will say, is that it has information that 
may or may not be really relevant and comprehensible to what 
can happen.
    We know there are serious adverse reactions, and to counsel 
accordingly is appropriate. But it is also very important to 
counsel the risk of not getting the vaccine and the risk of 
having an infectious disease, and what that can do to your 
life.
    Mr. Waxman. As a scientist, have you heard of any work that 
would show that there may be a connection between immunizations 
and autism?
    Dr. Van Zandt. I am not aware of that, but, again, I am a 
practicing physician, not a research physician.
    Mr. Waxman. I just don't know if there is something in the 
scientific literature. You know, I must say that I hear there 
is an increase in autism. I hear there is an increase in 
dyslexia and learning deficiencies. Maybe in the latter it may 
be more of an ability to discern these problems.
    It is frustrating to think that we may be causing all these 
terrible things happening to our children, and we don't know if 
it is environmental. Just yesterday, the EPA started to deal 
with the problems of pesticide residues in foods that we know 
from the Institute of Medicine adversely affect children more 
than adults. We don't know what other things we are being 
subjected to.
    Whenever many of us try to fight for environmental 
protections, we get all the industry groups coming in and 
saying, oh, it can't be us, we are fine. But you wonder with 
all the information that comes out, in dribs and drabs 
sometimes, what we are going to learn later on, whether it is 
immunization. If it is immunizations, if it is chemicals in our 
food, if it is toxic substances in the air, in the water, we, 
as a society, have got to understand what is happening and try 
to protect people, particularly children.
    Mrs. Cole, many parents are not aware that chicken pox can 
be fatal. How have you been able to educate others about 
chicken pox and the need for vaccines? Have you taken that on 
to talk to folks about?
    Ms. Cole. I worked more or less as a mom through FDA to get 
warning labels put on all cortico-steroids about their dangers, 
potential danger with chicken pox and measles. Chris has been 
gone for 11 years. I worked for 7\1/2\ years through letters 
and phone campaigns to see the vaccine for chicken pox licensed 
by the FDA.
    I went to FDA twice and spoke before two FDA Advisory 
Committees about my experience with chicken pox. I listened to 
what they had to say about the vaccine, and there were many, 
many articles written about Christopher, because chicken pox 
being fatal is something not many people ever hear about. Most 
people think, OK, I can expose my children on purpose and it is 
better for them, but they don't realize that it can be 
dangerous.
    Yes, I have worked for a long time to try to educate the 
public as to the facts. It is not just immuno-suppressed 
children or individuals that can have a problem with chicken 
pox. From what I understand, and this may have changed, about 
half of the people that die each year of the varicella virus 
are not immuno-suppressed, they are healthy, normal people.
    Mr. Burton. Thank you very much.
    Mr. Weldon. I have seen that. I had a 21 year old come in. 
He acquired--actually, he was about 25, acquired it from his 
child who ended up passing away. So it is a mistaken notion 
that chicken pox is a harmless disease. Occasionally, it can be 
fatal.
    I want to thank each and every one of you for coming. I 
guess the question that I would have, and maybe I can start 
with you, Mr. Rollens, what do you think we should be doing? I 
have a constituent in my congressional district who believes 
that his son became autistic in response to the MMR. You 
provided testimony that you thought in your particular 
situation it could have been the DPT and the MMR might have 
made it worse.
    We have testimony from the people sitting next to you about 
the devastating effects of the lack of immunization for some of 
these diseases. There are epidemiologists who have come into my 
office and explained to me the tremendous impact that it could 
have on our population if there was a large scale rejection of 
these immunizations on the part of parents, if we were to have 
outbreaks of these clearly preventable diseases.
    I would be very interested to hear comments from the other 
panelists. What do you recommend we do as policymakers? You 
know, we are here to pose the tough questions and get the 
answers. But then after all the talking is done, where do we go 
from here? Your thoughts?
    Mr. Rollens. Yes, sir. The first thing that needs to be 
done is to stop politicizing this issue. There isn't anyone 
sitting in this room who is in favor of infectious diseases, 
and everyone is in favor of eradicating infectious diseases. So 
I think it is an issue that, unfortunately, those sometimes on 
both sides tend to politicize to make either pro-vaccine or 
anti-vaccine. I don't think that is the case at all.
    I know the parents that I deal with in the world of autism 
around the country and around the world, all are conscientious 
parents who want the very best for their children. They don't 
want their children to pass away from any infectious disease. 
They want to provide the very best they can for their kids.
    What we are asking, and what I am asking particularly from 
you is that before we deal with bringing new vaccines onto the 
market, and before we decide to mix such potent chemicals and 
potent viral and bacterial agents together, that independent 
safety studies be done about their effects.
    And when I say independent, I mean devoid of the public 
health community's involvement. It is a conflict of interest to 
have the CDC, the NIH or anyone else who is involved with the 
promotion of vaccines to be telling us if they are safe or not. 
Like I said before, it is like asking the oil industry to come 
in and tell you that there is no relationship between smoking 
and lung cancer. It is ludicrous to have these people who are 
in charge of promoting this policy to be telling you if they 
are safe or not.
    We have able immunologists, virologists, and neurologists 
around this country and around this world who are very able to 
look at the science of the interactions and the effects that 
these vaccines have on a certain percentage of the population.
    I would also say that when I keep hearing that it is a rare 
chance occurrence, or this is a rare effect, I am telling you, 
as honestly as I can, that I have witnessed in the last 6 years 
alone, since my son was diagnosed, an explosion of autism, and 
parents are reporting objective reports, nothing besides the 
parent's observation of what happened to their children, of 
this strong temporal relationship between the vaccinations that 
they received, primarily the DPT, hepatitis B, and MMR, to the 
onset of their child's autism. The numbers are there. The 
California Department of Developmental Services has reported 
two reports within the last year on this epidemic of autism in 
California.
    I challenge you again, when you go home next week to your 
districts, walk the neighborhoods, talk to the parents, they 
will tell you what is going on.
    Mr. Burton. Thank you. Mr. Rollens, I don't want to belabor 
this point, but you quoted some statistics from California. I 
have just instructed Beth here to contact the Departments of 
Health in California to get that statistical data.
    Mr. Rollens. Yes, sir.
    Mr. Burton. But we got an e-mail last night from a doctor 
in Louisiana who said that she has had reported to her over 600 
vaccine-related autism cases. So that is Louisiana, it is not 
California. Have you talked to anybody in other States? I know 
that you are very involved in this, and I am very interested in 
it, too, because of the personal problem we have in our family. 
Have you talked to people in other States to see how pervasive 
it is?
    Mr. Rollens. Yes, I have, and I can speak in volumes to 
what is happening in California, because I have been very 
involved in that.
    Mr. Burton. Well, tell me about other States that you are 
conversant with.
    Mr. Rollens. Well, this is anecdotal. Once again, there has 
not been the kind of comprehensive study that was compiled in 
California in any of the other States. But the U.S. Department 
of Education has reported increases in every State in reported 
cases of autism.
    What makes the California situation interesting and very 
significant is that in California we have something called the 
Lanterman Act, and I am sure Mr. Waxman remembers, in the 
California legislature, passed in 1969, which is essentially a 
program that entitles people who are diagnosed with autism, 
cerebral palsy, mental retardation, and epilepsy to services 
from the State. In order to qualify for those services, you 
have to have a diagnosis by the regional centers of our State 
in order to receive those services.
    The report that California came out with last year shows 
that in the cases of what is known as DSM4-autism, this is full 
blown autism, not pervasive developmental disorder, or any 
other autism spectrum disorder, that there was an unexpected 
huge increase in the numbers of cases coming to the regional 
centers.
    Now, one would say, well, this is an entitlement program, 
so people are coming for services. That is true. But they don't 
get those services unless they are diagnosed by a licensed 
psychologist or a professional person who uses the DSM4 for the 
criteria to diagnose for autism.
    The other issue is that in California we have almost 16,000 
children in the Early Start program, this is a program for 
children ages zero to 3 with developmental delay and language 
delay, but have yet to receive a diagnosis. When you see 
development delay and language delay, many people, including 
myself, feel, and I am sure time will show this, that a number 
of those children will also be added to the ranks.
    The other concern that we have, of course, in California is 
that in the last 6 months, from January until July of this 
year, we have added 1,027 new children to our system. On 
average, six new kids a day, one new child every 4 hours. As 
you can see from my chart over there, that baseline of 200 new 
children stayed very steady all the way until the late 1970's, 
and there was a massive increase that occurred, it broke the 
200 new cases a year, and has continued to go up, till today we 
are adding people at a rate of one child every 4 hours.
    Mr. Burton. Let me ask one more question. There is the 
chart he is talking about Henry. I don't think you saw that 
earlier. The other thing I would like to ask, and we have some 
people from the health agencies here, you implied that there 
might be a vested interest in them not giving information to 
the Congress and to the country regarding various vaccines. 
That is a pretty serious allegation. You said we ought to have 
independent studies from outside. What makes you say that?
    Mr. Rollens. Well, first of all,----
    Mr. Burton. I mean do you think they are being influenced 
by pharmaceutical companies or what is it?
    Mr. Rollens. The lack of responsiveness to the call that we 
have made for years now about this growing problem between the 
relationship between our children being damaged by vaccines and 
becoming autistic, and no response, or being literally blown 
off, that it is a rare chance occurrence that your child has 
become autistic right around the same time as the vaccine, with 
absolutely no safety studies to back it up.
    I want to see from Dr. Satcher and others where the CDC's 
safety studies are that tell me as a parent, and as a taxpayer, 
and as a good person, a father who loves his child, that these 
vaccines will not cause autism or that my child, most 
importantly, did not become autistic because of the vaccines 
that he received.
    Mr. Burton. When they come up with a new drug at CDC and 
FDA, I have talked to them, they say they have to do a double 
blind study and sometimes more than one before they will attest 
to the veracity of the particular product. Since they are 
vaccinating everybody in the country, how do you propose they 
do a double blind study?
    Mr. Rollens. Well, sir, I am not a scientist.
    Mr. Burton. No, I am just curious, from your perspective.
    Mr. Rollens. Yes. I feel that when someone asked me to turn 
over the most precious thing in my life to them and trust them 
that my child would be out of harm's way, that the people that 
are doing the medical procedure, it is their responsibility. It 
is not my responsibility as a parent to ensure that every 
vaccine that I give my child, when I have been told that they 
are safe by the pediatrician, I have been told by society that 
there is no such thing, essentially, as an adverse effect.
    You know, we are all sitting here with this issue on our 
minds, but how many parents out there really understand what 
can possibly happen from the documented research that has been 
done, and documented cases of adverse vaccine reactions?
    Mr. Burton. Thank you very much.
    Mr. and Mrs. Nelson, you have come out here and I know you. 
Let me just ask you, when your child passed away, as I 
understand it from my daughter, when she talked to you, you 
called the doctor a number of times telling them of various 
symptoms, the temperature dropping, wrap her in blankets they 
said, and so on and so forth, and then, of course, the child, 
you took her to the hospital and she didn't make it. Can you 
really quickly tell us what happened, what the initial decision 
was that was made or what initial analysis was that was made of 
the death of the child, and what they told you?
    Ms. Nelson. In the beginning they told us it would take 2 
weeks to get the cause of death back. It was approximately 2 
months later we heard from the coroner's office, Dr. Thomas 
Gill, who told us our daughter died of hepatitis B due to the 
vaccine. Sixteen weeks later we received the death certificate 
in the mail stating that she died of natural causes, SIDS. I 
called to find out how they determined that.
    Mr. Burton. Who told you that she died of SIDS?
    Ms. Nelson. Dr. Karl Manders, the coroner of Marion County.
    Mr. Burton. The coroner of Marion County, Dr. Manders. OK.
    Ms. Nelson. He stated that he had read over the autopsy 
documentation and that he signed the death certificate due to 
the fact that Dr. Gill was asked to resign. They filed the 
autopsy report the day after the autopsy. They did not wait for 
the toxicology report to come in, which came in 2 months later.
    I asked him why he did not go back and check that over. He 
told me it was already signed. Then recently I have contacted 
the coroner's office. They refuse to give me her records. They 
refuse to give me any notes of Dr. Gill's, and they continue to 
tell me it was SIDS.
    Mr. Burton. I want those subpoenaed. We will subpoena those 
records. We will get those records. We will look into that.
    Ms. Nelson. And they refused to tell me Dr. Gill's 
location, where he was or anything like that.
    Mr. Burton. All right.
    We talked to the coroner's office and they said it was 
hepatitis. So, evidently the records do reflect that. So we 
will check into it.
    Ms. Nelson. OK.
    Mr. Burton. Do you have any more questions Mr. Waxman?
    Mr. Waxman. Yes, Mr. Chairman.
    Mr. Rollens, you said that you entrusted the care of your 
child. People told you there were no such things as adverse 
reactions, and I think it is a mistake when people are told 
that there is no risk. As we know, there is some risk.
    I know it is frustrating because so many of these people 
that you are looking at don't see it the way you see it. They 
don't see the connection. You may be right, they may be wrong.
    Mr. Rollens. I hope I am wrong, sir.
    Mr. Waxman. But they are people who are scientists, and 
they are not making any money out of having vaccines out there, 
and they are certainly not doing a service to anyone if they 
are not monitoring whether these vaccines are safe. I just want 
to point out there is an Advisory Commission on Childhood 
Vaccines and its membership is made up of public 
representatives as well, and I hope maybe we can look at that 
commission with you and it would give a sense of comfort that 
it is not just people who are professionals at the CDC.
    But I have to say that I have always had the highest regard 
for the people at the CDC, and I think they are trying to do 
the best job they can, and I don't think they have any ulterior 
motives.
    Mr. Chairman, I know there are people here from the NIH and 
maybe they could tell us, although it is probably unfair to ask 
anybody to come up and talk about what research is going on in 
the area of autism. But if we don't have a response now, I 
would like to hold the record open, ask you if you could hold 
the record open. I want to know what our Government is doing in 
terms of autism research.
    Mr. Weldon. Would the gentleman yield?
    Mr. Waxman. I find what you have said, Mr. Rollens, and 
others, very, very sobering and of great concern.
    Yes, I yield.
    Mr. Weldon. I had CDC and NIH in my office on this issue, 
and there is really quite a bit of research going on. I have 
already asked them to provide that for the record.
    Mr. Waxman. Good.
    Mr. Weldon. I will share with you, though, that I think 
they need to do more, but, in that regard, they will need 
funding to cover it. I think that I would like to see that 
ultimately be one of the recommendations that comes out of 
these hearings is that the Congress of the United States takes 
initiative and funds more studies on this issue, particularly 
because I think it is going to be very important to restore 
public confidence in the system.
    Mr. Waxman. Well, I certainly agree with you that we have 
got to spend more money on this research and try to find out 
what is causing autism and to try to see if we can find a way 
to prevent it or cure or control it because it is a very 
painful situation for everybody involved.
    I don't want to say that because we don't have the answer 
to what causes autism that there is a lack of confidence in the 
system because science doesn't always give us the answer we 
want right away. We have got to make a commitment to invest in 
scientific research so that we can find some answers that can 
be replicated, can be validated and believed in because it has 
been scientifically established, not believed in because people 
want to believe in something, because that is not going to lead 
us to where we want to go.
    So I want to join you in saying that perhaps one of the 
good results of this hearing might be a commitment that all of 
us will share to increase the research in this particular area.
    I have no other questions and I thank all the witnesses. 
Thank you, Mr. Chairman.
    Mr. Burton. Thank you. I want to thank this panel very, 
very much, and I think, regardless of what your position is on 
vaccinations, we all share the heartache that you have gone 
through. I really feel empathy and sympathy for all of you. 
Thank you very much for being here.
    The next panel is Dr. Kennedy, Dr. Kinsbourne, and Dr. 
Katz, and I would like for them to come forward at this time, 
and I apologize to you folks for this panel being so late.
    One thing while they are coming up, I would like to say to 
our friends before you leave from the health agencies, I hope 
that somebody, if you haven't done this research, if they could 
look into whether or not all of these vaccinations coming in 
such a short period of time might cause overload on the immune 
systems of these children. Maybe the vaccinations, if given 
over a longer period of time might be less hurtful to the 
children, and maybe you can give me some information on that.
    We heard from the people who just testified that some of 
them experienced 30 vaccinations by the time their child was 3 
or 4 years old. We understand there are 21 different 
vaccinations they have to get from the time they are born to 
the time they get into school in many States. I know when we 
had the old electric system, if you put too much electricity on 
one fuse, you would blow the fuse, and I know that is an 
oversimplification of the problem, but it seems to me that 
might be one of the causal effects of too many vaccines in too 
short a period of time.
    Would you gentlemen please stand?
    [Witnesses sworn.]

   STATEMENTS OF RONALD C. KENNEDY, PROFESSOR, DEPARTMENT OF 
  MICROBIOLOGY AND IMMUNOLOGY, UNIVERSITY OF OKLAHOMA HEALTH 
SCIENCES CENTER; SAMUEL L. KATZ, PROFESSOR EMERITUS, DEPARTMENT 
   OF PEDIATRICS, DUKE UNIVERSITY MEDICAL CENTER; AND MARCEL 
               KINSBOURNE, PEDIATRIC NEUROLOGIST

    Mr. Burton. We will start with you, Dr. Kennedy.
    I apologize for it being so late in the day.
    Dr. Kennedy. It's OK. I apologize for putting on these 
glasses and not being able to see any of the members of the 
committee anymore.
    Mr. Burton. They will all be informed of your testimony. 
There are a lot of people paying attention across the country. 
Thank you.
    Dr. Kennedy. I would like to take this opportunity to thank 
you for the invitation to speak to this committee regarding 
issues related to vaccines, public safety, and personal choice. 
My name is Ronald Kennedy, and I am a professor of microbiology 
and immunology and obstetrics and gynecology at the University 
of Oklahoma Health Sciences Center. I am a research scientist 
and teach medical and graduate students.
    My education has taken me from Connecticut, where I was 
born, to New Jersey, to Hawaii, where I received my master's 
and doctoral degrees, Houston and San Antonio, TX, and finally 
Oklahoma City.
    My training is in microbiology and immunology and I have 
been working in the area of vaccinology since 1981, when I 
first started working on the immune response to hepatitis B 
surface antigen, the component of the hepatitis B vaccine.
    Since that time I have performed basic and applied research 
as it relates to a variety of viral, bacterial and cancer 
vaccination strategies. Included in these efforts were studies 
to develop and/or improved vaccines to hepatitis B virus, the 
human immunodeficiency virus, HIV, hepatitis C virus, and 
simian virus 40, among others a virus that been recently 
associated with cancer in humans.
    Because of my expertise in animal models for infectious 
diseases, particularly non-human primate models, I've also 
performed a number of collaborative studies with investigators 
on vaccines for haemophilus influenza type B, group A and group 
B streptococcus and meningococcus, among others.
    As a number of these infectious diseases cause diseases in 
newborns and infants, I have become aware of the difference 
between how newborns respond to vaccination when compared to an 
adult.
    I consider myself pro-vaccine. However, growing up in the 
field of vaccinology as I have, I am aware of a number of 
issues and considerations that should be brought forth when it 
comes to vaccines, public safety, and personal choice.
    I would like to briefly mention three issues as it relates 
to the subject of this hearing.
    The first is a lack of a mechanism to study the basis for 
adverse reactions to vaccines.
    The second is, how can we improve vaccine safety, 
particularly when immunizing infants?
    The final issue is that certain vaccines are just not 
appropriate and have not been tested well enough to mandate 
mass vaccination of infants, and this deals with informed 
consent and the parents' right to personal choice.
    Regarding the lack of a mechanism to study the basis for 
adverse reactions to vaccines, I along with several colleagues 
have submitted grant applications to the National Institutes of 
Health to study the basis and mechanism of adverse reactions 
seen as a result of the hepatitis B vaccine. We made three 
attempts.
    In each attempt the grant application was not considered 
for funding. The reasons of the peer review panel were the 
application was descriptive and a fishing expedition. We had 
compelling evidence but no direct cause and effect, and limited 
preliminary data.
    As someone who has been funded continuously from the 
National Institutes of Health since 1984 and who has served on 
grant review panels for the National Institutes of Health since 
1987, I was aware that such comments were a kiss of death. More 
importantly, I did not disagree with the panel's perception of 
the grant application. However, it was the nature of the 
subject matter. Since everyone has a perception that vaccines 
are completely safe, why would they want to study adverse 
reactions?
    If the National Institutes for Health or Centers for 
Disease Control and Prevention will not support research by 
investigators outside their institutions into the basic 
mechanisms of adverse reactions of vaccines that are presently 
being used to immunize infants, perhaps the pharmaceutical 
companies who make the vaccines would fund such work by outside 
investigators. Honestly, I do not think that the vaccine 
manufacturers would be interested in supporting efforts that 
might show that their product is harmful.
    I would urge you to provide research funds that are 
currently unavailable to study serious adverse reactions to 
vaccination such as those seen with hepatitis B.
    My second issue is how can we make vaccines safer, 
particularly in infants? In my opinion, this requires more 
substantial testing, a requirement that each lot of vaccine be 
tested in non-human primate models for safety and comparative 
potency. Many of the present vaccine products have bypassed 
non-human primate studies and gone directly from rodent studies 
into human clinical trials. This was based on cost and 
comparability issues.
    Additionally, other vaccines have shown problems in non-
human primate models, and these were ignored and the product 
went into human clinical trials anyway.
    It is important to test vaccines in immunologically similar 
animals and in an outbred population like us, particularly when 
addressing issues like long-term safety and comparable potency 
of a given vaccine lot.
    My final issue relates to whether certain vaccines are 
appropriate for infant immunization and whether parents should 
be informed about the risk versus benefit of vaccination. More 
importantly, the physician who administers that vaccine is 
probably not aware there are any risks.
    Two specific vaccines come to mind, hepatitis A and 
hepatitis B. I will not go into a long-winded scientific 
process and simply state that the chance of an infant or child 
getting either hepatitis A or hepatitis B is close to none or 
nonexistent. When the potential for exposure does exist, those 
risk factors are easily identified. Even more disturbing is 
that hepatitis A causes a self-limiting infection and does not 
cause chronic disease. It is my opinion that parents should be 
made aware of the risks and benefits of each vaccine where the 
chance for infection during infancy is minimal to nonexistent.
    Certain vaccines, such as the enhanced and inactivated 
polio, diphtheria, tetanus, acellular pertussis, and the 
haemophilus influenza type B conjugate vaccines have 
significantly reduced infant mortality and morbidity and should 
be considered for infant immunization. However, other vaccines 
such as hepatitis B may be more effective when given at a later 
age rather than at birth. Informed consent for vaccines such as 
hepatitis A and hepatitis B should be considered and parents 
allowed to choose based on their perceived risk to benefit from 
vaccinating their infant.
    To further illustrate my points, I would like to discuss 
adverse reactions and the need to support funding activities. 
The example I am going to pick is the whole cell pertussis 
vaccine.
    This vaccine started for universal immunization of infants 
in developing nations in the 1940's. The whole cell pertussis 
vaccine causes frequent systemic symptoms such as irritability, 
lethargy, loss of appetite, and fever in 72 hours following 
immunization in up to 50 percent of subjects. More severe 
reactions include prolonged inconsolable crying, high pitched 
fever, screaming, fever above 104.9 degrees Fahrenheit, febrile 
and afebrile seizures, and shock-like states that can last up 
to 36 hours. In comparable trials, these adverse effects were 
more common in DTP recipients than in DT vaccinees. This 
suggested that the pertussis vaccine caused these reactions.
    The public believes that the whole cell pertussis vaccine 
causes brain swelling and permanent neurologic damage and is 
widespread. However, scientific epidemiologic data to support a 
casual relationship are said to be inadequate, and this is 
simply not true.
    Why is this the perception? First, there is no support for 
basic research into adverse reactions. The data on the casual 
relationship and inadequate nature to show a cause and effect, 
a lot of the data comes from the vaccine manufacturers. New and 
improved vaccines should decrease the adverse reactions, and 
the acellular vaccine is certainly associated with the lower 
incidence of these reactions.
    Will we ever understand the mechanism of how the whole cell 
vaccine produced these side effects, and is there any 
association with neurologic problems? This is unlikely, because 
this has been going on for 50 years, and what research really 
has been done? My question is, why then is the whole cell 
vaccine still being used?
    Regarding the area of informed consent, I would like to 
quote from Chapter 17 in a textbook entitled Pediatric 
Infectious Disease, Principle and Practices. The editors are 
two pediatric infectious disease specialists. The textbook was 
published in 1995 and it is one that I use to teach medical 
students. In the area of informed consent, I am quoting 
directly from the book.

    Vaccines should be administered only after consent has been 
obtained from the parent, guardian, or in some cases the 
vaccine recipient. In the United States informed consent should 
be in writing and include an explanation of the disease to be 
prevented, the benefits and risks of immunization and the side 
effects that parents should look for following immunization.

    Relative to requirements, again I am quoting from this 
chapter.

    Every time a public or private health care provider in the 
United States administers a particular vaccine, it is required 
to provide a legal representative of a child or any other adult 
or individual receiving a vaccine a copy of the vaccine 
informed statement prepared by the CDC. In addition, the names 
of the patient and parent, the date, site of immunization, 
dose, manufacturing vaccine lot number, name of person who 
administers the vaccine, and the place where the vaccine is 
administered should be recorded. This information is absolutely 
important if an adverse reaction occurs following immunization.

    I think this is part of the problem with the adverse 
vaccine effects reporting system. Health care providers are not 
required to obtain the signature of the patient, parent or 
child's legal representative to acknowledge receipt of the 
vaccine information statement. This is an absolute must.
    I want to thank you for the opportunity to appear before 
this distinguished committee. I would be happy to answer your 
questions at the end of the testimony.
    Mr. Burton. Thank you, Dr. Kennedy. I will have some 
questions in just a minute.
    Dr. Katz.
    [The prepared statement of Dr. Kennedy follows:]

    [GRAPHIC] [TIFF OMITTED] T2560.190
    
    [GRAPHIC] [TIFF OMITTED] T2560.191
    
    [GRAPHIC] [TIFF OMITTED] T2560.192
    
    Dr. Katz. Good evening, Mr. Chairman. I am Dr. Samuel L. 
Katz, a pediatrician involved in immunization research, 
development, patient care, teaching, and policy for over 40 
years. I have served and continue to serve on a number of 
national and international committees that study, review, and 
formulate vaccine research and immunization recommendations.
    Also, I am a father and grandfather whose eight 
grandchildren have all received their recommended childhood 
immunizations. The deliberations and recommendations that come 
from committees such as this will eventually affect every child 
and grandchild in the United States, including my own.
    Today I am here representing the American Academy of 
Pediatrics [AAP], or Academy, and the Infectious Disease 
Society of America [IDSA].
    I want to emphasize and restate three points.
    First, our vaccines are highly effective and safe, but the 
diseases they prevent are still spreading through many other 
parts of the world.
    Second, the system of research and development, of clinical 
testing, of licensing, of recommendation and monitoring of 
vaccine use, that system is in place and working well.
    Third, there is a need to continue the education of parents 
and clinicians about diseases they no longer see because these 
serious diseases have been prevented so effectively by our 
immunization policies, but they are only a jet plane ride away 
from our shores.
    Immunization is the single intervention that has most 
dramatically reduced childhood morbidity and mortality in the 
United States. Immunizations have reduced by almost 99 percent 
the vaccine-preventable infectious diseases in this country, 
although once again the causative germs continue to circulate 
widely elsewhere.
    Most young parents cannot appreciate, fortunately, as I do, 
the horror of polio with iron lungs and crutches; measles with 
encephalitis; meningitis due to haemophilus influenza B, with 
death or with crippling or with mental retardation; the 
deafness, blindness and brain injury that you heard about from 
Ms. Zitzmann, caused by congenital rubella; tetanus of newborn 
infants with overwhelming mortality; and a number of the other 
infectious diseases that we fortunately do not see.
    It is true that despite all that vaccines have done to 
improve the health of individuals and communities in the United 
States and throughout the world, they are not perfect. However, 
one simple fact cannot reasonably be disputed--the benefits of 
immunizations far outweigh any possible risks.
    Dr. Satcher pointed out a number of features which I won't 
reemphasize, but how susceptible unimmunized individuals in a 
community threaten not just their own well-being, but that of 
their contacts, whether they are in day care, in school, in 
various settings where people crowd and gather.
    I would just like to remind you of a few anecdotal events. 
Where were the last big measles outbreaks in older youngsters 
in this country? In a school for Christian Science college 
students where there were deaths due to measles because they 
don't follow immunization. I respect their religious point of 
view. I only use it as an example.
    The last epidemics of polio in this country, where were 
they? In a boys school in Greenwich, CT, for a religious group 
who do not practice immunization; among an Amish population in 
Pennsylvania and several other States because they do not 
practice immunization.
    These are only examples, and there could be many quoted to 
you. You heard about diphtheria. We've only had one case of 
diphtheria in this country in the last year. There were over 
100,000 in the countries of the former Soviet Union within the 
last several years. The bacillus of diphtheria hasn't 
disappeared; we've just protected our population well.
    You heard about haemophilus influenza B disease. Over 
20,000 cases a year in children under the age of 5, causing 
meningitis, pneumonia with empyema or other invasive disease. 
Do you know how many cases there were last year in just the 10-
years since we've had that vaccine? 125 cases in contrast to 
20,000. Our results are striking and remarkable.
    You heard about deaths from varicella. There have been an 
increasing number of deaths from varicella among children who 
are not immunized because of the interaction of what you have 
read about in the newspapers of the ``flesh eating'' 
streptococci, the group-A streptococci which superinfect 
youngsters with varicella and can cause death.
    The fact that States have inaugurated requirements for 
school entry are based on trying to prevent these episodes 
occurring within their own venues. A recent article, which 
again I believe Dr. Satcher quoted, in the Journal of the 
American Medical Association pointed out the 35-fold greater 
risk of contracting measles among unimmunized individuals as 
compared to those who had been immunized, and that paper also 
demonstrated that the disease that occurs more commonly in 
these exemptors has the ability to initiate and propagate an 
epidemic in the community at large.
    Should we allow our community immunity to wane, we will 
negate all the progress we have made and allow our communities 
to be at risk from threats that are easily prevented.
    Immunization has a clear community benefit in addition to 
its benefit to the individual patient. An individual's freedom 
to ignore a stop sign while driving, to pollute the 
environment, to drive with his child without a car seat or a 
seat belt, or to spread disease do not serve the public good 
ultimately. We do place certain restraints on individual 
freedom because of our belief in the greater social well-being 
and the community well-being of certain responsibilities.
    Ongoing vaccine safety efforts and continuous monitoring of 
adverse events, be they alleged, potential, or real, are 
crucial to our Nation's childhood immunization program. As 
science and resources allow, we are obligated to continue to 
improve the effectiveness of these safety monitoring measures.
    The Academy and the IDSA have seen allegations that a 
variety of illnesses may be caused by various vaccines. It's 
easy to understand how a family with a tragedy can believe that 
a vaccine caused the sudden unexpected death of a child or the 
appearance of autism or another illness of unknown cause.
    We give these vaccines in the first 2 years of life when 
all of these disorders have their common onset, so that guilt 
by temporal association is very difficult to separate from 
guilt by causality. The available scientific data have shown, 
for example, that with increasing use of hepatitis B vaccine 
there has been a marked diminution in Sudden Infant Death 
Syndrome [SIDS] in this country. I don't think the two are 
related. Don't misunderstand me. Why are we seeing less SIDS? 
Because we are placing babies on their backs instead of their 
stomach. The same thing has been observed in the United 
Kingdom, a remarkable reduction in SIDS, but having nothing to 
do with more or fewer vaccines.
    A robust system of checks and balances exists to monitor 
the safety and effectiveness of our vaccines, a system that we 
strive continuously to perfect. These efforts are designed to 
ensure that our recommendations about immunization and 
procedures reflect the best available science. There can be no 
doubt the public and private sectors and academia continue to 
be alert and responsive to vaccine safety needs.
    The identification of potential safety issues, rapid 
review, and broad dissemination of interim guidelines 
demonstrate that we have an early warning system in place, that 
has the ability to detect and rapidly respond to new 
information. We must pay attention to this system to assure 
that it performs to the best of its ability. When any concern 
about vaccine safety arises, we have the capacity to evaluate 
the issue scientifically, to act both rapidly and prudently in 
the interest of what is best for our children, which is our 
overriding concern.
    The role of parents as well as physicians in vaccine safety 
is paramount. Physicians must regularly update their knowledge 
about specific vaccines and their use. Information about the 
safety and efficacy of vaccines and recommendations relative to 
their administration continue to develop even after a vaccine 
is licensed.
    As pediatricians we know that families are more likely to 
have their child immunized if they understand the risks and the 
benefits of immunizations and the consequence of the diseases 
they prevent. To ensure that parents and other caregivers take 
advantage of the benefit of immunizations, particularly for 
preschool children, the AAP and the IDSA recommend public 
education efforts on the importance of immunization, and that 
these continue. The Academy provides a variety of easily read 
patient educational materials for parents, for guardians, for 
physicians, for nurses, for whomever is involved in the 
setting.
    Mr. Chairman, I greatly appreciate this opportunity to 
present this statement and will be pleased to answer any 
questions that you and your colleagues may have.
    Thank you.
    Mr. Burton. Thank you, Dr. Katz.
    Dr. Kinsbourne.
    [The prepared statement of Dr. Katz follows:]

    [GRAPHIC] [TIFF OMITTED] T2560.193
    
    [GRAPHIC] [TIFF OMITTED] T2560.194
    
    [GRAPHIC] [TIFF OMITTED] T2560.195
    
    [GRAPHIC] [TIFF OMITTED] T2560.196
    
    [GRAPHIC] [TIFF OMITTED] T2560.197
    
    [GRAPHIC] [TIFF OMITTED] T2560.198
    
    [GRAPHIC] [TIFF OMITTED] T2560.199
    
    [GRAPHIC] [TIFF OMITTED] T2560.200
    
    [GRAPHIC] [TIFF OMITTED] T2560.201
    
    [GRAPHIC] [TIFF OMITTED] T2560.202
    
    [GRAPHIC] [TIFF OMITTED] T2560.203
    
    [GRAPHIC] [TIFF OMITTED] T2560.204
    
    [GRAPHIC] [TIFF OMITTED] T2560.205
    
    [GRAPHIC] [TIFF OMITTED] T2560.206
    
    [GRAPHIC] [TIFF OMITTED] T2560.207
    
    [GRAPHIC] [TIFF OMITTED] T2560.208
    
    [GRAPHIC] [TIFF OMITTED] T2560.209
    
    Dr. Kinsbourne. Thank you, Mr. Chairman. I am Marcel 
Kinsbourne. I am a neurologist with a special interest in 
children, and particularly in learning disability, attention 
deficit, and in developmental disability such as autism.
    I have not had the good fortune of Dr. Katz to have any 
grandchildren, but all four of my children have been 
vaccinated. One is healthily present with us in this room 
today.
    I would like to talk to you briefly about serious adverse 
effects of vaccination. Many are known. In some cases we don't 
know quite whether there are any, and some we have not yet 
identified.
    Briefly, there are three types of vaccines that may cause 
three types of adverse reactions.
    There are those that cause toxic or poisonous reactions. 
The whole cell pertussis vaccine is the best example of that. 
That poison may attack a child's brain within hours or a few 
days of the vaccination. That one issue has been subjected to 
adequate epidemiological study, unlike almost all the other 
issues that I will be mentioning.
    A second way of being damaged by vaccine is when the 
vaccine is a live virus, attenuated virus particles made 
harmless, except not always so harmless, and occasionally the 
infection that is protected against in fact happens. Polio is 
an example of that.
    Both bacterial and virus vaccines are apt in susceptible 
people to generate autoimmune disorders. These are disorders 
where the immune system of the person defends not only against 
the vaccine itself, but also, as it were, mistakenly against 
some crucial component of the person's own body, say the 
nervous system, causing damage which can be severe.
    Incidentally, if there is a relation between the MMR 
vaccine and autism, this may be a mechanism for it to happen, 
and I totally agree with Mr. Rollens. There has been no 
approachingly adequate study of this possibility in this 
country to my knowledge, and I am unaware of any going on now.
    It is easy to say do studies; studies are not easy, not at 
all straightforward. I would like to mention some reasons why 
that is.
    One reason is that every disorder that a vaccine can cause 
other causes can also cause. So one has to distinguish the 
vaccine causation from coincidence. To do that, one has to 
study epidemio-logically. These studies are expensive; they 
take a long time. Many have not been done. A report of the 
Institute of Medicine has stressed how often they could not 
draw conclusions about whether a particular alleged side effect 
was due to vaccine or not because the epidemiology has not yet 
been done.
    The second point I would like to stress is that indeed some 
of these are rare complications. To study those, you have to 
have large populations. Most studies that have been done don't 
have adequately sized populations to investigate one way or the 
other whether a rare complication was due to the vaccine or 
not. That needs to be done.
    The third point is that not all vaccine reactions happen 
immediately, as in pertussis. In the case of viruses and 
autoimmune disorders they may take weeks; they may take months 
to emerge. And most safety studies don't last for weeks and 
months. What we are left with is passive monitoring which has 
major weaknesses, which had been alluded to and which we could 
discuss further.
    Yet another problem is that you may have an acute reaction 
to a vaccine which, however, appears to get better, and the 
child appears to become normal again. Yet months or years or 
several years later the child shows cerebral palsy, a learning 
disability, attention deficit, autism, and the studies have not 
yet been done to determine whether these were late consequences 
of those early vaccine reactions or not, and they should be 
done.
    Finally, in my list, and that has been mentioned already 
by, I think, Dr. Kennedy, vaccine safety tends to be 
established for individual vaccines, but they are nowadays 
increasingly often given in combination. That's a new 
administration, needs new safety studies all on their own, 
because there is no guarantee that the combined vaccine will 
only show the adverse effects that each individual constituent 
shows.
    It's my opinion that if studies of the kind I've indicated 
were done and known to be done and perceived to have been done 
that this difficulty of balancing the public health against 
personal choice would be much mitigated.
    I would like to briefly add to a point Dr. Kennedy made 
about informed consent. It is very difficult in a busy 
pediatric practice for the patient to get access to the doctor 
or the nurse, to ask proper questions, read the materials, 
understand them. I would suggest that the information be given 
to the families well ahead, maybe even when the baby is 
discharged from the hospital at birth, so they have time to 
study the materials and ask their questions before they bring 
the children to the vaccination.
    A brief point, sir, has to do with the compensation 
program. As you very well know, the Congress meant this program 
to be expeditious, to be generous, and to be non-adversarial. I 
have extensive experience as a witness in these programs, and I 
find them not to be any of those things. I have to say that the 
special masters who are in charge of adjudicating these matters 
are, in my opinion, highly competent, compassionate, and 
courteous.
    Nonetheless, it is a lucky person who actually gets their 
case resolved in 2 years, as was mentioned before. I have many 
cases in my files that have been around for many more years 
than that, and to my mind the proceedings are nowadays much 
more like civil litigation in their rigor than they are in any 
sense not nonadversarial.
    It has also been mentioned that in 1995 there was a change 
in the regulations relative to the most important, often 
complained of, vaccine, the pertussis vaccine, making 
compensation for alleged injury by that vaccine virtually 
impossible to secure. I think that deserves reviewing.
    A final point, sir, is I heard mention of what is called a 
surplus in the moneys available to compensate victims. I am 
perplexed at this, because I know that there are many children 
whose cases are still being adjudicated and many more whose 
petitions have not yet been filed. They will be filed. And I 
don't know how anybody could tell that the available moneys are 
too great relative to the needs of those children.
    Thank you very much.
    [The prepared statement of Dr. Kinsbourne follows:]

    [GRAPHIC] [TIFF OMITTED] T2560.210
    
    [GRAPHIC] [TIFF OMITTED] T2560.211
    
    [GRAPHIC] [TIFF OMITTED] T2560.212
    
    [GRAPHIC] [TIFF OMITTED] T2560.213
    
    Mr. Burton. Thank you, Dr. Kinsbourne.
    Dr. Kennedy, you said you submitted an application to NIH 
for a research grant on the hepatitis B vaccine; is that 
correct?
    Dr. Kennedy. Yes. Myself and a number of other colleagues.
    Mr. Burton. You have had grants before? You have done 
research before?
    Dr. Kennedy. Yes, since 1984. In fact I had the early 
grants on looking at the immune response to the plasma-derived 
hepatitis B surface antigen.
    Mr. Burton. Did they give any reason why they turned your 
grant request down?
    Dr. Kennedy. Yes. Essentially that it was--the term 
``fishing expedition'' means that you have a big juicy worm and 
you are throwing it out there and hoping that someone will bite 
on it.
    Mr. Burton. Do you still have a copy of that grant 
application?
    Dr. Kennedy. Yes. I can provide that.
    Mr. Burton. Can you give me a copy of it?
    Dr. Kennedy. Certainly can.
    Mr. Burton. I would like to have a copy as soon as 
possible.
    Dr. Kennedy. We did two additional revisions on the grant 
through the process.
    Mr. Burton. I want to take a close look at it, if I could.
    Dr. Kennedy. OK.
    Mr. Burton. Maybe we will have a hearing on that grant 
application itself and haul the people in here.
    Dr. Kennedy. I would rather you not. The process of NIH 
does work, but I think the problem is the understanding of----
    Mr. Burton. Wait just a minute. You say the process does 
work. How long ago did you submit this grant application?
    Dr. Kennedy. 1997. And how we are supporting our present 
efforts to address these issues relative to adverse reactions 
are kind of through private funds.
    Mr. Burton. I don't mean to interrupt you, but my 
granddaughter almost died. While your grant application sits 
there, how many other adverse reactions have occurred like that 
and how many other parents may have lost their child like the 
lady that was sitting over there? I think something as 
important as that should get timely review. So I would like to 
see your application. You let me worry about what to do with 
it, OK?
    Dr. Kennedy. OK.
    Mr. Burton. Dr. Katz, have you had any kids suffer adverse 
reactions?
    Dr. Katz. Yes.
    Mr. Burton. What kind?
    Dr. Katz. I've had a youngster whose arm got so swollen it 
ran from his wrist up to his shoulder. I've had children who 
have developed what apparently were febrile seizures. That is, 
they got such high fevers that they had a seizure following a 
previous immunization.
    Mr. Burton. Do you have any that were autistic?
    Dr. Katz. No. I happen to work in an institution with a 
neurologist whose life work has been on autism, and he has 
presented us as well as published in the neurology literature, 
some as recently as June 1999, his approach to autism, and it 
has nothing to do with vaccines.
    Mr. Burton. I'm sure. The question that I would like to ask 
is the pertussis vaccine that they were talking about a while 
ago. If you thought that it caused autism in some children, 
would you give it to your grandchildren?
    Dr. Katz. I think that if I believed it caused autism, I 
would have severe reservations. I agree with you.
    Mr. Burton. That's all I want to know, because there are a 
lot of people that believe that it does, and I'm one of them. 
Do you think that people that feel there is a real risk to 
their loved ones should give that kind of a vaccination or be 
required to do it?
    Dr. Katz. I don't believe that you should labor under the 
burden of saying I really believe this and I don't want my 
child to be immunized. I think you have to accept the fact, 
however, that if your child goes to school or to day care, for 
example, and there is a case of whooping cough in the school, 
your child would be banned from school because they are not 
immunized.
    Mr. Burton. Let me ask Dr. Kennedy a question. What did you 
say was the percentage of reactions to the pertussis vaccine 
within the first 48 hours?
    Dr. Kennedy. It was within the first 72 hours. Approaching 
50 percent.
    Mr. Burton. Fifty percent. Just a second. Fifty percent 
would have an adverse reaction within the first 72 hours?
    Dr. Kennedy. I will provide you with the documentation that 
quotes that.
    Mr. Burton. In many cases that is not of long duration.
    Dr. Kennedy. Right. Correct.
    Mr. Burton. It is something that comes and goes.
    Do you have any percentages that show the adverse reaction 
that is of long duration?
    Dr. Kennedy. No, I don't.
    Mr. Burton. So we really don't know. You know that there is 
an adverse reaction that is pretty substantial within the first 
72 hours in half of the cases where they give those shots.
    Dr. Katz. We haven't used that vaccine for several years, 
Mr. Burton. I think one of the things that I would love to 
point out to you is that we do improve. We use the acellular 
vaccine in this country. The British continue to use the 
vaccine that Dr. Kennedy has described. We haven't used it for 
several years in this country.
    Mr. Burton. Is the DTP vaccine rather than the DTaP vaccine 
still being used?
    Dr. Katz. The DTaP vaccine is being used, which has an 
infinitesimal degree of reactivity compared to the DTP.
    Mr. Burton. The Department is behind you. Is the DTP 
vaccine still being used in this country?
    Mr. Egan. Yes.
    Mr. Burton. It's still being used in this country. So, Dr. 
Katz, you are incorrect. It is being used in this country.
    Dr. Katz. If it is, it's in a very small percentage.
    Mr. Burton. It doesn't matter if it's your kid or your 
grandchild. If they get a DTP vaccine and there is this adverse 
reaction that Dr. Kennedy is talking about, it's of great 
concern to people, and we don't know whether it leads to autism 
or not, but I have an autistic grandchild, and we've had a 
number of other people that have seen tremendous problems with 
autism, and they are still using that vaccine. You said you 
didn't think they were.
    Dr. Katz. I said they are still using it in the United 
Kingdom. They don't use acellular pertussis vaccine.
    Mr. Burton. That's the United Kingdom. It's not the United 
States of America.
    Dr. Katz. The World Health Organization is using it 
throughout the world. We are the only country with the 
exception of Japan that made the switch.
    Mr. Burton. I know, but if it's causing adverse reactions 
that are so severe that they affect people in the first 72 
hours, 50 percent of them, it should be something that is 
clearly looked into, and if there is any indication it may 
cause autism, it should be really scrutinized.
    Let me yield to the doctor here, and I will come back for 
some more questions in a moment.
    Mr. Weldon. Maybe our friends in the back can answer. I 
thought we withdrew all the DPT, the cellular pertussis in the 
United States. It is still licensed and it is still sold in the 
United States; is that correct?
    Mr. Egan. Yes.
    Mr. Weldon. The FDA has never ordered that to be withdrawn? 
Why was it not ordered to be withdrawn considering the higher 
incidence of side effects? They felt that the side effects were 
not sufficiently life-threatening to warrant it's withdrawal? 
Is that the rationale?
    For the record, Mr. Chairman, this pertussis issue is 
something that I followed through the years, and I thought it 
was completely off the market. That may be something that we 
may need to address.
    If I may just go a little bit further. Dr. Kinsbourne, I 
really enjoyed your testimony. You seem to get at a lot of the 
problems. Some of the issues that you brought up I've had 
conversations with other scientists and some of the folks that 
have already testified. The real bottom line issue is that 
there would have to be very significant funding to get at these 
issues, because it would require some very large studies that 
would have to be extended over many, many years, correct?
    Dr. Kinsbourne. Yes, sir.
    Mr. Weldon. Unless those studies are done, the questions 
that you were posing are very difficult for us to answer, 
correct?
    Dr. Kinsbourne. Could not be answered until they are done. 
So the sooner they are started the sooner they will be 
answered.
    Mr. Weldon. The only other point I would like to make, Mr. 
Chairman, is that if these studies are done, they may show that 
the vaccines are much safer than is being alleged by some of 
the people who have provided testimony. Until they are done, 
the public discontent that exists among some element in our 
country is not going to go away, and it would be a mistake for 
us to just take the face value of some who have testified 
alluding to the fact that all is well. All may not be well, and 
the responsibility ultimately is going to fall to political 
leaders in this country to make sure that the proper research 
is done.
    I again want to thank you, Mr. Chairman, for holding these 
hearings.
    Mr. Burton. Thank you, doctor.
    Mr. Weldon. Did you want to respond to my comments at all?
    Dr. Kinsbourne. Only to agree wholeheartedly. I think even 
if the public were to see that the work was being done they 
would comply more willingly with the mandates.
    Mr. Weldon. I will share this with you, Dr. Katz. In 
politics they say perception is reality. If your opponent buys 
$500,000 worth of TV ads and says that you cheated on your wife 
even though you have never cheated on your wife, if the end 
result is that three out of four voters conclude that you 
cheated on your wife and therefore they should vote against you 
and you lose your reelection, that is reality. Even if our 
vaccines are extremely safe, if the perception is growing out 
there that the vaccines are not safe and people are starting to 
refuse their vaccinations, then we've got a problem. The way to 
address this, though, is we need to better fund the agencies 
that need to do the research.
    Mr. Burton. I think that is a very good point, doctor.
    Who manufactures the DTP vaccine?
    Dr. Kinsbourne. Lederle.
    Dr. Kennedy. Wyeth Lederle Pediatric Vaccines it is now 
called.
    Mr. Burton. Is that the only one that manufactures that?
    Dr. Kennedy. No. There are a couple others that make the 
whole cell pertussis. I don't know it off the top of my head.
    Dr. Kinsbourne. Connaught is another company.
    Mr. Burton. Those are both domestic companies here in the 
United States?
    Dr. Kinsbourne. I think Connaught is largely Canadian.
    Dr. Kennedy. It's Pasteur Merieux Connaught, but they have 
a manufacturing facility in the United States, in Pennsylvania.
    Mr. Burton. You may not know this. I may have to check into 
this in a later hearing or something. Do you know if they give 
any funds or grants or honorariums to anybody over at NIH or 
CDC?
    Dr. Katz. No.
    Mr. Burton. They do not?
    Dr. Katz. No.
    Mr. Burton. You're sure about that?
    Dr. Katz. I am sure that people at NIH are not allowed to 
take funds even from universities. If I invite an NIH 
investigator to give a lecture at Duke, I can't even pay him an 
honorarium.
    Mr. Burton. According to my assistant here, that isn't the 
case.
    Dr. Katz. Maybe you could ask Dr. Rabinovich. She works at 
NIH.
    Mr. Burton. They can accept honorariums, I believe. Can't 
you?
    Dr. Katz. Regina, do you want to respond?
    Mr. Burton. Aren't you the general counsel?
    Dr. Rabinovich. No. I'm here from the National Institutes 
of Health. We do receive ethics training, and I've never 
accepted an honorarium. There may be other situations in which 
intramural investigators can. We can provide that information 
for you.
    Mr. Burton. I'd like to have that.
    Dr. Rabinovich. But I do not.
    Mr. Burton. Thank you. I would like to have that 
information if I could.
    I just can't for the life of me fathom why that one vaccine 
is still on the market and being manufactured and sold here and 
used in the United States. I just don't understand that.
    Can you explain that, Dr. Kennedy?
    Dr. Kennedy. I can maybe address the situation relative to 
the issue of combination vaccines and why it may still be 
there. There were studies done where they were combining the 
DTaP vaccine with the haemophilus influenza type B glyco-
conjugate vaccine, and a number of studies, both in non-human 
primate models and in children, suggested that by combining and 
then giving it at a single site that you would interfere with 
the ability to respond to the haemophilus influenza type B 
[HIB] component, and the interference appeared to be as a 
result of the acellular components.
    They do not know the mechanism. They knew if they took out 
the acellular component and did a DT/HIB combination, it went 
fine. If they did the DTaP at one site and then the HIB at the 
other site, the response was fine. If they did the DTP/HIB, it 
appeared to be fine from a standpoint of responding to all four 
of the components.
    That could be one of the potential reasons, because some of 
the first licensed combination vaccines are DTP/HIB, et cetera. 
It doesn't make sense, but that's----
    Mr. Burton. I'm not sure I comprehend if there is that kind 
of a reaction in 50 percent of the cases in the first 72 hours 
why it's on the market. I just do not understand that.
    Do you have any reason why that would be the case, why they 
would keep that on the market and continue to use it?
    Dr. Kennedy. Yes. If people are not complaining, you can 
make quite a bit of money. What it comes down to the vaccine 
manufacturers, it's money if the vaccine has already been 
produced; its already licensed.
    Mr. Burton. I know, but the people sitting behind you are 
not influenced by these pharmaceutical companies. I'm sure of 
that. So why would they not insist that it be taken off the 
market?
    Dr. Katz. This vaccine has been used for 40 years in this 
country and its record of achievement has been a very 
successful one. What he is describing as 50 percent is sore 
arms, sore legs, redness, fever. It's not life-threatening 
reactions. It is more reactive than the acellular vaccine, 
which is why most people have switched to the acellular 
vaccine, but these are not life-threatening reactions that have 
been shown with the whole cell pertussis to be any more than 
with any other acellular pertussis.
    Mr. Burton. These are FDA serious events in 1999. How many 
are in here, 1,500 or more?
    Dr. Kennedy, of these 50 percent of the reactions were any 
of them pretty severe?
    Dr. Kennedy. Yes. Quite a few were more severe, such as the 
high pitched screaming, the crying, the fever, the shock-like 
syndrome.
    Mr. Burton. Running around and waving their arms and that 
sort of thing?
    Dr. Kennedy. Yes, but the percentage I could not find.
    Mr. Burton. I will tell you that is exactly what happened 
to my grandson. Exactly. He ran around waving his arms, a high 
pitched scream, waving his arms up and down, and everything 
else, and he's autistic now.
    I'm getting a little emotional about this. I think we will 
conclude this hearing. But I want to tell you, this isn't the 
end of it.
    We stand adjourned.
    [Whereupon at 7:30 p.m., the committee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T2560.214

[GRAPHIC] [TIFF OMITTED] T2560.215

[GRAPHIC] [TIFF OMITTED] T2560.216

[GRAPHIC] [TIFF OMITTED] T2560.217

[GRAPHIC] [TIFF OMITTED] T2560.218

[GRAPHIC] [TIFF OMITTED] T2560.219

[GRAPHIC] [TIFF OMITTED] T2560.220

[GRAPHIC] [TIFF OMITTED] T2560.221

[GRAPHIC] [TIFF OMITTED] T2560.222

[GRAPHIC] [TIFF OMITTED] T2560.223

[GRAPHIC] [TIFF OMITTED] T2560.224

[GRAPHIC] [TIFF OMITTED] T2560.225

[GRAPHIC] [TIFF OMITTED] T2560.226

[GRAPHIC] [TIFF OMITTED] T2560.227

[GRAPHIC] [TIFF OMITTED] T2560.228


</pre></body></html>
